<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                  NORMAN D. DICKS, Washington, Chairman

 PETER J. VISCLOSKY, Indiana        C. W. BILL YOUNG, Florida
 JAMES P. MORAN, Virginia           RODNEY P. FRELINGHUYSEN, New Jersey
 MARCY KAPTUR, Ohio                 TODD TIAHRT, Kansas
 ALLEN BOYD, Florida                JACK KINGSTON, Georgia
 STEVEN R. ROTHMAN, New Jersey      KAY GRANGER, Texas
 SANFORD D. BISHOP, Jr., Georgia    HAROLD ROGERS, Kentucky             
 MAURICE D. HINCHEY, New York       
 CAROLYN C. KILPATRICK, Michigan    
 TIM RYAN, Ohio                     
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Paul Juola, Greg Lankler, Sarah Young, Paul Terry, Kris Mallard, Adam 
                                Harris,
      Ann Reese, Brooke Boyer, Tim Prince, B G Wright, Chris White,
           Celes Hughes, and Adrienne Ramsay, Staff Assistants
       Sherry L. Young, and Tracey LaTurner, Administrative Aides
                                ________
                                 PART 4
                                                                   Page
  Defense Health Program / Wounded Warrior........................    1
 Missile Defense Agency...........................................  125
 Public Witnesses.................................................  179
                                ________

         Printed for the use of the Committee on Appropriations
         PART 4--DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011
                                                                      


             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                  NORMAN D. DICKS, Washington, Chairman

 PETER J. VISCLOSKY, Indiana        C. W. BILL YOUNG, Florida
 JAMES P. MORAN, Virginia           RODNEY P. FRELINGHUYSEN, New Jersey
 MARCY KAPTUR, Ohio                 TODD TIAHRT, Kansas
 ALLEN BOYD, Florida                JACK KINGSTON, Georgia
 STEVEN R. ROTHMAN, New Jersey      KAY GRANGER, Texas
 SANFORD D. BISHOP, Jr., Georgia    HAROLD ROGERS, Kentucky             
 MAURICE D. HINCHEY, New York       
 CAROLYN C. KILPATRICK, Michigan    
 TIM RYAN, Ohio                     
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Paul Juola, Greg Lankler, Sarah Young, Paul Terry, Kris Mallard, Adam 
                                Harris,
      Ann Reese, Brooke Boyer, Tim Prince, B G Wright, Chris White,
           Celes Hughes, and Adrienne Ramsay, Staff Assistants
       Sherry L. Young, and Tracey LaTurner, Administrative Aides
                                ________
                                 PART 4
                                                                   Page
  Defense Health Program / Wounded Warrior........................    1
 Missile Defense Agency...........................................  125
 Public Witnesses.................................................  179
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 66-611                     WASHINGTON : 2011

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman
 
 NORMAN D. DICKS, Washington        JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia    C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York          RODNEY P. FRELINGHUYSEN, New   
 ROSA L. DeLAURO, Connecticut       Jersey
 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts       ZACH WAMP, Tennessee
 ED PASTOR, Arizona                 TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina     ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California  JOHN ABNEY CULBERSON, Texas
 SAM FARR, California               MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois    ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan    DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania         RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey      KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia    JO BONNER, Alabama
 MARION BERRY, Arkansas             STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California            TOM COLE, Oklahoma              
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania    
                                    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011

                              ----------                              --
--------

                                          Thursday, April 22, 2010.

                 DEFENSE HEALTH PROGRAM/WOUNDED WARRIOR

                               WITNESSES 

DR. CHARLES L. RICE, PRESIDENT, UNIFORMED SERVICES UNIVERSITY OF THE 
    HEALTH SCIENCES, PERFORMING THE DUTIES OF THE ASSISTANT SECRETARY 
    OF DEFENSE FOR HEALTH AFFAIRS, AND ACTING DIRECTOR, TRICARE 
    MANAGEMENT ACTIVITY
LIEUTENANT GENERAL ERIC SCHOOMAKER, ARMY SURGEON GENERAL AND COMMANDER, 
    U.S. MEDICAL COMMAND
VICE ADMIRAL ADAM M. ROBINSON, JR., MC, USN, SURGEON GENERAL OF THE 
    NAVY
LIEUTENANT GENERAL (DR.) CHARLES B. GREEN, AIR FORCE SURGEON GENERAL

                  Opening Statement of Chairman Dicks

    Mr. Dicks. The Committee will come to order. Today, the 
committee will receive testimony regarding the Defense Health 
Program and the Wounded Warrior Program. This hearing will 
cover the fiscal year 2011 budget request and various medical 
treatment issues pertaining to Soldiers and their family 
members.
    The Department faces a tremendous challenge with the 
growing cost and long-term sustainability of the military 
health system. The military health system has taken several 
important steps to prepare our military forces and our military 
medical forces for the future. For the first time, the 
Department of Defense has fully funded the Defense Health 
Program in the fiscal year 2011 budget submission. The request 
also includes $2.5 billion for the wounded, ill, and injured. 
The request includes $30.9 billion for operations and 
maintenance, procurement, research and development. The total 
military health program is $49.6 billion for 2011. This 
includes the payment of $9.3 billion to the Department of 
Defense Medicare-eligible Retiree Health Care Fund and $9.3 
billion in personnel, Base Closure and Realignment Commission 
(BRAC), and military construction costs.
    The Department continues to focus on the need for mental 
health counseling and readjustment support for our 
servicemembers returning from deployments. It is important for 
the Department to get to the heart of the issues that soldiers 
and their families face during and after lengthy deployments. 
The Department is making strides with improvements to 
psychological health screening, but much more still needs to be 
done.
    The Defense Health Program's cost continues to grow at a 
similar rate to that experienced in the United States health-
care system at large. In addition, it is likely that benefits 
for members, their families, and military retirees are likely 
to expand over the coming years. As such, one of the themes 
from this hearing is what initiatives should Congress consider 
that would sustain health-care benefits, support the needs of 
troops and their family members, and improve care, yet control 
cost growth.
    We look forward to your testimony and to a spirited and 
informative question-and-answer session.
    Now, before we hear your testimony, I would like to call on 
the ranking member, my good friend, Mr. Young, who was formerly 
Chairman of this subcommittee.
    Mr. Young.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much. I want to add 
my welcome to our distinguished witnesses today. I think no one 
is going to be surprised when I say that it is the opinion--my 
opinion and the opinion of most of this committee--that this is 
one of the most important hearings that we will have this year.
    As the Chairman has said, the well-being and health of our 
troops, their families, is something that Mr. Murtha took very 
seriously, something that Mr. Dicks, the present chairman takes 
very seriously, and I and the rest of this subcommittee. And we 
have been stressing for years that it is essential that we take 
care of our Soldiers, Sailors, Marines, Airmen, Air women, and 
their families. They deserve the best and most affordable 
health care we can provide them, as do our veterans.
    Just yesterday morning, in a similar hearing, we discussed 
the consolidation of medical facilities in the National Capital 
Region and what will it take to ensure a world-class health 
care system. If it is not already, that world-class standard 
should be the goal across all of medical treatment facilities, 
not just those in the capital region.
    It is our job, your job, to make sure we take care of our 
injured heroes, and there is perhaps no job more important to 
the subcommittee than that. I know that you take this very 
seriously, and I appreciate your commitment to providing them 
the best care possible.
    So welcome, again. I look forward to your testimony. Just 
be assured that whatever it is that you need to guarantee the 
proper care of our wounded warriors, our heroes, this 
subcommittee is interested in providing that. So let us know 
what it is. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Dicks. Thank you, Mr. Young.
    Dr. Rice, would you like to start first?
    Dr. Rice. Yes, sir.
    Mr. Dicks. We will put all the statements in the record and 
you may proceed as you wish.

                     Summary Statement of Dr. Rice

    Dr. Rice. Thank you, sir.
    Thank you, Mr. Chairman and distinguished members of the 
committee, for the opportunity to come before you today. I am 
honored to be able to testify on behalf of the men and women 
who serve in our Military Health System, and deeply 
appreciative of the support that this committee has always 
provided military medicine. I have, as you note, submitted my 
written comments to the committee. I would like to make a few 
very brief opening remarks.
    I approach my role as the Senior Medical Advisor to 
Secretary Gates and Secretary Stanley, at least on a temporary 
basis, with the advantages of multiple perspectives: as a 
trauma surgeon, as an educator, as a retired Navy medical 
officer, and as the father of an Active Duty naval aviator.
    The performance of our military medics in combat remains 
nothing short of remarkable. In addition to the lifesaving care 
on the battlefield, we are continuously improving the medical 
readiness of the total force. We monitor and record the health 
of servicemembers in the most comprehensive manner ever 
witnessed throughout the cycle of deployment: before, during, 
and after their service in the combat theaters. Despite the 
breakneck pace of combat, most recently our medical personnel 
have responded heroically to the natural disasters in Haiti and 
Chile. I know that you share this pride in the people who serve 
in our system.
    Today I want to focus on those areas where greater 
attention is required for me, during the hopefully short time I 
serve in this capacity, so that you will understand where I am 
focusing my energies. First, our deepest obligations are 
reserved for the casualties returning to the United States, and 
to the families and other caregivers who support them.
    Substantial progress has been made since the problems with 
Wounded Warrior first came to light in 2007. More needs to 
happen on our end to ensure that the programs, services, health 
information, and communication are knitted together more 
tightly, so that we can provide clearer and more cohesive 
services to the families who continue to sacrifice so much.
    Second, I am intently focused on the performance and the 
perception of the electronic health record. My intention is not 
to micromanage the many technological issues, but to determine 
whether our proposed solutions will result in a better 
capability for our providers, nurses, physicians, pharmacists, 
and all the other key members of the health care team, and 
deliver value for patients. The only real test for a successful 
electronic health record is whether it leads to higher-quality 
care and the improvement of the health of the population that 
it serves. It must not and cannot fail that test.
    Third, the Department continues to implement the broad 
changes required by the 2005 BRAC Commission. Our approach to 
the right organizational construct and how we build medical 
facilities design must result in better services, better 
quality, and better access for our patients. Investments in 
evidence-based design concepts for our new facilities are 
critically important. They offer a better healing environment 
for patients and their families. Belvoir will be a showcase for 
this new approach, a truly dazzling design that will create an 
unmatched healing environment.
    Fourth, we are working to resolve the serious matters 
identified in the protests that were upheld by the General 
Accountability Office regarding the T3 contract awards. While 
the issues that we must address are serious, I am reassured and 
want to reassure you that the internal issues affecting these 
awards have not affected the day-to-day service for our 
beneficiaries.
    Nonetheless, our efforts to control TRICARE cost growth are 
closely linked to the effective implementation of new 
contracts, and it is in the best interest of the government and 
of the organizations involved in these contract decisions to 
move toward a definitive conclusion.
    Finally, I want to briefly comment on the larger issue of 
national health care reform that has been the focus of so much 
recent attention. Although the military health care system is a 
unique system of care, we do not function apart from the 
civilian health care system used by the American people. In 
fact, almost 70 percent of the care our beneficiaries receive 
is delivered by our civilian colleagues.
    TRICARE benefits are administered separately from the new 
health-care reform law. We know that the DOD medical benefit 
is, appropriately, one of the most comprehensive benefits of 
any employer. One visit to the Walter Reed or the National 
Naval Medical Center or Wilford Hall or Brooke, demonstrates 
why this should be so, more than any words I can offer here.
    Yet there are other potential benefits that will accrue to 
the military services when more Americans are covered by 
insurance. This includes a more medically fit recruiting pool, 
greater investments in comparative effectiveness research that 
will help all practitioners of care with developing 
scientifically validated approaches to medicine, and a more 
secure transition for those members of our Armed Forces who 
decide to separate prior to full retirement.
    I will be working with my health care colleagues at Health 
and Human Services and elsewhere to ensure that we are 
appropriately involved in the implementation of health care 
reform initiatives that both reassure our beneficiaries and 
promote the goals of reform.
    One area in which legislation has been proposed to match 
TRICARE to the new health insurance requirements is the 
extension of health insurance coverage to children of eligible 
beneficiaries to the age of 26. Our staff is performing 
preliminary actuarial work to determine the anticipated 
additional cost to the Department for this coverage expansion 
and to develop an equitable premium for this expanded coverage 
as directed by legislation.
    Mr. Chairman, I want to thank you again for your leadership 
and for your steadfast support of the military health system, 
and I look forward to answering your questions.
    Mr. Dicks. Thank you, Dr. Rice.
    [The statement of Dr. Rice follows:]

    [GRAPHIC] [TIFF OMITTED] T6611A.001
    
    [GRAPHIC] [TIFF OMITTED] T6611A.002
    
    [GRAPHIC] [TIFF OMITTED] T6611A.003
    
    [GRAPHIC] [TIFF OMITTED] T6611A.004
    
    [GRAPHIC] [TIFF OMITTED] T6611A.005
    
    [GRAPHIC] [TIFF OMITTED] T6611A.006
    
    [GRAPHIC] [TIFF OMITTED] T6611A.007
    
    [GRAPHIC] [TIFF OMITTED] T6611A.008
    
    [GRAPHIC] [TIFF OMITTED] T6611A.009
    
    [GRAPHIC] [TIFF OMITTED] T6611A.010
    
    Mr. Dicks. General Schoomaker.

                Summary Statement of General Schoomaker

    General Schoomaker. Chairman Dicks, Representative Young, 
distinguished members of the Defense Subcommittee, thank you 
for inviting us to discuss the Defense Health Programs and our 
respective service medical programs. I am now in my third 
congressional hearing cycle as the Army Surgeon General and the 
Commanding General of the Army Medical Command. I can tell you 
that these hearings are valuable opportunities for me to talk 
about the accomplishments of Army medicine and to hear your 
collective perspectives regarding military health promotion and 
health care.
    I, and I know my colleagues as well, are saddened to be in 
this hearing today without one of military medicine's strongest 
supporters. Chairman Jack Murtha was a friend of the Military 
Health System, of Army medicine, and a soldier on point for the 
Nation. I extend my personal sympathies to his family and to 
those with whom he worked closely, to those in his district he 
represented so faithfully, and to those he inspired. He is 
deeply missed.
    Chairman Dicks, I certainly look forward to working with 
you in your new role and to continue the great support and 
guidance this committee has provided for the Military Health 
System.
    I am pleased to tell you that the President's budget 
submission for fiscal year 2011 fully funds the Army Medical 
Department's needs. Your support of the President's proposed 
budget will be greatly appreciated.
    One area of special interest to this subcommittee is our 
comprehensive effort to improve warrior care, from the point of 
injury through evacuation and inpatient treatment to 
rehabilitation and return to duty. This is really a tri-service 
effort and done very cooperatively with my colleagues to the 
left. There is nothing more gratifying than to care for these 
wounded or injured heroes.
    We in Army medicine continue to focus our effort on 
wounded, ill, and injured warriors, and I want to thank 
Congress for your unwavering support. You all have been very, 
very instrumental in the improvements that Army medicine has 
made in this regard and across the Joint force. The support of 
this committee has allowed us to hire additional providers to 
staff our Warrior Transition Units, to conduct relevant medical 
research, and to build the healing campuses, the first of which 
will be opened at Fort Riley, Kansas in late May.
    I am convinced that Army has made some lasting 
improvements. The most improvement may be a change in the 
mindset from a focus on disability to an emphasis on ability 
and achievement. Each of these warriors has an opportunity and 
the resources to create their own future as soldiers or as 
productive private citizens. In fulfilling our moral obligation 
to our soldiers, we have established a comprehensive program of 
world-class medical care, of rehabilitation, professional 
development, and personal goal setting.
    Today, we have 29 Warrior Transition Units and nine 
community-based Warrior Transition Units out in individual 
States, staffed by more than 3,900 personnel who manage the 
care and support for approximately 9,000 soldiers and their 
families who are currently in the program.
    The cornerstone of any warrior's successful transition is 
what we call the Army's Comprehensive Transition Plan. It is 
the warrior's holistic plan for his or her future. As detailed 
in my written testimony, the Comprehensive Transition Plan is 
tailored to a warrior's individual situation. It takes account 
of six demands: career, physical, social, emotional, spiritual, 
and family support needs.
    A second area of special interest for this committee is 
psychological health. Army Medicine, under the direction of our 
new Deputy Surgeon General, Major General Patty Horoho, most 
recently the Commanding General of the Western Regional Medical 
Command--and, sir, I know that you know her very well--at Fort 
Lewis, is finalizing a comprehensive behavioral health system 
of care plan. This comprehensive system of care is intended to 
standardize and to synchronize the vast array of behavioral 
health activities that occur across the Medical Command and 
throughout the Army's force generation cycle--this iterative 
cycle of deployment, of support for families and the soldier, 
while they are in deployment, and reintegrating them when they 
return from deployment. I look forward to sharing more 
information with you over the next months as we roll out this 
exciting initiative.
    In keeping with our focus on preventing injury and illness, 
Army Medicine and Army leadership is currently engaged in an 
all-out effort to change the military mindset regarding 
traumatic brain injury, especially the milder form, or 
concussion. Our goal is nothing less than a cultural change in 
fighter management after potential concussive events on the 
battlefield. To achieve this goal, we are educating the force 
so as to have trained and prepared soldiers, leaders, and 
medical personnel to provide early recognition, treatment, and 
tracking of concussive injuries, ultimately designed to protect 
the warrior's health--no different than what would occur on a 
sports field in America today.
    I brought with me today a packet. It is called ``The Brain 
Injury Awareness Tool Kit.'' I ask that we be permitted to 
share this with you and your staffs. It contains patient 
information materials as well as an informative DVD--a kind of 
concussive brain injury 101, that is used to educate soldiers 
before they deploy overseas. This further highlights strong 
efforts by Army's leadership and the DOD leadership to reduce 
the stigma associated with seeking help for this injury and for 
any behavioral health problem that may occur jointly or 
separately from the brain injury.
    The end state of these efforts is that every servicemember 
sustaining a possible concussion will receive early detection, 
state-of-the-art treatment, and a return-to-duty evaluation in 
the long-term digital health record that Dr. Rice referred to 
earlier, to track their management. I truly believe our 
evidence-based directive approach to concussion management will 
change the military culture regarding head injuries and impact 
the well-being of the force.
    In closing, I am very optimistic about the future of Army 
Medicine. I feel very privileged to serve the men and women of 
Army Medicine as soldiers, Americans, and as global citizens. 
Thanks for holding this hearing and for your steadfast support 
of the Military Health System and Army Medicine.
    [The statement of General Schoomaker follows:]

    [GRAPHIC] [TIFF OMITTED] T6611A.011
    
    [GRAPHIC] [TIFF OMITTED] T6611A.012
    
    [GRAPHIC] [TIFF OMITTED] T6611A.013
    
    [GRAPHIC] [TIFF OMITTED] T6611A.014
    
    [GRAPHIC] [TIFF OMITTED] T6611A.015
    
    [GRAPHIC] [TIFF OMITTED] T6611A.016
    
    [GRAPHIC] [TIFF OMITTED] T6611A.017
    
    [GRAPHIC] [TIFF OMITTED] T6611A.018
    
    [GRAPHIC] [TIFF OMITTED] T6611A.019
    
    [GRAPHIC] [TIFF OMITTED] T6611A.020
    
    [GRAPHIC] [TIFF OMITTED] T6611A.021
    
    [GRAPHIC] [TIFF OMITTED] T6611A.022
    
    [GRAPHIC] [TIFF OMITTED] T6611A.023
    
    [GRAPHIC] [TIFF OMITTED] T6611A.024
    
    [GRAPHIC] [TIFF OMITTED] T6611A.025
    
    [GRAPHIC] [TIFF OMITTED] T6611A.026
    
    [GRAPHIC] [TIFF OMITTED] T6611A.027
    
    [GRAPHIC] [TIFF OMITTED] T6611A.028
    
    [GRAPHIC] [TIFF OMITTED] T6611A.029
    
    Mr. Dicks. Admiral Robinson.

                 Summary Statement of Admiral Robinson

    Admiral Robinson. Good morning, Chairman Dicks, 
distinguished members of the subcommittee. I want to thank you 
for your unwavering support of Navy Medicine, particularly as 
we continue to care for those who go in harm's way, their 
families, and all beneficiaries.
    I am honored to be with you today to provide an update on 
Navy Medicine. Navy Medicine: World-Class Care Anytime, 
Anywhere. This poignant phrase is arguably the most telling 
description of Navy Medicine's accomplishments in 2009, and 
continues to drive our operational tempo and priorities for the 
coming year and beyond.
    Throughout the last year, we saw challenges and 
opportunities. And moving forward, I anticipate the pace of 
operations and demands will continue to increase. We have been 
stretched in our ability to meet our increasing operational and 
humanitarian assistance requirements as well as maintain our 
commitment to provide care to a growing number of 
beneficiaries. However, I am proud to say that we are 
responding to this demand with flexibility and agility more so 
than ever before.
    The foundation of Navy Medicine is force health protection. 
Nowhere is this more evident than in Iraq and Afghanistan. 
During my October 2009 trip to theater, I again saw the 
outstanding work of our medical personnel. The Navy Medicine 
team is working side by side with Army and Air Force, medical 
personnel and coalition forces to deliver outstanding health 
care to our troops and civilians alike. As our Wounded Warriors 
return from combat and begin the healing process, they deserve 
a seamless and comprehensive approach to their recovery. We 
want them to mend in body, mind, and spirit.
    Our patient- and family-centered concept of care brings 
together medical treatment providers, social workers, case 
managers, behavioral health providers, and chaplains. We are 
working closely with our line counterparts in the Marine Corps 
Wounded Warrior Regiments and the Navy's Safe Harbor program to 
support the process for Sailors, Marines, and for their 
families.
    An important focus area for all of us continues to be 
traumatic brain injury. We are expanding TBI training to health 
care providers throughout the Fleet and Marine Corps. We are 
also implementing a new in-theater traumatic surveillance 
system and conducting important research. Our strategy is both 
collaborative and integrative, by actively partnering with the 
other services, the Defense Center of Excellence for 
Psychological Health and Traumatic Brain Injury, the Department 
of Veterans Affairs, and leading academic medical and research 
centers to make the best care available to our warriors.
    We must act with a sense of urgency to continue to help 
build resiliency among our Sailors and Marines as well as the 
caregivers who support them. We are aggressively working to 
reduce the stigma surrounding psychological health and 
operational stress concerns. Programs such as the Navy's 
Operational Stress Control, Marine Corps Combat Operational 
Stress Control, FOCUS (Families Overcoming Under Stress) 
Caregiver Occupational Stress Control, and our suicide 
prevention programs are in place and maturing to provide 
support to personnel and their families.
    Mental health specialists are being placed in operational 
environments and forward-deployed to provide services where and 
when they are needed. The Marine Corps is sending more mental 
health teams to the front lines, and Operational Stress Control 
and Readiness teams, known as OSCAR, will soon be expanded to 
include the battalion level. A mobile care team of Navy 
Medicine mental health professionals is currently deployed to 
Afghanistan, conducting mental health surveillance, consulting 
with command leadership, and coordinating mental health care 
for Sailors throughout the Area of Responsibility (AOR).
    An integral part of Navy's Maritime Strategy is 
humanitarian assistance and disaster relief. In support of 
Operation United Response-Haiti, we deployed USNS Comfort from 
her homeport in Baltimore within 77 hours of the order and 
ahead of schedule. She was on station in Port au Prince 5 days 
later. From the beginning, the operational tempo onboard 
Comfort was high, and our personnel were challenged both 
professionally and personally. For many, this was a career-
defining experience. And I was proud to welcome the crew home 
last month and congratulate them for their outstanding 
performance.
    I am encouraged with our recruiting efforts within Navy 
Medicine and we are starting to see the results of new 
incentive programs. But while overall manning levels for both 
officer and enlisted personnel are relatively high, ensuring we 
have the proper specialty mix continues to be a challenge both 
in the Active and the Reserve components. Several wartime 
critical specialties as well as advanced practice nursing and 
physician assistants are in demand. We are facing shortfalls 
for general dentists, oral maxillofacial surgeons, and many of 
our mental health specialists, including clinical 
psychologists, and social workers. We continue to work hard to 
meet this demand, but fulfilling the requirement among these 
specialties is expected to present a continuing challenge.
    Research and development is critical to Navy Medicine's 
success and our ability to remain agile to meet the evolving 
needs of our warfighters. It is where we find solutions to our 
most challenging problems and, at the same time, provide some 
of medicine's most significant innovations and discoveries.
    Research efforts targeted at wound management, including 
enhanced wound repair and reconstruction, as well as extremity 
and internal hemorrhage control and phantom limb pain in 
amputees present definitive benefits. These efforts support our 
emerging expeditionary medical operation and aid in support of 
our Wounded Warriors.
    Clearly, one of the most important priorities for the 
leadership of all the services is the successful transition to 
the Walter Reed National Military Medical Center onboard the 
campus of the National Naval Medical Center Bethesda. We are 
working diligently with the lead DOD organization--Joint Task 
Force, National Capital Region Medical--to make sure that this 
significant and ambitious project is executed properly and 
without any disruption of services to our Sailors, Marines, and 
their families, and all other beneficiaries for whom we are 
privileged to serve.
    In summary, I believe we are at an important crossroads for 
military medicine. Commitment to our Wounded Warriors and their 
families must never waver, and our programs of support and hope 
must be built and sustained for the long haul. And the long 
haul is the rest of the century, when the young Wounded 
Warriors of today mature into our aging heroes in the years to 
come. They will need our care and support, as will their 
families, for a lifetime.
    On behalf of the men and women of Navy Medicine, I want to 
thank the committee for your tremendous support, for your 
confidence, and for your leadership. It has been my pleasure to 
testify before you today, and I look forward to your questions.
    Mr. Dicks. Thank you, Admiral Robinson.
    [The statement of Admiral Robinson follows:]

    [GRAPHIC] [TIFF OMITTED] T6611A.030
    
    [GRAPHIC] [TIFF OMITTED] T6611A.031
    
    [GRAPHIC] [TIFF OMITTED] T6611A.032
    
    [GRAPHIC] [TIFF OMITTED] T6611A.033
    
    [GRAPHIC] [TIFF OMITTED] T6611A.034
    
    [GRAPHIC] [TIFF OMITTED] T6611A.035
    
    [GRAPHIC] [TIFF OMITTED] T6611A.036
    
    [GRAPHIC] [TIFF OMITTED] T6611A.037
    
    [GRAPHIC] [TIFF OMITTED] T6611A.038
    
    [GRAPHIC] [TIFF OMITTED] T6611A.039
    
    [GRAPHIC] [TIFF OMITTED] T6611A.040
    
    [GRAPHIC] [TIFF OMITTED] T6611A.041
    
    [GRAPHIC] [TIFF OMITTED] T6611A.042
    
    [GRAPHIC] [TIFF OMITTED] T6611A.043
    
    [GRAPHIC] [TIFF OMITTED] T6611A.044
    
    [GRAPHIC] [TIFF OMITTED] T6611A.045
    
    [GRAPHIC] [TIFF OMITTED] T6611A.046
    
    [GRAPHIC] [TIFF OMITTED] T6611A.047
    
    [GRAPHIC] [TIFF OMITTED] T6611A.048
    
    [GRAPHIC] [TIFF OMITTED] T6611A.049
    
    [GRAPHIC] [TIFF OMITTED] T6611A.050
    
    Mr. Dicks. We want to welcome General Green. This is his 
first time testifying before our subcommittee. We welcome you.

                   Summary Statement of General Green

    General Green. Thank you, sir. Chairman Dicks, 
Representative Young, and distinguished members of the 
committee, thank you for the opportunity to join you today and 
address our common goal of providing the best care to our 
warriors and families. The Air Force Medical Service does 
whatever it takes to get our Wounded Warriors home safely.
    Over 1,600 Air Force medics are currently deployed to 40 
locations in 20 countries, delivering state-of-the-art 
preventive medicine, rapid lifesaving care, and critical care 
air evacuation. We have now moved over 70,000 patients safely 
from Iraq and Afghanistan. Air Force medics are responding 
globally in humanitarian missions as well as on the 
battlefield, and in the last 6 months we contributed 
significant support to the treatment and evacuation of 
Indonesian, Haitian, and Chilean earthquake victims.
    You may have heard or seen national news reports about an 
amazing operation that took place last month at Craig Joint-
Theater Hospital in Bagram. Air Force Major Doctor John Bini is 
a seasoned theater hospital trauma surgeon stationed at Wilford 
Hall Medical Center who is deployed to Bagram. When the 
radiologist discovered a live explosive round in an Afghan 
patient's head, there was no hesitation as Major Bini and his 
anesthesiologist, Major Doctor Jeffrey Rengel put on body armor 
and went to work. They evacuated the OR, leaving only the two 
of them and a bomb technician with a patient, and within 10 
minutes removed the live round. Miraculously, the patient has 
been discharged and is recovering, able to walk, talk, and feed 
himself.
    At home, our health-care teams share patient-centered care 
to produce healthy and resilient airmen and provide families 
and retirees with full-spectrum health care. Our suicide and 
resiliency programs are targeting those at highest risk for 
interventions. We have embedded mental health in our family 
health clinics to increase access and reduce stigma. Family 
liaison officers and recovery care coordinators assist our 
Wounded Warriors and families with seamless transition and are 
the backbone of the Air Force Wounded Warrior and Survivor Care 
programs.
    This is what Air Force and Army medics, along with Navy 
corpsmen, are all about. We are trained and ready as a team to 
meet the mission wherever, whenever, and however needed, with 
cutting-edge techniques and equipment or the most basic of 
resources, if this is our only option. We have the lowest died-
of-wounds rate in history because of well-trained, highly 
skilled, and extraordinary people. Our brave and dedicated men 
and women put service before self and demonstrate excellence in 
all they do.
    Thank you for your immeasurable contributions to the 
success of our mission. We deeply appreciate all that you do to 
ensure we recruit and retain these very special medics who are 
devoted to providing trusted care anywhere. We could not 
achieve our goals of better readiness, better health, and best 
value for our heroes and their families without your support.
    I thank you and stand ready to take any questions from the 
committee.
    Mr. Dicks. Thank you for your statement.
    [The statement of General Green follows:]

    [GRAPHIC] [TIFF OMITTED] T6611A.051
    
    [GRAPHIC] [TIFF OMITTED] T6611A.052
    
    [GRAPHIC] [TIFF OMITTED] T6611A.053
    
    [GRAPHIC] [TIFF OMITTED] T6611A.054
    
    [GRAPHIC] [TIFF OMITTED] T6611A.055
    
    [GRAPHIC] [TIFF OMITTED] T6611A.056
    
    [GRAPHIC] [TIFF OMITTED] T6611A.057
    
    [GRAPHIC] [TIFF OMITTED] T6611A.058
    
    [GRAPHIC] [TIFF OMITTED] T6611A.059
    
    [GRAPHIC] [TIFF OMITTED] T6611A.060
    
    [GRAPHIC] [TIFF OMITTED] T6611A.061
    
    [GRAPHIC] [TIFF OMITTED] T6611A.062
    
    [GRAPHIC] [TIFF OMITTED] T6611A.063
    
    [GRAPHIC] [TIFF OMITTED] T6611A.064
    
    [GRAPHIC] [TIFF OMITTED] T6611A.065
    
    [GRAPHIC] [TIFF OMITTED] T6611A.066
    
    [GRAPHIC] [TIFF OMITTED] T6611A.067
    
    [GRAPHIC] [TIFF OMITTED] T6611A.068
    
    [GRAPHIC] [TIFF OMITTED] T6611A.069
    
    [GRAPHIC] [TIFF OMITTED] T6611A.070
    
    [GRAPHIC] [TIFF OMITTED] T6611A.071
    
    [GRAPHIC] [TIFF OMITTED] T6611A.072
    
          IMPACT OF VOLCANIC ASH ON WOUNDED WARRIOR TRANSPORT

    Mr. Dicks. It is very impressive to be at Ramstein and 
Landstuhl and see these planes fly in with these wounded 
warriors.
    Mr. Young.
    Mr. Young. Mr. Chairman, I wanted to say we had a really 
good hearing yesterday. Dr. Rice pretty much led the 
discussions, and was very, very helpful. There were a couple of 
questions that we presented, and I am not sure we got the 
answers exactly accurately, so I want to go back to one or two 
of them.
    One, the Chairman mentioned about Landstuhl and Ramstein 
and the transporting of wounded heroes. We have both been there 
a number of times and experienced seeing this happen. But my 
question yesterday was--there was some kind of notice was 
published that said that we would be bypassing Landstuhl now 
and coming directly to Andrews. The response was that they 
think that was just temporary because of the volcanic ash. I 
would like to get confirmation on that; whether that is the 
case or whether--if in fact it is the practice now to bypass 
Landstuhl when you can.
    General Green. No, sir. That was done solely because of the 
restrictions on aircraft in Europe because of the volcanic ash. 
And so we basically rerouted the airplanes through Balad and 
rotated them up through Rota and then back into here. It is 
very temporary. We have had four or five airplanes do it. There 
has been no effect on the casualty evacuation. As of today, 
Ramstein and Landstuhl are back up again and the casualties 
will go through there again.

                   WALTER REED/BETHESDA CONSOLIDATION

    Mr. Young. Well, I am amazed at how well that system works. 
These kids are getting good care immediately on the scene, at 
the battlefield, and on the way home. I have met a lot of those 
aircraft as they brought wounded heroes. I am just impressed 
with the care that they get. As a matter of fact, I get in 
trouble on occasion, because every time there is a little news 
story about something that went wrong with military medicine, 
my comments are brought back to haunt me. But I have seen 
miracles, what I consider miracles, at Walter Reed and at 
Bethesda.
    And, General Green, I am not that familiar with your 
medical facilities, just because of the proximity here. But I 
think that our Wounded Warriors get outstanding medical care 
and I think your medical professionals are outstanding.
    Having said that, also, again, yesterday we talked briefly 
about the merger of the medical facilities in the capital area. 
I get different responses when I talk to different people, 
those who are at the hospitals. How is that going? You all have 
a little different position than the witnesses that were here 
yesterday because each of you represent your service. But now 
we have this merger. What happens to the identity of your 
service, what happens to the chain of command? Who is really in 
charge of this consolidated medical facility? Let's start with 
that.
    General Schoomaker. Sir, I will take the first. We are the 
Army, and we are losing one of our major and most vulnerable 
institutions. As you know, Walter Reed and the Walter Reed 
campus, which is 100 years old this year--or last year--I 
think, sir, it is going remarkably well. I think we already 
know, the three of us sitting here, that on a day-to-day basis 
at Walter Reed and Bethesda and Malcolm Grow, and at Fort 
Belvoir, for that matter, but to a lesser degree, the staffs 
are already integrated. Training programs are already 
integrated.
    I personally have undergone surgeries over the last several 
years at Walter Reed and at Bethesda. Frankly, the staffs are 
fully integrated. You have Navy surgeons working on soldiers, 
marines, and airmen in an Army hospital, and you have Army 
surgeons and dermatologists and OBs that are delivering 
services to the same mix at a Navy facility.
    And so I think what we are now doing is all the necessary 
steps at a granular level to make sure the civilian workforce 
from Walter Reed--which is the one most affected by this--is 
moved successfully; that they know where they are going and 
what jobs they are going to have.
    But as Admiral Robinson and his subordinate commander 
there, Admiral Nathan, points out, even 90 percent of the 
people currently working at Navy are going to go to different 
slots within different sites within a brand-new facility. So 
everybody is being affected, and I think it is being done in a 
very proactive way.
    I might say, sir, in reference to the earlier comment about 
the trip through Rota, correct me if I am wrong, but it is 
still an onerous trip. It adds considerably to the length of 
the evacuation. I would also comment that every time you see a 
patient at Walter Reed or Bethesda, you are seeing the results 
of Air Force Medicine, because they wouldn't be there and they 
wouldn't be alive and doing as well as they are, were it not 
for the intensive care that they receive in the air from the 
Air Force.
    Admiral Robinson. I would like to underscore what General 
Schoomaker said. I think he hit many of the major issues that 
are there. I would emphasize that in terms of care, the CCAT, 
Air Force, Army, and Navy, and the care of Wounded Warriors and 
trauma care, et cetera, there is no equal in the world. We have 
come together to give that care. And it shows in the 
interoperability and the ethos of all three services in making 
sure we get what we need for our Wounded Warriors.
    I think the same continues in the National Capital Area. I 
think that I am going to take my Chief of Naval Operation's 
position here today to say the care that we give here must 
follow the rule of first principles. First principles say: Let 
us do what we have to do. So let us do the BRAC and let us at 
the same time take care of Wounded Warriors. And then, since 
our services are already integrated and we are joint from a 
medical-care perspective, then we can take on some of the 
challenges of the governance and the other things that we need 
to look at in terms of the long haul for medical care.
    But in terms of making sure that we are focused on patient 
care and on Wounded Warriors and care issues, which are the 
issues that we cannot leave behind, I think we are doing that. 
If we continue to do that, I think we are going to be very 
successful in the BRAC issue.
    And just like the Army said that it is losing a venerable 
institution, the Navy is losing a venerable institution, too, 
in the National Naval Medical Center and the Bethesda Naval 
Hospital. Both of those institutions go away. There is a new 
institution called the Walter Reed National Military Medical 
Center. It may sit on a Navy base on Wisconsin Avenue, but it 
is no longer a Navy hospital in the tradition of Bethesda, nor 
will it be an Army hospital in the tradition of Walter Reed. 
And it will also include Air Force physicians, medics, nurses, 
and ancillary medical personnel from Malcolm Grow. It will be a 
joint hospital that will care for our Wounded Warriors into the 
future.

                        JOINT MEDICAL FACILITIES

    General Green. Malcolm Grow, which is the smaller of the 
medical centers here in town, was actually due to close about 2 
years ago. Because of the BRAC and trying to ensure that we had 
extra capability as we saw all of the construction, we have 
kept the doors open in terms of the inpatient facility through 
the end of 2011. It will become an ambulatory surgical 
facility, and we are keeping roughly the same amount of 
manpower here, with nearly 172 of our staff that will be 
working up in the Walter Reed National Military Medical Center. 
We have also combined residencies with the Army down at Belvoir 
and have family practice residents in the residency at Belvoir.
    My response in terms of how it is going is, I think it is 
going well. We know how to execute a JTF. Air Force is simply 
one component of that JTF. We believe that they have the 
authorities that they need and that we are working closely with 
them. If you go to Bethesda campus today, you will find that 
roughly 55 of the nurses, the ICU nurses, are there. Those same 
nurses are the ones we trained to do Critical Care Air 
Transport Teams (CCATs) and also provide a lot of the work on 
aircraft when it is their turn to deploy.
    So I think it is a very good joint effort in terms of how 
we are bringing this together. There are still issues in terms 
of financing and guidance as we move into more joint operations 
back here at home. But we know how to do this. Our clinical 
care is very joint. And so I would say it is going well, sir.

                               FORT HOOD

    Mr. Young. Well, I appreciate what you have said. If you 
recall, two of you were here last year for the hearing, and I 
expressed some concern about morale, because a lot of the 
medical professionals, the doctors, were wondering where do I 
go next; what is my next job; where is my next location? But 
having been in Walter Reed and Bethesda considerably, and 
recently, I see at Walter Reed a lot of Navy doctors and 
nurses. At Bethesda I see a lot of Army doctors and nurses. And 
I think the morale issue is basically dramatically improved 
because people didn't--last year they didn't really know what 
was happening. This year I think they have a pretty good idea 
of what is happening. I give you all credit for making sure 
that your services were identified, but that you have been able 
to make this merger.
    I know I have taken an awful lot of time. Mr. Chairman, one 
more question I wanted to ask. We are concerned--many of us--
many are concerned about the situation with Major Hasan and the 
shooting at Fort Hood. There has been some criticism that maybe 
his problem should have been detected before he ever got to 
Fort Hood. Are there any changes in watching something like 
this to make sure that if there is a suspicion, that we deal 
with it before it becomes a threat to life and limb?
    Dr. Rice. Congressman Young, I will speak with my hat on as 
the President of the Uniformed Services University. As you 
know, Major Hasan received his M.D. Degree at the Uniformed 
Services University and then came back to do a fellowship. I 
want to be careful in what I say because we have not yet sent 
our report on our analysis up to Secretary Gates. As you know, 
there is an ongoing criminal investigation.
    This touched the faculty, staff, students, and alumni of 
the Uniformed Services University very deeply. And we have 
undertaken a very thorough review. I have received a summary of 
that analysis just this morning, and I think we will be able to 
provide some recommendations to Secretary Gates very shortly.
    I will defer to General Schoomaker, who can discuss the 
Army side of that review.
    General Schoomaker. Yes, sir. Again, mindful that this is 
an open investigation, the Army's subsequent completion of the 
investigation that was begun by the Wes Clark Commission, the 
Army component of which was conducted by General Hamm, the 
Commanding General of the United States Army-Europe, is still 
ongoing and is about to be completed. But I would submit, sir, 
that there have been many lessons, all the way from the 
recognition of self-radicalization within the force, which is a 
real threat, and how we identify that--senior Army leadership, 
DOD leadership, is focused on that--to how we respond in the 
event of a calamity like this at a local installation like Fort 
Hood, to include its emergency response to how we manage 
subsequent consequences of that.
    We launched a fairly unique behavioral health response with 
the help of the Uniformed Services University and others, 
targeting subpopulations like children, like victims, family 
members, and other members of the community that would be 
affected by that. All of these have provided lessons to us.
    But to your point, I have been very clear with my Command 
and with those who have asked, I think although, again, it is 
an open investigation, we all agree there are many aspects of 
the training of Major Hasan that we are looking at very 
closely. But I will stand by my earlier comments that none of 
his behavior, I think, would have been predictive of a mass 
murderer.

                   ACCESS TO PRIMARY CARE HEALTH CARE

    Mr. Young. Well, I think your comment ``lessons learned'' 
was a good comment. I am just happy that you are really paying 
attention to those lessons that we have learned from this 
incident, which was a calamity.
    Mr. Chairman, thank you very much.
    Mr. Dicks. Thank you, Mr. Young. Since we are talking about 
Fort Bragg, there was an article in the Fayetteville, North 
Carolina Observer saying that General Casey had just visited 
Fort Bragg and officials at the Womack Army Medical Center said 
they are aware of problems with access, because the number of 
enrolled beneficiaries at Womack has exceeded the available 
primary care capacity; patients have at times experienced 
difficulty obtaining timely appointments, largely in the area 
of routine and wellness care, Shannon Lynch, a Womack 
spokesman, said in a written statement.
    How serious is this problem and what are you doing about 
it, General Schoomaker?
    General Schoomaker. Sir, access to primary care I would say 
is a problem across the Army. The Chief of Staff of the Army, 
General Casey, and his wife, Mrs. Casey, have made this a very 
important focus of their leadership. For the last 18 months to 
2 years, we have been working very hard across the Army with a 
series of initiatives, beginning with properly sizing our 
facilities and health-care providers to accommodate reasonably 
the enrolled population of soldiers and Active Duty family 
members. Recognizing that the Army has grown by 65,000 soldiers 
and has brought on many, many more beneficiaries in the form of 
Reserve component soldiers, this continues to challenge us at a 
time that the Nation is challenged to provide primary care 
health care.
    We have a very aggressive program. We have been seeing 
steady improvements in overall patient satisfaction, overall 
ability of a patient to get to his or her primary care provider 
or the team. All three services have embraced the patient-
centered medical home concept, which is a fundamental 
transformation of how we deliver care at the primary care 
level. And we have recently, with the help of the TRICARE 
Management Agency and Dr. Rice's deputy, Rear Admiral Christine 
Hunter in the TRICARE Management Agency, have gotten consent 
for standing up in 14 different communities in the Army, to 
include Fort Bragg, the building of and leasing of community-
based primary care clinics that are going to expand the 
capacity.
    So we are very aware of the problems that Fort Bragg 
especially has. It happens to be one of the hospitals that we 
continue to have--because of the size of the population and 
growth--some of the bigger problems with, but we are seeing 
steady improvements across the Army, sir.
    Mr. Dicks. They also mention behavioral health care to 
Active Duty soldiers and their families is on a space-available 
basis. Is that pretty much standard?
    General Schoomaker. Sir, behavioral health care across the 
Army, and I think almost across the services--I don't want to 
speak for the others--but across the Nation as well, is under 
challenge. We are about 86 percent of our estimated 
requirements for behavioral health specialists, uniformed and 
non-uniformed.
    Admiral Robinson in his opening statement alluded to the 
problems they are having with social workers and psychologists. 
We have a problem with psychiatrists, both civilians and, of 
course, uniforms. Understanding that although we have doubled 
the amount, the capacity to train social workers and 
psychologists recently, the lead time for training or acquiring 
a psychiatrist is upwards of 8 to 10 years. So these are tough 
nuts for the whole Nation to crack.
    I would have to say it is one of the reasons that we are 
really focusing a lot, as well, on building resiliency and 
trying to identify problems as close as possible to when they 
are first recognized and to use the primary care arena--our 
family medicine docs, our internal medicine docs, our PAs, our 
pediatricians--to be one of the first line of defense in 
treating behavioral health issues.

                                SUICIDES

    Mr. Dicks. One of the major issues of concern to the 
Defense Department and to the Congress is the suicide rate, 
particularly in the Army and Marine Corps. We had some 
discussion of this prior to the meeting. I thought some of the 
things that are being done we should put on the record. Dr. 
Rice, do you want to start on this?
    Dr. Rice. Yes, sir. Thank you, Mr. Chairman. Dr. Tom Insel, 
who is the Director of the National Institute of Mental Health, 
has identified suicide as a public health problem for the 
Nation as a whole. There are approximately 32,000 completed 
suicides in the United States each year. That is a number at or 
slightly above the number of fatalities related to motor 
vehicle collisions.
    In the military services for a number of years the suicide 
rate was lower than the population as a whole. But recently, 
over the last several years, that rate has gone up, so that it 
is now at or perhaps slightly above the rate for the country.
    The line leadership and the Service Secretary in all three 
Services have been very concerned about this. Particularly, I 
will let General Schoomaker speak in more detail about the 
Army's approach. But the Vice Chief of Staff of the Army is 
personally engaged in this issue. In fact, I am attending one 
of his monthly reviews of suicides in the Army this afternoon. 
He does this every month with the commanding generals of the 
various military facilities where a suicide has occurred.
    He takes this personally and seriously. He identified a 
need for a detailed study on suicide and turned to the National 
Institute of Mental Health for assistance in developing a grant 
application. A number of academic institutions around the 
country responded to that application. And I am pleased to say 
Dr. Robert Ursano, Chair of the Department of Psychiatry at the 
Uniformed Services University, and his team--he is assisted by 
very experienced investigators from the University of Michigan, 
from Harvard University, and from Columbia--were the successful 
applicants for that grant.
    Mr. Chairman, you are familiar with the Framingham study in 
Massachusetts, which over a number of years has contributed 
enormously to our understanding of the risk factors associated 
with heart disease. What is intended with this study is a 
similar longitudinal study on a large number of individuals 
followed sequentially over a number of years that will 
similarly inform us about the risk factors associated with 
suicide.
    General Schoomaker, did you want to add?
    General Schoomaker. What Dr. Rice has talked about is the 
program known as STARS, begun by our former Secretary of the 
Army Pete Geren, and is being maintained by Mr. McHugh, our 
current Secretary. It is a $50 million, 5-year study which 
promises to be the largest longitudinal study that examines all 
the factors that are relevant to suicidal ideations and 
suicidal behavior. It follows about a year and a half's worth 
of work led by Vice Chief of Army Pete Chiarelli himself to try 
to get inside the problem of suicide in the Army. We have seen 
over the last 5 to 6 years a doubling of suicide rates from 
what were roughly half of an age-and-sex-adjusted population 
rate against our civilian colleagues, to one that is on par and 
may even exceed the current civilian population. It is hard to 
tell because civilian statistics are 2 years behind the 
military's statistics.
    General Chiarelli is really focused hard on this. About a 
third of our suicides are from soldiers in their first year, 
before they have even been deployed; often, we think, due to 
problems that they bring into uniform with them; and it tracks 
with what we know from health behavior studies that have been 
conducted over the last several decades where 30 to 40 percent 
young soldiers, airmen, sailors, will admit to bringing 
significant psychological problems into uniform. About a third 
occurred in deployment, often with a weapon, and about a third 
from soldiers who have been deployed in the last 2 years.
    We are looking at all the factors. The one transcendent 
factor we see across the board is a correlation with fractured 
relationships--the loss of a spouse, a divorce, breakup with a 
girlfriend. As I explained to you, sir, before the meeting, 
even for marines and sailors and soldiers and airmen, the 
relationship they have with the service, they can forge a very 
close relationship with the Army and then get caught in 
misconduct, be administratively dealt with through the Uniform 
Code of Military Justice, leave the commander's office and go 
out and kill themselves.
    So these are the things that we are dealing with. We are 
working very hard with the help of the STARS program to see 
what we can do to interrupt this.

                           SUICIDE PREVENTION

    Mr. Dicks. Admiral Robinson.
    Admiral Robinson. I would like to just also say that, in 
addition to everything being said, taking it to the individuals 
in question, this becomes a leadership issue. And it is a 
leadership issue not only at the highest ranks but also at the 
lowest ranks. It has to be taken to the level of the Soldier, 
of the Sailor, of the Marine, of the Airman, and there has to 
be an awareness of the people around you and how they are 
doing. That comes through education and that comes through 
training. That also comes through destigmatizing mental health 
issues so that people are not afraid and do not think their 
career will be hindered or harmed by seeking psychological 
help.
    It also calls for individuals to look at one another. 
Friends and buddies know each other better than anyone. When 
things aren't right, then they have to institute those programs 
so that they can can ask, how are you doing, how are you 
sleeping? They can actually look into the eyes of individuals 
and see who they are and see whether they are hurting. And then 
they can take the appropriate action by getting them to 
counseling, getting them to a chaplain, making sure they take 
responsibility for their shipmate. I think that is another 
important aspect of this.
    Another aspect is making sure that we have time between 
deployments so that we can reset from a social and a family and 
an emotional and psychological point of view, come back into a 
more regimented existence, and home, before going back into an 
operational and combat environment.
    General Green. Sir, for the Air Force, we have a 14-year 
history of effective suicide prevention program. We were able 
to drop our rates below 10 per 100,000 for nearly ten years. 
Since 2007, we have seen our rates also edging up. And so we 
are reemphasizing many of the things we put in place over those 
years.
    The newest thing is to target specific groups we have seen 
who are at higher risk, such as our security forces, our intel 
groups, and some of our aircraft maintenance, who have a much 
higher rate, perhaps related to operational tempo and dwell 
rates. Those things are not determined yet, but we are watching 
very closely.
    Our focus is on trying to get face-to-face training for 
those high-risk groups and have the training and get the 
experience to be wingmen, if you will; someone who will watch 
after those who are working with them. We think, like the other 
Services, if we can get the leadership and the people who are 
overseeing these folks to know what is going on with their 
troops, that we can make a difference in this.
    Like the other Services, we see relationship problems as 
number one in terms of risk factors; financial problems as a 
second area; and then UCMJ and disciplinary problems also can 
lead to issues. We have not seen any association with 
deployment. In fact, over the last 8 years, only two occurred 
while deployed. The only potential association has to do with 
relationship difficulties that may be caused by recurrent 
deployments. And so we are watching that very closely.
    We do see something that is in fourth category now in terms 
of things that are rising. We can't yet tell you whether that 
is people who are depressed or who have other diagnostic 
categories, but we are seeing a larger number of the people who 
actually commit suicide who have been involved with mental 
health care, and we still have been unable to break the cycle 
that led to that impulsive decision.
    General Schoomaker. If I could add real quickly to what 
both these gentlemen said, and especially the comment that 
Admiral Robinson made about the importance of small-unit 
leadership and fellow Soldiers, Sailors, Airmen, and Marines. 
You may have read a recent story of a hooch mate, a bunk mate 
of a soldier downrange, who knew that his fellow young enlisted 
soldier had just received a Dear John e-mail and was in 
distress. Took the firing pin out of his weapon without his 
knowing it. While he was out of his billets, his buddy, the 
suicidal one, tried to kill himself with his M-16. Of course, 
it didn't go off. When he came back in he said, My weapon 
doesn't fire. His bunkmate said, How do you know that? They got 
to talking about the fact that he was aware that his buddy was 
suffering a lot of problems. That soldier whose life was saved 
by his friend is still a soldier. He is continuing on Active 
Duty. He has started a new relationship and he is going to be 
leaving sometime in the next year to marry her and start a new 
life.
    These things that Adam talked about are very, very 
important.
    Mr. Dicks. Thank you. Mr. Visclosky.

                         IMPLANTED STIMULATORS

    Mr. Visclosky. Thank you, Mr. Chairman. Gentlemen, thank 
you for your service.
    Admiral, I usually take this opportunity to congratulate 
Naval witnesses on beating Notre Dame in football at home, 
twice. Now Mr. Moran is upset with me. But I also notice that 
you graduated from Indiana University Medical School.
    Admiral Robinson. I did.
    Mr. Visclosky. You obviously know what you are talking 
about. I have got to get in a plug.
    Gentlemen, my understanding is the Department of Defense is 
doing research on implanted stimulators that would send 
impulses to reanimate limbs for people who have had strokes and 
traumatic injuries. I find the issue fascinating. If, one, you 
could bring me up to date as to where you are, and is there an 
ongoing study and is there progress being made?
    General Schoomaker. Yes, sir, real briefly. We have a very, 
very robust program across the Services on amputee care and 
extremity injury, very heavily endorsed by the American 
orthopedic community at large, and the Congress has been 
generous by providing research funds for us. We are in our 
third generation of prostheses. The upper arm, the upper 
extremity prostheses, is the most demanding for an amputee. 
Lower extremity prostheses--of course, the loss of any limb or 
extremity is a problem. I don't mean to trivialize that. But 
the advances in lower limb prostheses have resulted in now the 
ability to retain soldiers or marines or others who have lost a 
lower limb, especially below the knee, much more easily.
    We have retained about 140 amputees in the Army on Active 
Duty. Forty of them we have redeployed to combat. Three of the 
40 have gone back to combat, having lost their limbs not in 
combat, but in motor vehicle accidents or training accidents 
back here, and are being deployed as amputees for the first 
time.
    The upper extremity prosthesis is a challenge. We are in 
the third generation. And DARPA has been in the lead of much of 
this. Geoff Ling is the name associated with this, a 
neurosurgeon and neuroscientist who is working with linking 
brain thought--just as in your and my case, who have limbs--
with the movement of the limb. Heretofore, we were reliant on 
the upper extremity prostheses to either retrain a muscle to 
flex and make a mechanical device in the hand or the arm move. 
Then we went to the advance of linking a sensor in the muscle 
on the remaining part of the body so when someone thought to 
move his thumb or close his hand, they thought, and began to 
move that muscle.
    We have gone to now the generation that eventually will 
allow people to move that prostheses because of a thought in 
their brain. That is the one I think that you are thinking 
about.

         CLINICAL AND REHABILITATIVE MEDICINE RESEARCH PROGRAM

    Mr. Visclosky. Is there a funding request for 2011 for 
that? One of the other questions I was going to address--you 
had mentioned DARPA--is that it was our understanding the 
Department was going to ask for $125 million to DARPA for 
development of force enhancements. I assume that is a separate 
issue.
    General Schoomaker. Yes, sir, I believe so. I can get back 
on the details of funding for the extremity research alone.
    Mr. Visclosky. If you could, I would appreciate that very 
much.
    General Schoomaker. Yes, sir.
    [The information follows:]

    Yes. For Fiscal Year 2011, the Clinical and Rehabilitative Medicine 
Research Program has requested, through the Defense Health Program, $30 
million for the development, evaluation and optimization of extremity 
orthotics and prosthetic component research. The primary impetus is on 
the development of arm interface technology and the further development 
of upper extremity prosthetics. The requested funding will support 
upper extremity prosthetic clinical optimization studies and subsequent 
optimization of the devices.

              ORGANIZATIONS WORKING WITH WOUNDED WARRIORS

    Mr. Visclosky. I also understand that at a number of DOD 
facilities there are individual installations or not-for-profit 
organizations working with Wounded Warriors. Are there a fair 
number of these established, and how would I distinguish them 
from military programs for Wounded Warriors? Is there care 
given to make sure there is not duplication of services?
    Dr. Rice. Well, sir, there are two very prominent programs 
funded by Mr. Arnold Fisher and his foundation, the National 
Intrepid Foundation; one is at Brooke Army Medical Center at 
Fort Sam Houston in San Antonio, which General Schoomaker can 
describe; the other is under construction now at the new Walter 
Reed National Military Medical Center, the National Intrepid 
Center of Excellence, focused on traumatic brain injury and 
psychological health. In addition, there are a number of 
support activities around all military installations. USO is a 
good example. I am sure my colleagues can describe those in 
more detail.
    General Schoomaker. I think all the services have very, 
very good relationships with a whole range of nonprofit groups 
out there that have leaned forward in assisting our wounded and 
injured soldiers, sailors, airmen, and marines in all our camps 
and stations where these are done. At all of those Warrior 
Transition units I described earlier, we have got relationships 
with a variety of local and national groups.
    One of the problems, I think, is how to focus and 
distribute those services. Recently, the USO has offered to 
serve as a kind of national clearinghouse to be able to provide 
that service for us. But I think, as Dr. Rice mentioned, we 
have a very large number of very generous nonprofit groups that 
have helped build facilities such as the National Intrepid 
Center at Fort Sam Houston, and is building right now the 
National Intrepid Center of Excellence for traumatic brain 
injury on the campus at Bethesda.
    Another good example is the Warrior and Family Support 
Center that is down--attached to Brooke Army Medical Center, 
which was built entirely by a very large number of private 
donors on land that was given over by the Army. None of the 
donors, largely, were over about a hundred dollars apiece. So, 
like the National Intrepid Center, which is the amputee center 
down at Fort Sam Houston which was built by 600,000 donors, 
there has been a huge outpouring of support from the public.
    Mr. Visclosky. Gentlemen, thank you. Thank you, Mr. 
Chairman.
    Mr. Dicks. Mr. Frelinghuysen.

                     JOINT THEATER TRAUMA REGISTRY

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Gentlemen, 
thank you for the extraordinary work you do. Since this is a 
public hearing, will one of you talk about the remarkable track 
record of survival rate for battlefield injuries? Would one of 
you just mention--the statistics are very high, this is like no 
other war--the things that your men and women have done?
    General Schoomaker. I agree. This is a tri-service effort. 
It is probably best attributed to the Joint Trauma Theater 
System, the JTTS. It employs an electronic record, known as the 
Joint Theater Trauma Registry. It is maintained by the Army, 
Navy, Air Force, and Marines.
    This is a group that, for all intents and purposes, has 
built a trauma system comparable to what you would have in any 
large metropolitan area in the country, but it has done it 
across three continents and 8,000 miles. They meet virtually 
online and by video teleconferencing at least once a week to 
discuss cases. And they use evidence-based practices that 
literally follow almost from the point of injury back through 
evacuation and rehabilitation back in the States to make sure 
that any improvements that can be made in how a case is managed 
are being done, and then looks for evidence for improvement. 
And doing that has resulted in a case fatality rate that is 
unprecedented in past wars.
    Mr. Frelinghuysen. Would you give that rate?
    General Schoomaker. It is very high. The case fatality rate 
is less than 10 percent, meaning that over 90 percent of 
casualties in combat survive. If you make it to a forward 
surgical team or forward Marine unit or combat support hospital 
or the hospital at Balad or Bagram, then your survival rate is 
over 90 percent.

                            MEDICAL RECORDS

    Mr. Frelinghuysen. All of us pay tribute to that--Medevac 
people, airlift people from Balad and Bagram, the hospital in 
the air. It truly is remarkable.
    The focus of my question is sort of on medical records. Can 
you talk about just the issue of medical records, the integrity 
of the medical records? Maybe it is anecdotal, but we do hear 
periodically that there are issues that medical records don't 
often follow the patient. I sort of wondered where, generally, 
the services were. You do extraordinary work here, but 
obviously we have battlefield injuries and people are 
transported long distances, and done in a remarkably wonderful 
way, but some general comments about medical records.
    We talked about this with Dr. Rice yesterday, the integrity 
of those records and also the susceptibility in today's world 
that somebody could sort of bring down the whole damn system, 
as evil as people are. Can we have some general comments and 
reaction on the medical records issue?
    Dr. Rice. Happy to talk about that, sir. I bring, 
unfortunately, a very long perspective. I am considerably older 
than my colleagues here. So I was on Active Duty at the 
National Naval Medical Center during the Vietnam War, where 
casualties would come back, often 4 or 5 weeks after wounding, 
just because the Air-vac system was not anywhere close to what 
the sophistication level is today. They may have stopped at two 
or three hospitals along the way. And the likelihood that their 
record would actually accompany them back to us at Bethesda was 
relatively low.
    I am pleased to say that that is not the case now; that 
almost always an accurate record of the care that has been 
rendered both at the forward support hospital, the combat 
support hospital, the theater hospitals, and in the air at 
Landstuhl, makes it back.

                       ELECTRONIC MEDICAL RECORDS

    Mr. Frelinghuysen. Is it indeed electronic or is it sort of 
a combination of paper and electronic?
    Dr. Rice. In some cases, it is. But by and large, it is 
electronic. The issue of security of the medical record is one 
of not just military, not just national, but actually 
international concern, as I know you are aware. The Department 
is working very hard towards our next generation of electronic 
health record. And the three pillars that must be there are 
security, stability, and scalability. The security issue is of 
paramount importance. We must protect the integrity of the 
record, and the Department is going to great lengths to make 
sure that that happens.
    Mr. Frelinghuysen. So you think that is being well done. I 
know you each take pride in your service. I assume that all the 
services have the same high standards.
    Dr. Rice. We are taking a common approach to that across 
the Services, so that it will be a single system that serves 
all three of our Services and ultimately links with the VA 
system so we can seamlessly pass the relevant and important 
data from the DOD system into the VA.
    Mr. Frelinghuysen. You said ``ultimately.'' I know around 
the table we have talked about the VA at one point was sort of 
in a crisis. They sort of are leading the way. It was the 
seamlessness they have now that they didn't have. They had all 
the different hospitals, but records couldn't be transferred 
from people in the Northeast to the South. So our Services, as 
represented here today, how are they doing in terms of linking 
medical records?
    Dr. Rice. We have a pilot project.
    Mr. Frelinghuysen. We did hear yesterday that we couldn't 
get I think from Walter Reed--from Bethesda to Fort Belvoir. 
Hopefully, that was an exception.
    Dr. Rice. Admiral Madison commented on that yesterday. I 
think by and large, the ability to transfer the relevant and 
important data across the systems from one military treatment 
facility to another is a problem that we have accomplished a 
great deal on. We don't hear that as a major issue with our 
providers.
    Mr. Frelinghuysen. We are counting on it. We are the 
resource committee. So if there is anything lacking, we would 
love to hear about it.
    General Schoomaker. No, sir. I think across the three 
services, that is not an issue. Bidirectional health 
information flow to the major polytrauma centers, the VA, is 
also not a problem. My own electronic health record began in 
about 2002 in the Southeast. I have moved four times and my 
record has moved with me each time without any problems. Saved 
a lot of money, saved a lot of unnecessary x-rays and shots.
    The one hole that we have in the electronic system is from 
the point of injury to the surgical site. That still is paper-
dependent. We have tried electronics. We have given hand-held 
PDAs to medics and corpsmen. It is a problem and an issue, and 
we continue to try to penetrate that. Right now, it is still 
reliant on a handwritten record.
    Dr. Rice. Sir, if I could just add one comment to that. 
That is not different from the civilian world. If you look in 
emergency rooms, even in those hospitals that have electronic 
records, it is the ER that still is largely paper-dependent 
because of the press of time.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Dicks. Thank you. Mr. Moran.

                          TRAFFIC AT BETHESDA

    Mr. Moran. Thanks, Mr. Chairman. Actually, I am going to 
relate a little story. A few months ago, the retina in my left 
eye was peeling off. It is about 5:30 at night.
    Mr. Dicks. Free medical advice?
    Mr. Moran. No. You will see the relevancy; it is going 
somewhere. So I drive to Bethesda through traffic and so on. 
Get there about 6:30 or so. They said, You're about to lose 
your eyesight. This retina is going to be gone. They said, I 
don't know what we are going to do about it because all our 
folks are gone; but perhaps the best guy to do this operation 
is over at Walter Reed, Dr. Chun. I am going to call him. We 
might as well start this coordination stuff now.
    So they call Dr. Chun. He was on his way home. He comes 
back to Bethesda. They put a couple of tables together to have 
me lie down at the top of it. He takes his hypodermic needle 
and sucked out all the liquid behind the eye, except it was 
probably the most excruciating thing, because there was no time 
for anesthesia.
    Then they broke into a room that was locked and got a 
machine that had this gas stuff and put gas in the eye and held 
it down. Anyway, they saved the eye. They said among 
themselves, you know, had we not been able to do this together, 
the Navy and the Army ophthalmologist, I would have lost my 
eyesight in my left eye.
    There was some relevance here, Mr. Chairman. So I really am 
a believer in this, that as we coordinate at Walter Reed--I 
know, as Admiral Robinson said, the Navy is also losing its 
principal medical care facility in terms of the public 
visibility, as is Walter Reed. They are both losing their 
identity, but we are going to have something new that is even 
better, and the colocation is going to work for a lot of 
people.
    My concern, of course, is that both at Bethesda and at 
Walter Reed, the traffic is almost impossible. You know that. 
And I am wondering--I am not going to get into all the BRAC 
stuff--I am wondering the extent to which you were consulted in 
terms--I know it is a mundane issue, it would seem, but if your 
staff, if your physicians, let alone your patients, can't get 
in there, that no matter how good the care is, it is moot if 
they can't get to the hospital in some reasonable period of 
time when there is an emergency.
    So have you given any thought? Were you able to offer 
advice in this process of the logistics around the facility to 
have real adequate access?
    Dr. Rice. Congressman Moran, I experience this personally 
when I am back at the Uniformed Services University because, as 
you know, it sits on the Bethesda campus. I live about 10 
minutes north. It is 10 minutes when I come into work at a 
little after 5:00 in the morning. It is considerably longer 
than that going home in the evening because of the traffic on 
Wisconsin Avenue.
    Mr. Moran. It could be as much as 40 minutes just to get 
out.
    Dr. Rice. It can be as much as 40 minutes to get from Jones 
Bridge Road to Cedar Lane. Admiral Robinson experiences it, 
because he lives on the base at Bethesda. It is a complex 
problem, and I know a number of people have given this issue 
serious thought. We are hoping that DARPA will shortly come up 
with a transporter beam so that we could move around without 
vehicles.
    But I think a large part of the effort that we are 
undertaking with the new Commander of the Naval Support 
Activity at Bethesda is to do everything we can to encourage 
staff, particularly staff and the students at the university, 
to use Metro to the maximum extent possible. It is a complex 
issue.
    General Schoomaker. Congressman, first of all, we are glad 
to hear your eye was saved. I suspect the contributions of the 
soldiers involved was breaking down that door to let the Navy 
surgeons work.
    Admiral Robinson. At least we have solved that break-in 
now. Thank you.
    General Schoomaker. Two comments I would make. First of 
all, many of you, after the 2007 February stories in the 
Washington Post about Walter Reed, came out and visited. I was 
then put in command of Walter Reed, and commented about whether 
there was reason to pause and think about the decision to close 
the old Walter Reed campus. My comment, in addition to the fact 
that we want to be in compliance with law, was that for the 
same reasons that you describe the problem at Bethesda, we have 
the same problem at Walter Reed. It is very tough to get there; 
patients don't like to get there; and we don't even have the 
benefit of the Bethesda or the National Institute of Health 
(NIH) Metro station.

                              FT. BELVOIR

    Mr. Moran. Incidentally, you have got a similar problem at 
Fort Belvoir. It is a beautiful facility but there is no Metro 
there either. We are going to have trouble getting patients in 
emergency condition there.
    General Schoomaker. That brings up my second point; that 
often overlooked is that although the most proximate demand, as 
Adam has pointed out, is the merger of three hospitals into 
two, the larger plan of 37 facilities and 400,000 beneficiaries 
in a greater metropolitan area, which makes up the National 
Capital Region, is the real motherlode here. It is how do we 
integrate services across the three services for over 400,000 
beneficiaries.
    This will be the 40th largest HMO in the country once it is 
completed, for 37 different military treatment facilities. 
Putting care close to where families and Soldiers, Sailors, 
Airmen, and Marines live is going to be important, which is why 
the Belvoir campus is so important to us. It is much closer to 
where people live.
    It is also why, as I said from the beginning with my 
colleagues here, that siting a lot of the high-intensity 
warrior care and accommodating their families on the Bethesda 
campus, which won't necessitate trans-gate traffic, is so 
important. If you can provide care for an injured soldier or 
patient and amputees and intensely injured and ill Soldiers on 
that campus, then you reduce the necessity to move traffic in 
and out of the campus.
    Admiral Robinson. Representative Moran, I think that that 
is correct. I agree. I think that your comments are, we are 
consulted, and when I say ``we,'' as we have the Corps of 
Engineers and as the Navy's NAVFAC, the Navy Facilities Command 
that builds, those things such as traffic loads and others are 
studied and taken into account. We need to attend to how the 
growth goes.
    I think that, as you stated, making sure that we can get 
staff into the hospital and--that is as important as the 
patients. One of the reasons we have a large number of barracks 
for our enlisted onboard the base, and have for years, is the 
fact that not only are we in a hugely expensive county, much 
more expensive than most of our junior enlisted can pay for, 
they also are within the skin of the ship, as it were. So snow 
days and traffic days, we can depend on those corpsmen to make 
sure they are with patients and doing those jobs.
    So yes, we are consulted; and yes, this is a major point. 
No way around it.
    Mr. Moran. Thank you. Thanks, Mr. Chairman.
    Mr. Dicks. Thank you, Mr. Moran. I am very glad you had a 
positive outcome.
    Mr. Moran. I wouldn't have shared it if it hadn't been 
positive.
    Mr. Dicks. I am glad you shared it. Thank you. Mr. Tiahrt.

                        WARRIOR TRANSITION UNITS

    Mr. Tiahrt. Thank you, Mr. Chairman. Welcome to the 
committee. I was recently in Fort Riley, where they have a 
Wounded Warrior transition unit that they are standing up. Even 
though they don't have the facilities yet, they have the 
program in place.
    I have had the opportunity to pheasant hunt with some of 
the Soldiers that returned from the front lines and have 
suffered traumatic brain injury, and some are suffering from 
posttraumatic stress syndrome. They seem to have a pretty good 
way of helping them readjust back to life here in America.
    I was wondering if you are satisfied with the progress that 
they are having so far and if you can explain a little bit 
about the uniqueness about the unit. Because they have a pretty 
good rate of success; at least that is what they have told me.
    General Schoomaker. Yes, sir. The Fort Riley program is one 
of the 29 Warrior Transition Units that are in hospitals, major 
health centers, and medical centers across the Army. We have 
about 9,000--about 7,000 Soldiers in that program and another 
2,000 Soldiers in nine States that are centered around nine 
States--Arkansas, Utah, Virginia, Florida, and the like, and 
Massachusetts. These Warrior Transition Units have an Active 
Duty cadre made up of primary care managers, squad leaders, 
just like any other military unit, and nurse case managers that 
track the care.
    A very important part of our program is with comprehensive 
transition planning for vocational rehabilitation; for career 
development; for social, medical and emotional needs. And for 
programs like our posttraumatic stress program, we have got a 
fairly high rate of return to duty for those Soldiers. Overall, 
the WTUs are returning about 50 percent of Soldiers back into 
uniform to continue service or back into the Reserves to 
continue service.
    The campus associated with that program, the one at Fort 
Riley, will be our first physical campus that we are standing 
up with new construction on the 27th of May. That will be the 
first of about 20 of these campuses that will be built across 
the country, including the one that we are building down at 
Fort Belvoir.

                     POST TRAUMATIC STRESS DISORDER

    Mr. Tiahrt. At what point do you sort of take the 
temperature of people as far as trying to find PTSD or some 
mental capability? When they are deployed, do you test them or 
talk with them before they return, and when they return and how 
long afterwards? What is your pattern now that you shoot for?
    General Schoomaker. Sir, we do it whenever it is 
appropriate. Frankly--I am not being coy--what we are moving 
away from is a kind of arbitrary surveying of people at key 
points. Heretofore, we did it before they were deployed; the 
predeployment health assessment. Immediately upon 
redeployment--it was called the post-deployment health 
assessment, and then 90 to 180 days later, it was called the 
post-deployment health reassessment.
    What we are finding is it is more important to move in a 
direction of tracking the individual and their problems, 
because they frequently arise out of major events. For example, 
the last time I was in Afghanistan, there was some intense 
fighting on the eastern part of Afghanistan. The brigade 
commander told me that one of the unexpected findings was 30 to 
60 days after they were deployed, some of the experienced young 
officers and noncommissioned officers who had deployed before 
and been in fights before were experiencing stress reactions to 
this new deployment. We didn't expect that to occur 30 to 60 
days after they had arrived in theater.
    So we are beginning to track longitudinally through this 
comprehensive program when care is provided. But, in general, 
what we look for most often was immediately before deployment 
to make sure people are sound, immediately after they return, 
and then the 90 to 180 days later.
    The last thing I will say is that part of the program that 
both the Marines and the Army are doing downrange is to find 
both concussive events--which we think have a high correlation 
with posttraumatic stress disorder--and overlap with that. That 
is, if you have had a concussion in combat, it predicts more 
often than not that you are going to have posttraumatic stress 
later, or possibly posttraumatic stress if it is enduring. So 
we are trying to find those problems as close to the actual 
incidents as possible and begin treatment in theater.
    Mr. Tiahrt. As you know, we have a lot of Guard and Reserve 
units that have gone forward, and they don't have access to a 
permanent facility like Fort Riley or Fort Belvoir. How are you 
dealing with PTSD with the Reserve and the Guard units?
    Dr. Rice. Yes, sir. You are exactly right. There is a 
challenge for the Guard and Reserve in particular as they 
return to areas that are remote from military treatment 
facilities. With the support of this committee and under the 
leadership of Chairman Young, we established a program at the 
University, the Center for Deployment Psychology, which is 
focused on behavioral health providers, on the peculiar types 
of experiences that these servicemen and -women have 
experienced in theater, so that they can better provide 
behavioral health care for them. We have educated a substantial 
number of civilian providers now, and I am very pleased with 
the success of that program.
    Mr. Dicks. The gentleman's time has expired. Mr. Boyd.

                          SUPPLEMENTAL FUNDING

    Mr. Boyd. Thank you, Mr. Chairman. And, gentlemen, thank 
you for being here today.
    Dr. Rice, I want to direct my question to you and talk a 
little bit about the budget side. Obviously, I think many of us 
have been concerned that over the last 8 or 10 years that we 
have relied on supplemental budgets for much of our funding. I 
wanted to pick your brain a little bit about the current 
supplemental that we have before us; what part of that will be 
for funding Active military personnel and dependents, and also 
what you might have in your current budget that you are talking 
about here today that might not be covered, we might have to 
cover in a supplemental later on.
    Dr. Rice. Congressman Boyd, thank you. First, let me say 
that I am relatively newly arrived in this position, and the 
preparation of this year's budget happened before I got here. I 
do not think that any of the basic funding of the military 
health-care system was dependent on the supplemental budget. I 
think that the budget proposal that has come before you now 
fully funds the Military Health System.
    Mr. Boyd. Okay. Would any of the Surgeon Generals have 
any--do you have any knowledge about the current supplemental 
as it relates to any health funding that is in that?
    General Schoomaker. Sir, in the past, the supplementals 
have helped us mainly with closing the gap in military medical 
construction, which had a very large hole in the program. You 
all very generously filled that for us, and we are building new 
hospitals, to include the one at Fort Riley and Fort Benning.
    Mr. Boyd. But not health services.
    General Schoomaker. Not direct health services, although 
there has been supplemental dollars attached to, for example, 
Army support of Grow the Army and the medical support that went 
into that. But I fully agree with what Dr. Rice said; that is, 
the President's budget in the base provides the necessary 
dollars for health care.
    Admiral Robinson. For the Navy, as an example, I think the 
recent Unified Response-Haiti, there will be an additional 
amount of money that will be covered by the supplemental. And 
that is operational. I am not sure that is really in the 
definition of health services, but I agree, again, with what my 
colleagues have said.
    General Green. What my financial people tell me is 
beginning 2010, there were dollars that were reprogrammed from 
previous supplementals into the baseline. The dollars for the 
Air Force were about just under $35 million. About $22 million 
of that was for TBI and psychological health, another $4.5 
million for OCO tasks, and about $8.3 million for Wounded 
Warriors.
    If your question is whether we can get by without any 
supplemental in 2011, we are fully funded. The trick is with 
ongoing contingency operations, the dollars that come in that 
backfill some of our deployed people, we can't absorb it; but 
actually a lot of that contract that fills in for care back 
home and ensures access does comes from OCO funds, which is 
part of the supplemental, if that answers your question.
    Mr. Boyd. Thank you. Thank you very much. Mr. Chairman, I 
brought that up because, obviously, as we enter this era where 
we have to begin to focus on budget deficits, it is going to be 
really important that we understand what the requirements are 
going to be.
    Dr. Rice, in your testimony you have laid out some very 
instructive information there about the rising health-care 
costs under your purview, both Active Duty and retirees. So I 
just wanted to bring that to the attention of the committee. I 
thank you, Mr. Chairman.
    Mr. Dicks. Thank you.
    Mr. Rogers.

                        PRESCRIPTION DRUG ABUSE

    Mr. Rogers. On March 23, when we had Secretary McHugh and 
General Casey here, I brought up with them the prescription 
drug abuse problem that we have--and it is not limited, of 
course, to the military. It is a problem in the civilian world 
as well. But a recent USA Today article about it mentioned a 
Pentagon survey in 2008 which showed that one in four soldiers 
admitted abusing prescribed drugs, mostly pain relievers, in 
the 12 months prior to the survey; 15 percent said they had 
abused drugs in the 30 days before the survey. The records show 
that the abuse of prescription drugs is higher in the military 
than in the civilian world.
    I am wondering, A, what you think about this, and what are 
we doing about it, and what should we be doing about it?
    General Schoomaker. Well, sir, I will speak for the Army. 
We are very concerned about prescription drug use. As you 
alluded to--and you and your district are experiencing as 
well--there is a nationwide problem of, first of all, 
accidental overdose from prescription drugs now leads or 
exceeds deaths or complications from illegal drugs in the 
country. The Centers for Disease Control tell us that. The 
second is that diversion of drugs--that is, prescription drugs 
that are used for recreational purposes, not for what they were 
intended--is a major problem both outside the gate and inside 
the uniform.
    Last year, I stood up a task force within the Army for pain 
management oversight, working with the other services and the 
VA. And in anticipation of legislation that came out last year 
requiring that we have a DOD approach to pain management, we 
are starting to get our arms around the size, the magnitude of 
the problem of pain management, and the use of prescription 
pain-managing drugs. We are looking at all sources of care for 
pain management, to include alternative medical care practices 
like acupuncture and yoga and the like.
    At the same time, we are, especially in our Warrior 
Transition Units and in other clinical settings, taking a very 
aggressive approach to what we call sole provider programs, 
where only a single physician, nurse practitioner, or PA can 
prescribe drugs for a patient if they are at risk for abusing 
those drugs, and very careful programs of counting and watching 
the inventory of drugs that our soldiers might have. But we are 
very concerned about the problems that you address.
    Mr. Rogers. Abuse of prescribed drugs is a huge problem in 
my district and, as you say, across the country. It is not 
limited to the military, obviously. However, the Pentagon 
survey said that the problem is higher in the military than 
civilian. I am told that Army Secretary Thomas Lamont, said 
that a multiservice task force is examining how the Army gives 
pain relief pills to its soldiers. Eventually, it will outline 
how to limit prescription medication use and ensure that Army 
hospitals all use the same procedure for dispensing medicine. 
He said, We found every Army medical center was dealing with 
pain in altogether different ways, all individual, but not an 
Army-wide program at all. There was no consistency. Do you 
agree with that?
    General Schoomaker. Yes, sir, that is exactly what the pain 
management task force that I chartered has found. That is not 
unique to the services. Frankly, that is a national problem. It 
is a problem even within the Veterans Administration. We don't 
have a standard kind of approach and we don't necessarily 
leverage all techniques, to include nonpharmacological 
problems. We have had a problem of acute versus chronic pain. 
We have pain from a variety of sources. Pain is subjective. It 
is not objective in the sense of something measurable.
    What we are trying to do is standardize our approaches, 
leverage every technique that we can, in cooperation with the 
other services and the Veterans Administration and leading 
academics in the private sector and in the academic sector who 
can help us. But you have identified, sir, I think a problem 
that we recognize as a medical system.
    Mr. Rogers. In the civilian world we have been pushing 
prescription drug monitoring drug programs; each State, with a 
grant from the Federal Government to require pharmacies, 
doctors, hospitals, anyone in the medical field, when a 
prescription is filled, to notify the central computer in our 
State capital so that a person will not be able to double-fill 
a single prescription. I think you have what is called a 
Pharmacy Data Transaction Service, a similar type.
    General Schoomaker. In fact, we can track every 
prescription across not only our military facilities but also 
civilian pharmacies. Any time a military prescription 
electronically is used and any time the military system is 
billed, even if it is outside in the civilian sector, we can 
track.
    In fact, I can give you for the record a tabulation of 
exactly what the use of prescription drugs of various 
categories is right now for the entire force of 550,000 
soldiers.
    Mr. Rogers. I would like to see that.
    [The information follows:]

    We can query the comprehensive pharmacy database of all DoD 
pharmacies and contracted network pharmacies (provided the service 
member has the DoD pay for the prescription so it is recorded in the 
database). We can provide a summary of how many Soldiers have current, 
open and active prescriptions.
    Active Duty Soldier Prescription Data
    (March 2010)
    558,840 Active Duty Army Personnel (Includes 4,498 USMA Cadets):
          --200,255 (35.8%) Active Duty Army Soldiers with any 
        medication prescription<dagger>
---------------------------------------------------------------------------
    <dagger> Does not include WT Soldiers
---------------------------------------------------------------------------
          --2,504 (0.4%) for combination (sleep, psychotropic*, 
        narcotics)
---------------------------------------------------------------------------
    * Psychotropic medications include the drugs in the following 
classes: anti-anxiety, anti-seizure, anti-psychotic, anti-depressant, 
or stimulant
---------------------------------------------------------------------------
          --43,578 (7.8%) for narcotics
          --20,027 (3.6%) for anti-depressants
          --11,448 (2.0%) for sleep medications
          --5,500 (1.0%) for anti-anxiety medications
          --5,119 (0.9%) for anti-seizure medications
          --2,671 (0.5%) for anti-psychotic medications
          --170 (0.03%) for fentanyl patch

    General Green. Sir, if I can add, the PTDS system also 
allows us to place restrictions, like the systems you are 
talking about, where people would not be able to get their 
prescriptions filled, even when written by another provider. So 
they can only get it from one source.

                 PRESCRIPTION DRUG MONITORING PROGRAMS

    Mr. Rogers. I think that service works for all except 
medications in-theater. I think I can understand that, but 
explain that.
    General Schoomaker. Sir, we don't have--except in selected 
facilities such as Balad or Bagram, where we have an electronic 
record available--in the average or the usual combat outpost or 
forward operating base where we may not have that available and 
where things are done out of troop medical clinics or battalion 
aid stations--we don't have the same oversight and ability to 
roll up the aggregate abuse of prescription drugs.
    Mr. Rogers. I think, Admiral Robinson, the data from ships 
is also not a part of this.
    Admiral Robinson. It is not, but we have the data from 
ships rolled up into our SAMs program and to other electronic 
programs we use. But it is not a part of PTDS.
    Mr. Rogers. Well, the problem has been growing. The abuse 
of prescription drugs in the military is growing rather 
dramatically, as a matter of fact; partly, of course, because 
of the wars. It seems to me like we are dealing with a real 
problem here. Do you think it is a real problem?
    General Schoomaker. Yes, sir, I think that is exactly what 
prompted me to charter the task force that I did for the Army, 
to try to get our arms around it, especially when it is related 
to pain use. We are doing the same thing with respect to drugs 
that are being given for behavioral health problems and can 
give you the same comprehensive tabulation of who is taking a 
psychotropic drug, a drug that influences mood or behavior.
    Mr. Rogers. What do you expect out of the task force, and 
when?
    General Schoomaker. Sir, I have the final draft in hand. 
Right now, I am reviewing that. We hope to present that to the 
leadership of DOD Medicine very shortly.
    Mr. Dicks. The gentleman's time has expired.
    Mr. Rogers. Mr. Chairman, I think Dr. Rice has something.
    Dr. Rice. Sir, if I may, Congressman Rogers, you have put 
your finger on a very complex problem. One of the challenges 
that we face is that for many, many years we in the medical 
profession undertreated pain. Through the efforts of a lot of 
people, including the Joint Commission, we have recognized that 
undertreatment, and now begun to take steps to make sure that 
patients are not needlessly enduring pain.
    I think the challenge for us all is to know what the 
appropriate treatment is, and while the use has undoubtedly 
gone up, that increased use is entirely appropriate. Pain is 
the most common reason that people seek medical attention. And, 
therefore, paying appropriate attention to pain relief is an 
important part of clinical practice.
    Mr. Rogers. Thank you.
    Mr. Dicks. Thank you. Mr. Bishop.

                       HYPERBARIC OXYGEN THERAPY

    Mr. Bishop. Thank you very much. Let me welcome you all 
back again. I would like to ask the panel to return to an issue 
that we visited last year, and that has to do with the related 
treatments for traumatic brain injury and the hyperbaric oxygen 
therapy.
    Lieutenant General Schoomaker, I have been informed that 
the hyperbaric oxygen therapy equipment and the medical 
personnel have been contracted by DOD for a 2-year, $20 million 
pilot program that was supposed to start up in January of this 
year. I am told that the equipment and the personnel are 
positioned at Camp Pendleton, Camp Lejeune, Fort Carson, and 
Fort Hood, but to date they haven't been used to treat any 
injured personnel.
    I wanted to ask if you would just describe for the 
committee what the hyperbaric oxygen therapy is, and tell us 
about the situation with the equipment being available but not 
yet in use.
    General Schoomaker. Yes, sir, I will do my best, and then I 
think my colleagues have even more visibility over it. But in a 
nutshell, hyperbaric oxygen is the delivery at a pressure above 
the sea level atmospheric pressure of air or oxygen, which then 
raises tissue levels of oxygen above the normal range. It is 
recognized as a treatment for a variety of things; for example, 
wound healing for resistant infections, especially by organisms 
that are sensitive to oxygen; or for reversal of complications 
of diving accidents, for example, and that is where the Navy 
and those who work with pressurized environments have some 
experience with them.
    There are some recognized medical indications for the use 
of hyperbaric oxygen. Its use in traumatic brain injury or for 
posttraumatic stress disorder is not currently recognized by 
the national groups that, in a sense, certify or authorize use 
for that clinical application. We are looking very, very hard 
for good scientific evidence that it adds value in those 
situations. We are compelled----
    Mr. Bishop. That was the status last year. I thought you 
told us last year that that was underway and that we would 
probably have some kind of indications soon.
    General Schoomaker. My understanding is that we have two or 
three outstanding trials right now that are just about to 
report and give us some early indication whether there is some 
utility to it. There are some recently reported nonrandomized 
and noncontrolled studies, meaning that patients were given the 
treatment, but knowing they were getting the treatment, and 
there was no control arm that didn't use that treatment mode to 
see if there was any real effect of the hyperbaric oxygen. So 
we are compelled to use randomized clinical trials. We have a 
good program now. Maybe Admiral Robinson would summarize.
    Admiral Robinson. Representative Bishop, last year, and 
actually for the last couple of years, we have been--there have 
been a number of reports by researchers and clinicians on 
hyperbaric oxygen therapy. As has already been summed up, 
hyperbaric oxygen therapy has a usefulness with evidence-based 
treatments and clinical protocols for a variety of different 
cases.
    There has never been one for brain injuries and for PTSD. 
There have been a number of anecdotal reports, a number of 
anecdotal reports that people benefit from hyperbaric oxygen 
therapy with traumatic brain injury and with PTSD. In those 
reports--and this is what General Schoomaker is referring to--
they were not done in a randomized fashion. They were not done 
so we can take evidence-based scientific study and actually 
produce clinical protocols that we can give to the world and 
say, this is based upon clear evidence of working.
    Mr. Bishop. Why have we not done that?
    Admiral Robinson. That is what I am getting to. Over the 
course of the last 3 months, and we have been working on this 
for well over a year--but working with Colonel Scott Miller, an 
Army internist researcher, infectious disease expert--and I 
will caveat now, he has no knowledge of hyperbaric oxygen 
therapy, but he is a master and a professional at designing 
prospective studies--has in fact helped us, through the Army 
Research Facility, to actually put together studies that we are 
conducting. He has included, at Camp Pendleton, Lejeune, 
Carson, and San Antonio, we now have more people enrolled in 
those studies and actually under investigation. So those sites, 
the Pendleton site and the San Antonio site, are working. And 
for sure the San Antonio site. We have more people enrolled 
than ever before.
    We will have a definitive result of does hyperbaric oxygen 
work over the course of the next 24 to 36 months. That seems 
like a lot of time, but in the world of research, to get that 
type of evidence and then to put clinical guidelines together, 
clinical guidelines that are going to go forward and be the 
standard of care worldwide, that is not too long.
    Mr. Dicks. Will the gentleman yield? I may have missed 
this, but I think there are some situations where this is being 
prescribed now.
    Admiral Robinson. There are conditions treated with 
hyperbaric oxygen therapy today.
    Mr. Dicks. What have been the results of those?
    Admiral Robinson. The results have been phenomenal. 
Wonderful. They have been absolutely unable to base it on any 
objective criteria that we can produce. Since oxygen therapy is 
a device, it is being looked at by the FDA. In fact, the FDA 
has stepped in and asked for some of those studies to be 
stopped, because they are not sure whether this would be 
harmful to the patients, and there has been no objective 
evidence in a properly controlled study to prove that it works.
    General Schoomaker. I think, Mr. Dicks and Congressman 
Bishop, one of the frustrations we all have up here is we want 
the very best treatment for our people. There are far more 
traumatic brain injuries generated and far more posttraumatic 
stress disorder generated in the civilian sector every year 
than there is in combat--on motor vehicle accidents, on sports 
fields. We have had decades and decades of brain injury and 
posttraumatic stress disorder and have asked the field to 
provide good scientific evidence that it works.
    We finally, as the Department of Defense, have come 
together and said, Okay, we can't seem to get academics to do 
good trials for us, so we will do the trials. And, frankly, 
they are getting off the ground now.
    Mr. Dicks. How can the doctor, if this hasn't been vetted 
or whatever you call it, how can they go ahead and make these 
prescriptions, and do it, and find out it works very well, and 
how does that happen?
    Admiral Robinson. Representative Dicks, I think that there 
have been all sorts of people who have sold all sorts of 
remedies in past years and centuries that have proclaimed the 
efficacy and effectiveness of things that have been really 
sham.
    Mr. Dicks. Yeah, but this works.
    Admiral Robinson. It hasn't been proven to work 
scientifically. It works according to the anecdotal 
explanations of patients.
    General Schoomaker. Legally, a licensed physician can 
prescribe so-called ``off label.''
    Mr. Dicks. That is what I want to know.
    General Schoomaker. You can take a drug which is not 
labeled for use in a particular way and try it ``off label.'' 
You are responsible for the outcome of that. But you can do 
that. About 90 percent of all pediatric drugs, for example, are 
prescribed to children ``off label,'' meaning that there isn't 
a definitive trial to show its utility. It would be too 
expensive to do that.
    In the case of hyperbaric oxygen, a licensed and certified 
provider can do that as a trial. The problem we have there is 
what Admiral Robinson says: We don't have definitive proof.
    Mr. Dicks. Keep moving the trials ahead as best you can. We 
have to do it in a scientific way, I understand that. But there 
does seem to be some evidence that there are positive outcomes 
here.
    We have a vote underway. I am trying to wrap this up. Have 
you got anything? Can I go ahead to Mr. Hinchey?

                          MEDICAL MALPRACTICE

    Mr. Hinchey. Thank you very much, Mr. Chairman. Thank you 
very much. I deeply appreciate everything you are doing and we 
all know how important it is. It is a very complex set of 
circumstances also, under some set of circumstances. What I 
want to ask you about is the medical malpractice situation. 
This is something that comes about as a result of a Supreme 
Court decision back in 1950, which has created a whole host of 
problems that really needs to be addressed.
    There are many cases of military medical malpractice which 
have been highlighted in the media recently, and a number seem 
to involve very preventable medical errors. One group reports 
10,000 veterans were exposed to HIV and hepatitis after at 
least three VA hospitals failed to sterilize colonoscopy 
equipment. This contamination is considered a ``never'' event, 
but it is completely preventable and it should never happen. So 
this is a situation that I think comes about as a result of 
this situation of medical malpractice under a set of 
circumstances that is not really overseen.
    My attention was drawn as a result of a former constituent 
of mine, a sergeant by the name of Carmella Rodriguez, who was 
repeatedly misdiagnosed by military doctors as having a wart 
when he actually had a melanoma. And that melanoma led to his 
death.
    So I am wondering a couple of things. Do the Armed Forces 
keep track of how much money is wasted yearly on preventable 
medical errors? And how can this rate be lowered if the 
military is immune from liability for the harm it causes? I 
think that the focus of that attention has to be on this, 
unfortunately, Active Duty military personnel who have no legal 
resources in the face of medical negligence, due to this 1950 
Supreme Court decision that Justice Scalia says was a mistake. 
This is health care that comes about not in the context of 
military actions but it comes in the context of just normal 
life. So I wonder if you could focus a little attention on 
that.
    What do you think about that Supreme Court decision? It 
seems to me that Scalia is right; this is something that really 
needs to be dealt with. You have civilians that still have 
legal recourse, civilians that are members of military 
families. But you don't have the military personnel themselves 
who have the recourse as a result of that 1950 decision. Can we 
afford to kill and injure our own soldiers through negligent 
medical care?
    General Schoomaker. I think you are alluding to the Feres 
Doctrine, which was a law passed to protect uniformed 
commanders and members of the military from liability for 
decisions made in a military setting. That has been expanded to 
caregivers in a practice setting, in medical practice, and 
surgical practice.
    Just a point of information about the first cases you 
raised in the VA. The Veterans Administration, not being a part 
of the Department of Defense, I am not sure its relationship to 
the Feres Doctrine. But in that case--in fact, our practices in 
our hospitals would have protected our patients from HIV 
because we do the necessary sterilization and check for it.
    Mr. Hinchey. I appreciate the focus on that. There is no 
question about it. But there are cases where we have documented 
where they come up, where they weren't paid attention to 
adequately. That is the one I am mentioning.
    General Schoomaker. We look very carefully at medical 
errors. We look at those cases that either result in a claim 
against it; or, even when a claim is not filed, when an error 
has resulted in adverse outcome for a patient, or a near 
adverse outcome. I am, frankly, not aware of any connection 
between medical liability and improvements in medical error.
    Dr. Rice. Congressman Hinchey, I have never presumed to 
quarrel with Justice Scalia, particularly on an issue of legal 
doctrine. But I think General Schoomaker is exactly right. The 
government is liable under the Federal Tort Claims Act for an 
act committed by a uniformed practitioner acting within the 
scope of his duties and responsibilities. As General Schoomaker 
has pointed out, there is a standard-of-care investigation 
taken in the case of any assertion of medical malpractice or an 
unfortunate outcome.
    In my personal experience, having spent most of my career 
in the civilian academic world, I do not think that the threat 
of litigation is a particularly helpful way to improve 
practice. The judgment of one's peers is profoundly effective.
    Mr. Hinchey. That is something that I am going to disagree 
with you on, because I think that the liability is something 
that is going to focus attention on the health care that people 
need much more effectively than it is so often. Now, almost 
always in the vast majority of times, it is focused 
appropriately and people get appropriate health care. But if 
you have people who don't care about it, and knowing they are 
not going to be held accountable as a result of it, then there 
can be a lot of negligence in some cases.
    I think that negligence comes about as a result of the fact 
that there is no accountability; that they don't have to behave 
in the right way in the context of dealing with people who have 
normal health-care problems in the military. And if the people 
suffer as a result of that, well, they are not going to be held 
responsible.
    Dr. Rice. Sir, I guess I would take issue with your 
statement that there is no accountability. There may not be 
accountability in a civil court, but within the military system 
there is a lot of accountability. The behavior and performance 
of a military officer delivering health care is scrutinized 
very carefully, and there are profound implications.
    Mr. Hinchey. I think that is right. I think that that is 
effective. But at the same time, there are a number of other 
people who are not subject to accountability, and they are not 
subject to accountability because there is no legal 
accountability that they have to deal with. They don't have to 
deal with the legal accountability as a result of that 1950 
Supreme Court decision.
    Dr. Rice. I think on this one we will have to agree to 
disagree.
    Mr. Hinchey. All right.
    General Schoomaker. I would echo that. All of our 
practitioners are fully accountable for their actions. Except 
for the Active Duty soldier who, through the Feres Doctrine, 
cannot raise a claim under tort law, all family members, for 
example, are eligible for recourse.
    Mr. Hinchey. Family members are eligible.
    General Schoomaker. I don't know any relationship between 
improvements in standard of care and the ability of patients to 
sue for that care.
    Mr. Hinchey. The families are, but the military personnel 
are not. And that is something that I think really has to be 
dealt with. Frankly, I must say, candidly, I am disappointed in 
the way that you feel about it because it is going to, and has, 
clearly diminished the likelihood of the high quality, 
effective quality for health care for military personnel across 
the board. There are some number of military personnel who have 
suffered as a result of this.
    Mr. Dicks. The gentleman's time has expired. Ms. Kaptur.

                            VETERANS CLINIC

    Ms. Kaptur. Thank you, Mr. Chairman. Welcome, gentlemen. 
Thank you for the work that you do. In our region, we have no 
major bases that I represent that are Active Duty. But we have 
a lot of Guard and Reserve and returning soldiers. The Veterans 
Department has announced they want to rebuild this little 
veterans clinic we have in our area. If your advice--and 
knowing everything you know about what is occurring in theater 
and afterwards as these soldiers rotate out and they come back 
home, what would you advise them in terms of what to think 
about as they construct this clinic? Any considerations based 
on what you see happening to those in theater and in support of 
them compared to past wars?
    Dr. Rice. Congresswoman, if you are referring primarily to 
guardsmen and reservists, then I think a couple of things 
should be kept in mind by the VA, and I know the VA does a very 
good job of thinking through these issues. As my colleagues 
alluded to earlier, the biggest challenge that our 
beneficiaries face is access to primary care. So I think 
building a robust primary care system at such a clinic and then 
establishing referral relationships with a secondary and 
tertiary care facility in the nearby region is of paramount 
importance.
    Admiral Robinson. Additionally, with the comprehensive 
primary care, make sure that you have ready access, and I mean 
onsite access, to mental health capabilities--licensed clinical 
social workers, licensed occupational therapists that can do 
counseling. Psychologists, psychiatrists, of course. But it 
doesn't have to be only professionals; it can be a lesser 
person that can still give adequate and good mental health 
counseling.
    General Green. The studies have clearly shown that if you 
establish what we call collaborative care, which is the 
integration of the mental health into the primary care area, 
that that decreases stigma, encourages use of mental 
healthcare, and aids the primary care folks as they take care 
of some of the issues that come up with veterans.
    Ms. Kaptur. Your comments are very useful, because one of 
the challenges locally is, we have got veterans organizations, 
largely from past wars, they are more willing to participate 
than the current veterans--and one of the issues is mental 
health. And they are saying, We don't want to go in the same 
door, because when they call our number then everybody knows--
if we go down the elevator they know who we are. So we want a 
door built in the back of the building and we are going to 
drive our car back there so we are not with those other 
veterans. Collaborative care. I hadn't heard about that.
    Admiral Robinson. The deployment health clinics in Navy, we 
have about 17 now across the United States, are based exactly 
on the collaborative care model. It is helping to reduce stigma 
in terms of getting mental health care. So your veterans groups 
will be pleased because you go to the deployment health center 
for primary care. While you are there, you can also get mental 
health therapy, but no one knows where you are going to in the 
clinic.
    Ms. Kaptur. Admiral, could you send me some sort of summary 
of that from places where it is working? I know that you don't 
have responsibility for the VA. However, I have found in my 
career a huge gap between what happens at DOD and then when 
they come home at VA. It is a huge abyss in between.
    General Schoomaker. If I might, ma'am, really quickly. In 
fact, a lot of the behavioral health services that can be 
provided at a primary care site were developed in conjunction 
with the Veterans Administration. Durham VA, for example, was 
very, very active in developing a program called Respect-Mil 
which teaches and trains primary care providers.
    Ms. Kaptur. They probably have a big hospital there, right? 
When you get down to the hinterlands where you have got people 
coming home, and they are only going to clinics.
    General Schoomaker. This is a training program that can be 
applied wherever it is.
    The other things that I would add real quickly in terms of 
this clinic is dental care; a robust alcohol and drug treatment 
program; and because they are a younger population of veterans 
now, and more females, we suggest having child care available 
for women veterans onsite so that they can attend their 
appointments.

               SINGLE-PLAYER PODCAST DEVICE FOR VETERANS

    Ms. Kaptur. Interesting. Thank you, gentlemen, very much.
    I wanted to mention something that I saw that I will try to 
get to each of you, because I have ordered extras, and that is 
a single-player podcast device that is just as big as a little, 
tiny telephone. And what it is, the current soldiers aren't 
going to VFW posts and participating in veterans organizations 
when they are coming home. So especially where you don't have a 
big hospital or big base, they go out into the counties, and 
they are out there, and if they have mental challenges, mental 
illness challenges, it is likely untreated.
    And I found this over at the VA in Cleveland. And working 
with some of the psychologists, they have developed this 
program that can be hand-held, where a veteran can just take 
it--and I don't say it is self-administered care, but it works 
them through questions and so forth. We are finding it to be 
very effective.
    And so I wasn't aware if you had seen these types of 
devices and were using them on a regular basis. If they are out 
in some rural county and they have nothing, it is better than 
nothing. If they are not going to come into the major urban 
clinic, it gives them a lot of alternatives. A lot of people 
working with them in the Cleveland system seem to feel it 
provides a new way forward. And the new veterans are all 
independent. They don't want to go to group sessions. A lot of 
them don't do that.
    Have you ever seen these types of devices?
    General Schoomaker. I am personally not familiar with it, 
but I have written it down. Maybe we can get some details.
    Ms. Kaptur. We are trying to order you some cassettes.
    General Schoomaker. I am going to be at the Cincinnati VA 
Friday or Saturday, talking to Kate Chard, one of the leading 
posttraumatic stress treaters. I will talk to her.

                            DRUG ADDICTIONS

    Ms. Kaptur. I will make sure we get one of these to her so 
she can give it to you. Give me your evaluation of it, if you 
think it is as useful as we have been told.
    My final question has to do, sort of following on what 
Congressman Rogers was dealing with, I think about Vietnam. I 
remember that era and the numbers of our Soldiers that were 
addicted and what happened in theater and when they came home. 
We have got soldiers now over in Afghanistan, and we know what 
the primary crop in that country is.
    What are you seeing? Are you seeing any evidence of 
additional addiction as a result of where our Soldiers are 
deployed, and what is happening in those circumstances and what 
comes to you in the health field?
    General Schoomaker. No, ma'am, not that we are aware. I am 
not aware through the drug screening programs that are applied 
to all Soldiers that there has been any increase as a 
consequence of those deployments.

                           HEALTH CHALLENGES

    Ms. Kaptur. If each of you were, in summary, were to tick 
off a major health challenge you feel that you face in your 
branch or in your responsibility at the university, what would 
it be?
    Admiral Robinson. Just to name a major challenge, it would 
be smoking.
    General Green. I would say obesity. It mirrors what is 
going on with the country.
    Ms. Kaptur. Obesity. In the Air Force.
    General Green. Obesity with our beneficiary population, not 
just Active Duty. It is a problem with Active Duty, retirees, 
family members. Our problems tend to mimic the general society.
    General Schoomaker. We have the same problem in the Army. 
Army statistics show the Active Duty soldier on average is at 
lower body mass index, but as soon as they retire--and their 
family members are on par with the country. So we are targeting 
childhood obesity as one of the health improvement programs 
within Army Medicine.
    Ms. Kaptur. Thank you. Thank you very much, Mr. Chairman.

                TRICARE REGION NORTH AND SOUTH PROTESTS

    Mr. Dicks. What is the basis for the protest in the TRICARE 
Region North?
    Dr. Rice. Chairman Dicks, the General Accountability Office 
reviewed the contract in the North and found evidence of an 
undue competitive advantage. That is a public report. And the 
Department is working through resolution of that issue.
    Mr. Dicks. UNDO competitive advantage. What does that mean?
    Dr. Rice. Unfair competitive advantage. The assertion is 
that the winning contractor had access to inside information.
    Mr. Dicks. What is the basis for the protest in TRICARE 
Region South?
    Dr. Rice. In the South region, one of the bidders offered 
discounts for services. The protest was based on the fact that 
even though the TRICARE Management Activity had indicated that 
it was not going to take discounts into consideration in the 
award of the contract because they could not be guaranteed, the 
General Accountability Office found that those should have been 
taken into account.
    So the technical evaluation of those two contracts, those 
two proposals, is now underway to define precisely how the 
proposed discounts can be factored in.
    Mr. Dicks. So what is the status? Are you redoing them?
    Dr. Rice. No, sir. The contracting office has reached a 
conclusion on those and on the one in the North, and that is 
now under legal review at the highest levels of the Department. 
We hope to be able to resolve that issue quickly. In the South, 
again, the technical reevaluation is underway or the technical 
standards are being redefined.
    We will give the two proposing organizations the 
opportunity to refine their proposals just within those narrow 
technical limits. We will then evaluate those. And we hope to 
be able to reach a conclusion on that issue within a month to 6 
weeks.
    Mr. Dicks. What is the status of the award at the TRICARE 
Region West?
    Dr. Rice. Sir, that is an agency protest that did not go to 
the General Accountability Office. Under the rules of 
competition, a health-care or managed-care support contractor 
can win in only one of the three regions. One of the 
organizations that was apparently successful in the South 
region lodged an agency protest in the West region so that in 
the event they lost in the South, they would be able to reopen 
discussions in the West.
    Mr. Dicks. When will that be resolved?
    Dr. Rice. The resolution of the West is dependent on the 
resolution of the South.
    Mr. Dicks. So, interrelated.
    Dr. Rice. Yes, sir.
    Mr. Dicks. Is it possible to change the current contracts 
to reflect the enhancements of T3, the third-generation TRICARE 
contracts?
    Dr. Rice. No, sir. The existing TNEX contracts, which are 
the ones that we are operating under right now, they have run 
their course in the North. Where the contract has been extended 
with the existing contractor, that remains under the TNEX 
contract. That is one of the reasons that we are eager to move 
ahead with the resolution of these awards, so that we can 
transition to T3.
    In the meantime, we will very shortly begin the development 
of the generation of--the characteristics of the generation to 
follow that one, which we have, very imaginatively, tentatively 
named T4, which we hope to be able to take into account some of 
the new thinking that may help us bend the curve so that 
health-care costs under TRICARE do not continue to escalate as 
rapidly as they have.
    Mr. Dicks. How fast have they been going up? What has been 
the percentage per year?
    Dr. Rice. Mr. Chairman, the MHS costs are projected to 
increase between about between 5 and 7 percent per year through 
the year 2015. If that growth rate remains unchecked, they are 
projected to approach $64 billion in 2010 dollars in fiscal 
2015. As the chairman knows, the subject of escalating health-
care cost has been one that the Congress has been intently 
focused on for the country as a whole. The Military Health 
System is not immune from those same pressures.
    Mr. Dicks. At least this year, you set up a budget that had 
all your costs in it.
    Dr. Rice. Yes, sir. The budget proposal is fully funded.

                        WARRIOR TRANSITION UNITS

    Mr. Dicks. How many Warrior Transition Units currently 
exist to date?
    General Schoomaker. Twenty-nine within the uniformed system 
associated with hospitals and clinics. And there are nine that 
are based in the Adjutants General for nine different States. 
They are more regional; as I said, at Utah, Virginia, 
Massachusetts, Florida, Arkansas.
    Mr. Dicks. There are nine of them?
    General Schoomaker. Yes, sir.
    Mr. Dicks. Not one in Washington State, I take it.
    General Schoomaker. Utah is the closest one.
    Mr. Dicks. We have a big one at Fort Lewis at Madigan.
    General Schoomaker. Yes, sir. And there is one at Fort 
Richardson in Alaska.
    Mr. Dicks. The committee understands that the WTUs are not 
fully resourced. Why are the WTUs not fully resourced?
    General Schoomaker. Sir, I am not aware that they aren't. 
In what respect?
    Mr. Dicks. Well, why don't you look into that? If you can 
just verify that. Our staff seems to think that there are some 
issues here. Are there funds in the 2011 budget to enhance 
Warrior Transition Units?
    General Schoomaker. Yes, sir. Part of the funding is for 
fully funding the Warrior Transition Units.
    Mr. Dicks. Okay. I was just out to the one at Fort Lewis. I 
was very impressed. I was also impressed by the fact that the 
commander of the unit was a wounded veteran, who was very 
impressive.
    General Schoomaker. It may be worth noting that the Army 
Wounded Warrior Program, which is a part of the Warrior 
Transition Command that has oversight over all of these units, 
is going to be Lieutenant Colonel, promotable, Greg Gadson, the 
double amputee, who remained on Active Duty, and was the 
inspiration for the New York Giants to win the Super Bowl 2 
years ago.
    Mr. Dicks. Is the Army Medical Action Plan fully resourced?
    General Schoomaker. Yes, sir. The AMAP, the Army Medical 
Action Plan, that was stood up after an execution order in May-
June of that year of 2007, was the forerunner of the Warrior 
Transition Unit process. That led off the whole process of 
transforming wounded and injured warrior care.
    Mr. Dicks. How do the services differ in the provision of 
care in transitioning of Wounded Warriors?
    General Schoomaker. Sir, I would say that the inpatient and 
outpatient care is identical across the services, independent 
of what the color of the uniform is. What we differ in is how 
we administer the programs, subtleties in the support of 
families and nonmedical attendants and the like--and I will let 
my colleagues address that--but use a more decentralized 
process and the like. In the main, what we are all aspiring to 
do, and our transition into the VA and the like, is very, very 
similar.
    Admiral Robinson. I think that from the Navy's perspective, 
as General Schoomaker has said, the decentralized approach, all 
of the Warrior Transition Units and the men and women who may 
be there are still under the auspices of the Surgeon General of 
the Army; in the Navy, the Warrior Transition Units or Wounded 
Warrior regiments at Camp Lejeune and Camp Pendleton, and at 
Quantico in this particular region. The Marine Corps takes 
those--they are in charge of those particular units and the 
Marines are in control. Those units all have medical clinics or 
medical facilities that are with them, but we are there to 
provide medical care to them, but the line has control of those 
members.
    General Green. For the Air Force, we have a centralized 
program that oversees our warrior and survivor care, all 
overseen by our A1, so done by our personnel community. But we 
do decentralize in terms of the recovery care coordinators and 
the community readiness consultants, et cetera, that provide 
support. Our Wounded Warriors are all tracked centrally, so we 
know exactly what is happening with each of them, but they 
actually can receive their care locally and then have regional 
recovery care coordinators.
    Mr. Dicks. Does the budget cut provide adequate funding to 
take care of the Wounded Warrior Programs? As far as you know, 
is this fully funded?
    General Schoomaker. Yes, sir.
    Admiral Robinson. Yes.
    General Green. Yes.
    Mr. Dicks. All right. The committee stands adjourned until 
May 5th at 10 a.m. in H-140 when we will hold a hearing on the 
Missile Defense Agency programs.
    Thank you, gentlemen. I appreciate your testimony.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

    Question. VA and DOD medical facilities have improved markedly over 
the last several years, which is good for those people who live in 
close proximity to them. However, a great many National Guardsmen and 
Reservists live in rural communities far removed from those types of 
support facilities. In the past I have championed efforts to provide 
telephonic psychological counseling services to mitigate those types of 
challenges. Though accomplished at a distance, the intent of these 
services is to have an active medical professional manage cases over a 
period of time in order to both treat and diagnose psychological issues 
that may also appear long after a veteran leaves the service. What 
other things can this committee do to ensure the welfare of servicemen 
and women in rural areas?
    Dr. Rice's Answer. The Department appreciates the Committee's 
support for telephonic counseling for the mental health needs of our 
Service members. As we review our options for best solutions, the 
Department will continue to work closely with the Committee on this 
important issue.
    General Schoomaker's Answer. There are three actions I recommend to 
your committee in order to improve the welfare of servicemen and women 
in rural areas. First, continue to fully fund the Defense Health 
Program (DHP) budget. Eligible Reserve Component (RC) Soldiers and 
their Families use DHP-funded TRICARE medical and dental services 
before, during, and after mobilization. RC Soldiers who are issued 
delayed-effective-date active duty orders for more than 30 days in 
support of a contingency operation are covered as active duty service 
members and receive active duty medical and dental benefits generally 
from the time they receive their mobilization orders until six months 
after their demobilization. Eligible RC Soldiers living in rural areas 
use the TRICARE provider network in their local area to receive medical 
and dental care, and this benefit is critical to those Soldiers who 
lose employer-provided healthcare insurance while deployed.
    RC Soldiers are also eligible to purchase TRICARE Reserve Select 
(TRS) and the TRICARE Dental Program when not on active duty for more 
than 30 days. DHP funds subsidize a significant portion of both 
programs, making these plans affordable to RC members throughout the 
U.S. In some rural areas RC Soldiers may have few other affordable 
medical and dental insurance options, so your funding support for DHP 
enables TRICARE to continue to offer these beneficial programs.
    Second, continue to support and fund the Yellow Ribbon 
Reintegration Program. The Secretary of Defense initiated the Yellow 
Ribbon Reintegration Program to provide information, services, 
referral, and proactive outreach programs to RC Soldiers and their 
Families through all phases of the deployment cycle. The goal of the 
Yellow Ribbon Reintegration Program is to prepare Soldiers and Families 
for mobilization, sustain Families during mobilization, and reintegrate 
Soldiers with their Families, communities, and employers upon 
redeployment or release from active duty. The program includes 
information on current benefits and resources available to help 
overcome the challenges of reintegration. This program provides vital 
resources to rural-based Family members of deployed Soldiers as they 
are geographically dislocated from military installations that 
routinely provide similar services to Soldiers and Families in the 
immediate area.
    Third, the Army will need your continued support as we review 
statutory limitations that impact the provision of telemedicine across 
state lines. State laws governing contract providers vary regarding 
licensure reciprocity and/or other sharing arrangements, while 
Uniformed and Government civilian providers can practice across state 
lines as long as they have a valid state license and are working in 
their Federal capacity. The Army would like to remove barriers such as 
this in order to provide world-class telemedicine care to Soldiers and 
their Families regardless of proximity to the provider. We value your 
support of this issue as we continue to work with our Department of 
Defense partners to improve access to care for all Soldiers and their 
Families.
    Admiral Robinson's Answer. The Committee can continue to support 
psychological health outreach and support activities such as those 
being provided by the Navy Reserve Psychological Health Outreach 
Program. This program was established by Navy Medicine in 2008 to 
provide a Psychological Health ``safety net'' for Navy Reservists and 
their families at risk for stress injuries. Five teams consisting of 
two Psychological Health Outreach Coordinators and two to four 
Psychological Health Outreach Team Members are located at each of the 
five Reserve Component Commands for a total of 25 personnel. The 
Psychological Health Outreach Team Members provide outreach phone calls 
to Navy Reservists, especially those returning from mobilization, to 
check on their psychological health status. Additionally, they provide 
referrals to mental health care providers (TRICARE, VA or civilian 
health care provider based on eligibility) as indicated and assist in 
arranging follow up care as needed. Finally, the Outreach Team Members 
make periodic visits to each of the Navy Operational Support Centers 
(NOSCs) in their respective regions where they provide the Operational 
Stress Control (OSC) and Suicide Prevention briefings and have the 
opportunity to meet with individual Reservists. As of 1 April, 2010, 
the Navy Reserve Psychological Health Outreach Teams have:
          --Assessed over 2,000 Reservists; 975 required further 
        services and follow-up
          --Provided outreach calls to an additional 2,100 returning 
        Reservists
          --Made 225 visits to NOSCs providing OSC awareness brief to 
        over 23,400 Reservists and NOSC staff.
    This program was expanded to provide services to the Marine Corps 
Reserves in 2009. There are six Psychological Health Outreach Teams 
(total of 30 licensed Social Workers) providing services to Marine 
Corps Reservists and their family members.
    General Green's Answer: The Air Force Reserve Command provides the 
following suggestions:
    Air Force Reserve Command (AFRC) currently has no Director of 
Psychological Health (DPH) positions. AFRC wants to hire DPHs who will 
be in charge of coordinating access to mental health services for 
reservists. Defense Health Program (DHP) funds have been appropriated, 
but because of appropriation rules this money cannot be used to provide 
administrative oversight positions. Recommend committee investigate how 
long-term funding for the AFRC DPH program can be provided. Funding of 
DPHs will provide recourses to assist Reserve members having difficulty 
accessing care and assistance, especially in rural areas.
    The Air National Guard provides the following feedback:
    Regarding psychological health, the National Guard Bureau has 
contracted to have a Director of Psychological Health (DPH) in every 
State and Territory. These individuals are tasked with evaluating and 
providing case management for National Guard service members and their 
loved ones, regardless of their location. Unfortunately, there is only 
one allotted for each State and Territory. In addition, there are 
efforts to implement video teleconferencing for behavioral health 
consultation. At present, the Air National Guard has five sites where 
telemental health equipment has been placed. However, it is unknown how 
readily the systems are being used.
    The committee could investigate the possibility of expanding the 
availability of DPH's at the State and Territory level. This would help 
ensure that service members, especially those in geographically remote 
areas can have rapid and convenient access to behavioral health care 
practitioners.
    Question: The Center for Deployed Psychology (CDP) has an excellent 
curriculum to train military and civilian psychologists and other 
mental health professionals to provide high quality deployment related 
service. Do you have any thoughts on how the CDP can appeal to a larger 
audience, to effectively expand the number of providers that are 
``deployment psychology'' certified? Are certain incentives to attend 
the training the answer?
    Dr. Rice's Answer: My thoughts of how CDP can appeal to a large 
audience is to address the three issues that currently limit 
participation: (1) costs in time and dollars associated with attending 
the programs, (2) lack of incentives making the programs a worthwhile 
endeavor for providers to attend, and (3) lack of awareness of the 
programs.
    To address these issues, we are offering certain incentives. With 
regard to costs, the CDP has made efforts to defray the costs 
associated with attending their programs (e.g., funding TDY costs for 
military providers, regional distribution of 1-week courses). 
Additional resources (i.e., TDY funds, funding for additional civilian 
courses, CDP staffing) would allow for larger audiences. The CDP 
generally offers free or low-cost Continuing Education Credits to 
provide incentives for attending its courses but there is some evidence 
that providing additional direct incentives might not attract providers 
who are likely to use these skills with Service members, veterans, or 
their families. We are considering additional incentives that target 
providers likely to treat these populations, such as contract providers 
working on military installations.
    General Schoomaker Answer. The Center for Deployment Psychology 
(CDP), a tri-Service center, was established to promote the deployment-
related training of behavioral health providers in support of service 
members and their Families. The CDP provides education to military and 
civilian behavioral health providers. This two-week training takes 
place quarterly, and is a mandated training requirement for all student 
interns completing their American Psychological Association Internship 
at every Military Treatment Facility within the Army, Navy, and Air 
Force. There are several ways that the CDP can appeal to a larger 
audience, including retaining central travel funding for attending the 
two-week course and not shifting this burden to the Services. When 
units fund the travel, they are less likely to send personnel. Also, 
adding programs for mobile training at Military Treatment Facilities, 
as well as for additional one-week civilian courses would mean CDP 
trainers could reach more providers. Military Treatment Facility 
training may be particularly important to reach contractors who can not 
travel as easily as military or government service personnel. An 
advanced CDP training course has also been suggested specifically for 
providers who have already attended the two-week course and then 
deployed. The demand is unknown and although CDP is able to develop 
such a course, funding would be needed to cover additional costs.
    The Army also provides additional training to our behavioral health 
providers including Active and Reserves Components. All providers 
(e.g., psychiatrists, psychologists, social workers, psychiatric 
nurses, enlisted mental health specialists) are mandated to receive 
Combat and Operational Stress Control training prior to deploying for 
the first time. Providers who have not deployed within the previous 24 
months are also required to attend this training, and those who are re-
deploying to a different operational site are strongly encouraged to 
attend. This one-week training emphasizes the most current, cutting 
edge information, lessons-learned from combat operations, and tools to 
effectively deliver behavioral healthcare downrange.
    Our network providers who care for service members and families 
also have numerous opportunities for education and training related to 
deployment psychology. TriWest Healthcare Alliance offers extensive 
education for their network providers. At this year's annual American 
Psychiatric Association Meeting, a number of presentations will be 
delivered by military and Department of Veterans Affairs (VA) providers 
to help civilian psychiatrists understand deployment psychology and the 
needs and strengths of Soldiers and their Families. In July, the 
Massachusetts General Hospital Psychiatric Academy is partnering with 
military and VA clinicians to provide an intense course on the 
management of complex post traumatic stress disorder and traumatic 
brain injury.
    Admiral Robinson's Answer. Since 2008 Navy Medicine has coordinated 
closely with Dr. David Riggs and the Center for Deployment Psychology 
(CDP) to develop and provide evidence-based training programs for Navy 
mental health providers in the treatment of Post Traumatic Stress 
Disorder and other combat related stress illnesses. CDP training has 
been provided at Navy Military Treatment Facilities, Navy Psychology 
Internship training programs, and Navy Medicine Deployment Health 
Centers, with plans to expand to our growing Social Work community.
    Offering Continuing Medical Education (CME) and Continuing 
Education Units (CEUs) for CDP training would increase the appeal and 
participation in CDP trainings.
    General Green's Answer. Currently Air Force psychologists, social 
workers, and psychiatry residents attend the Center for Deployed 
Psychology (CDP) during training. Adding courses/topics specific to 
psychiatry (e.g. medication use in Post Traumatic Stress Disorder, 
medication use in theater) will increase attendance by psychiatrists. 
We recommend advertising this to Mental Health Nurse Practitioners. In 
addition, we recommend CDP reach out to State and Territorial mental 
health departments or private sector clinicians, identifying additional 
clinicians treating Guard and Reserve Airmen, who would benefit from 
this training. We also recommend CDP certify their online educational 
resources for continuing education credit hours, giving providers an 
incentive to complete on-line trainings. We support CDP's plan to 
conduct an ongoing series of workshops and seminars throughout the 
United States in an effort to disseminate information on deployment-
related behavioral health. This is especially important for our Guard 
and Reserve members who may not have ready access to military or 
veteran's medical services.
    Question. Battlefield medicine has come a long way and survival 
rates are the highest they have ever been, yet there is still room for 
improvement. During the past decade, the Army Surgeon General's office 
has been supportive of developing the advanced life support technology 
known as LSTAT, which is essentially an automated life support trauma 
pod. It seems like promising technology and apparently lighter versions 
were developed, cleared by the FDA, with requests coming in from the 
field for them. Can you tell me why AMEDD has not fielded the FDA 
approved smaller versions of the system? Furthermore, can you tell me 
why AMEDD has stopped development of the next generation LSTAT and why 
it has withheld FY2009 and FY2010 Congressional dollars from the 
program?
    General Schoomaker's Answer. The Army Medical Department has a 
long-standing interest along with the other Services in a portable, 
interoperable, and modular life support module which allows us to 
transfer seriously injured and ill patients from field hospitals to 
medical evacuation (MEDEVAC) ambulances, helicopters, and planes and 
through the MEDEVAC chain from far forward to hospitals in the 
continental United States. We have been working with industry on this 
for many years including current development of lighter weight LSTATS. 
Existing automated life support equipment demonstrates some critical 
deficiencies in operational testing and does not meet all functional 
capability requirements. The FY2010 congressional procurement funding 
is being reprogrammed to be used as Research, Development, Test, and 
Evaluation funds to further develop and improve the equipment's 
capability. The FY2009 procurement funding will not be expended for 
several months pending the result of current development efforts. If 
the outcome of these efforts is acceptable, we will invite vendors to 
compete for the procurement solicitation to provide the best currently 
available products to the battlefield. We are confident that this will 
give us the best solution and provide the Warrior and the taxpayer the 
best value.
    Question. Hyperbaric oxygen treatment appears to show some promise 
when it comes to the treatment of brain related injuries, burns, and 
certain medical conditions such as cerebral palsy and autism. Can you 
please describe the military's position on the viability of this 
treatment option and how it is being assessed? Possible Follow-up: When 
do you expect to see results from any studies and how quickly could 
treatment options become available for the vast majority of patients?
    Dr. Rice's Answer. The DoD position on the viability of the 
Hyperbaric oxygen (HBO<INF>2</INF>) treatment is that it has shown 
promise in randomized controlled trials in acute severe traumatic brain 
injury (TBI), and anecdotally has shown promise in case reports and 
case series in relief of symptoms in chronic mild TBI or concussion. 
The results in mild TBI are not outside the realm of a placebo 
response, however, and attribution of the observed improvement to the 
HBO<INF>2</INF> cannot be determined due to the lack of rigorous 
scientific design. Moreover, no data on durability of any improvement 
has been reported.
    The viability of the treatment has been assessed by the required 
randomized clinical trials to generate this evidence through a program 
of clinical studies. Three preliminary randomized, double-blind, sham-
controlled trials within DoD are underway or due to start shortly to 
look at the best doses of oxygen, sham procedures, and validation of 
measures to assess improvement in symptoms and objective neurologic 
function. To date, 34 warriors with chronic TBI have volunteered in the 
first trial and 25 have completed all testing. A second study is 
actively recruiting and a third is due to kick off soon.
    We expect to see more results from these pilot trials by early next 
calendar year. DoD plans for a definitive trial to kick off at that 
time, which will take approximately three years to complete. That study 
will enroll approximately 300 symptomatic warriors over two years, and 
follow the volunteers for the durability of any response for at least a 
year.
    General Schoomaker's Answer. Hyperbaric oxygen (HBO<INF>2</INF>) is 
approved by the FDA for 13 medical conditions, but not brain injury. 
HBO<INF>2</INF> has demonstrated promise in randomized controlled 
trials in acute severe traumatic brain injury (TBI), and anecdotally 
has shown promise in case reports and case series in relief of symptoms 
in chronic mild TBI or concussion. The results in concussion are not 
outside the realm of a placebo response, however, and attribution of 
the observed improvement to the hyperbaric oxygen cannot be determined 
due to the lack of rigorous scientific design. Moreover, no data on 
durability of any improvement has been reported. In summary, there 
remains no randomized controlled trial evidence to support the use of 
HBO<INF>2</INF> for chronic TBI, and four independent reviews have 
failed to endorse its use for this purpose citing lack of strong 
evidence.
    The DoD response has been to support and to perform the required 
randomized clinical trials (RCT) to generate this evidence through a 
program of clinical studies, and then allow the data to guide policy 
decisions. These studies are in fact the only RCTs of HBO<INF>2</INF> 
for chronic TBI ongoing in the United States. Furthermore, the Defense 
Centers of Excellence for Traumatic Brain Injury, along with the Army 
Medical Research and Materiel Command, has been awarded an 
investigational new drug application (IND) to study hyperbaric oxygen, 
and has established an independent data monitoring board to review the 
results of the data and make policy recommendations to senior 
leadership. Three preliminary or phase II randomized, double blind, 
sham-controlled trials within DoD are underway or due to start shortly 
to look at the best doses of oxygen, sham procedures, and validation of 
measures to assess improvement in symptoms and objective neurologic 
function. To date, 34 warriors with chronic TBI have volunteered in the 
first trial and 25 have completed all testing. Two additional studies 
are due to kick off in the next couple months. We expect some data 
(100 volunteers) from these pilot trials by early next calendar year, 
and DoD plans for a definitive or Phase III trial to kick off at that 
time, which will take approximately three years to complete.
    Admiral Robinson's Answer. Navy Medicine is committed to providing 
all available therapies to Service Members and their families as soon 
as there is sufficient evidence to ensure safety and efficacy of the 
therapy. The Department of Defense has three trials planned or in 
progress (two efficacy studies, one feasibility study) to assess the 
effects of hyperbaric oxygen therapy on the symptoms of mild and 
moderate traumatic brain injury. The two efficacy studies will have 
data available in January 2011. The feasibility study will have data 
available in 2014.
    General Green's Answer. At the present time, Air Force research on 
Hyperbaric oxygen treatment (HBOT) is centered on treatment of 
Traumatic Brain Injury (TBI). Although anecdotal case reports and small 
series of trials report benefit in TBI, it is an unproven therapy and 
is not accepted as a standard treatment. There are several prospective 
randomized clinical trials underway within the DoD and civilian 
institutions to provide more conclusive evidence regarding use for TBI.
    There are four major prospective randomized Phase II trials 
underway to evaluate HBOT. The first is being conducted by the United 
States Air Force at United States Air Force School of Aerospace 
Medicine and Wilford Hall Medical Center with initial results expected 
in August 2010. The second is being conducted jointly by Defense 
Advanced Research Projects Agency (DARPA), the U.S. Navy, and Virginia 
Commonwealth University. The third is sponsored by the Defense Centers 
of Excellence (DCoE) and the US Army Medical Research and Material 
Command (USAMRMC). And the fourth trial is sponsored by Intermountain 
Health Care.
    The definitive phase 3 clinical trial is being sponsored by DCoE 
and USAMRMC which will be a randomized, multi-center (DoD facilities 
only), double blind, definitive clinical trial to be conducted under 
the auspices of the Food and Drug Administration with an 
Investigational new Drug registration. This study will enroll 300 
participants across multiple military locations where TBI affected 
members reside and will use the outcome measures validated in the Phase 
2 studies previously conducted. This Phase 3 trial is projected to 
start in the fall of 2010 under the supervision of Dr. Lindell Weaver, 
a critical care pulmonologist, hyperbaric physician, and Professor of 
Medicine at the University of Utah School of Medicine, and Director of 
Hyperbaric Medicine at Latter Day Saints Hospital and Intermountain 
Medical Center, Murray, Utah.
    To ensure that the data from these trials are rapidly and 
independently assessed, the DCoE has chartered an independent Data 
Safety Monitoring Board (DSMB) that will review the results of the 
Phase 2 and Phase 3 trials. They will ensure the safety of the study 
participants and will be authorized to stop the study early if it 
proves to be futile or if a conclusive benefit if found.
    If HBO therapy is found to be effective in the treatment of TBI, 
the evidence will be presented to the Undersea and Hyperbaric Medical 
Society for consideration as an accepted indication for use of HBO. 
This phase 3 study will likely take 2-3 years to get results.
    Question. For Admiral Robinson: In your written testimony, you 
mention the humanitarian missions the Navy is involved in as a ``Force 
for Good.'' You specifically mentioned Haiti and the roles the USNS 
Comfort and Mercy have played in that tragedy and elsewhere. Such 
expeditionary medical capabilities seem invaluable to me, both from a 
humanitarian standpoint and a diplomatic one. Please tell me what long 
term role you see in the Navy for ships like the Mercy and Comfort. 
Possible Follow-up: For the other services, how do you view your 
expeditionary medical capabilities? Is the humanitarian assistance 
mission an important one?
    Answer:
    CNO's Sea Basing concept requires robust medical capability afloat 
to support the Chief of Naval Operations Maritime Strategy: A 
Cooperative Strategy for 21st Century Seapower.
    Both T-AHs (hospital ships) are assigned forces in DOD Forces for 
Unified Commands supporting their operational capability.
    <bullet> Through Disaster Response and Humanitarian and Civic 
Assistance missions, Theater Security Cooperation is achieved with 
international military partners, Non-Governmental Organizations and 
academic institutions.
    <bullet> The T-AH, as a national asset, provides a unique image of 
national resolve in the forward presence sea-basing strategy.
    USNS MERCY (T-AH 19) and USNS COMFORT (T-AH 20) continue to provide 
now, and in the future, a unique and flexible capacity with up to 12 
operating rooms and associated medical support. This capability of the 
hospital ships includes 80 beds for intensive care (including 11 
isolation beds), 20 beds for recovery, 440 beds for intermediate care, 
and 440 beds for minimal care which allows them to treat a wide range 
of patients in partnership with the international community. Alliance 
with non-governmental organizations enhances capacity and enduring 
support in remote areas.
    The hospital ships serve as cornerstones for Shaping and Stability 
operations which help to address many of the root causes of conflict. 
To be effective in Overseas Contingency Operations, our Combatant 
Commanders need tools that are not only instruments of war, but 
implements of stability, security and reconstruction. Operating from 
the sea-base, the hospital ships provide a highly visible, positive, 
engaged, and reassuring presence when deployed for Theater Security 
Cooperation or when called to respond to foreign humanitarian 
assistance (FHA) or Defense Support of Civil Authorities (DSCA) 
missions. The hospital ships are part of the Navy's proactive influence 
plans and partnerships-for-peace missions.
    The two hospital ships (USNS MERCY and USNS COMFORT) have a life 
expectancy to approximately 2020/21. Alterations to extend their 
service life beyond 2020, and to enhance their ship-to-shore patient 
transfer capabilities for shallow water coastal regions (such as 
larger, higher capacity, faster, and more seaworthy boats), may be 
considered. It is conceivable, subject to life extension studies being 
accomplished, that these ships might be capable of a life extension 
approaching 2030. Currently, there is no recapitalization plan for 
hospital ships, but possible smaller, more flexible alternative 
platforms are being examined. Continued studies are needed to define 
future capabilities for wartime and peacetime support and to develop an 
assessment of more effective, less costly, methods of providing health 
services support from the sea-base. Examining alternatives of sea-to-
shore health services capabilities would expand the flexibility to meet 
a range of future missions with more agility.
    The hospital ships of the past, present, and the next generation 
ships, have a strong role in fostering the good will stemming from the 
contributions of our government and citizens towards meeting the 
humanitarian needs of the people from other nations, and of our own 
nation. While serving with an enormous medical benefit to the 
contingency purposes of our own country in times of war and disaster 
response, recent missions have won the hearts of countless people, not 
only from those who serve on them, both military and civilian, foreign 
and domestic, but also with the hearts and minds of those who received 
care and support from those ``big white American ships with the red 
crosses on them.'' Humanitarian missions are very important, and the 
future generation of T-AH hospital ships will remain a central 
contributor to that civic duty of our country.
     General Schoomaker's Answer. I see humanitarian assistance and 
foreign disaster response missions as extremely important. The Army 
Medical Department has incredibly diverse and robust capabilities, both 
in our operating force forward deployed, and in our generating force 
here at home. We have statutory authority under Title 10 (U.S. Code, 
Section 401) to support a variety of peacetime engagement projects, of 
which humanitarian assistance missions are a subset, principally as 
training missions for our forces. In addition to the training benefits, 
we involve our forces in humanitarian activities for several other 
reasons, including, of course, the moral humanitarian imperative, but 
also because the Army has unique capabilities, we can foster goodwill 
through nonthreatening engagement with foreign governments, and because 
there are positive public affairs outcomes that influence recruiting. 
Few organizations outside of the military have the capacity to move 
materiel, establish secure routes for aid delivery, develop command and 
control mechanisms, and provide direct assistance at the levels often 
required especially in disasters such as the earthquake in Haiti. 
Humanitarian operations benefit the American political process by 
showing other countries the diverse American population working 
together to achieve common goals and thus improving global public 
relations.
    The deployment of military forces to assist with a foreign disaster 
is a very visible show of support for the affected government and 
people. It also helps develop skills in our forces that are necessary 
for successful civil-military operations. The knowledge of, and 
relationships with, civil authorities' and non-governmental response 
organizations' processes, needs, goals, and constraints foster 
increased capabilities within the Army medical force to respond within 
the context of the Combatant Commander's theater engagement plans and 
within the scope of our federal responses to disasters within the 
United States. For these reasons, the Army Medical Department will 
continue to evolve our organizations, training, and equipment to ensure 
we can provide world class health care, any time, any place to meet our 
missions. We have to be able to apply the right mix of medical and 
public health expertise, knowledge and experience in civil military 
engagements, and cultural intelligence to successfully support the 
United States' expeditionary medical missions anywhere on the globe.
    Army medical forces provided support in the aftermath of Hurricanes 
Andrew in 1992, Mitch in 1998 and Katrina in 2005. With each of these 
opportunities to support our own citizens, we have evolved our 
processes and procedures to improve our response capabilities. 
Similarly, Army medical units were called on to provide disaster 
response medical support to earthquakes in Pakistan in 2006, and to 
both Haiti and Chile in 2010. The Army Medical Department is regularly 
engaged in Medical Readiness Training Exercises (MEDRETES) and Medical 
Civil Action Programs in support of the Combatant Commanders providing 
disease surveillance, remote clinical support and medical, veterinary 
and dental training. The Army Medical Department is presently involved 
in a MEDRETE in Honduras and is preparing for two additional exercises, 
one in the Dominican Republic and one in Paraguay. We have gained from 
our experiences some key insights about the value of these programs. We 
are extremely aware that creating false expectations in a foreign 
country is sometimes as detrimental as doing nothing. That insight led 
us to the awareness that building or fostering capabilities as well as 
capacity creates better long term impacts. By training the host 
country's providers, we enable them to continue programs and build 
medical capacity long after the Army departs.
    Finally, in alignment with this goal of building host nation 
capacity to improve health and provide healthcare to their citizens, 
the Army Medical Command through its subordinate Medical Research and 
Materiel Command has several pivotal foreign medical research 
laboratories--one in Germany, one in Kenya, and one in Thailand. These, 
in parallel with the Naval Medical Research Units in Indonesia, Egypt, 
and Peru, represent ``intellectual power projection platforms'' which 
foster host nation capacity and Combatant Command-centered theater 
health engagement.
    The laboratory in Thailand (the Armed Forces Research Institute of 
Medical Sciences, AFRIMS), working with the U.S. National Institute of 
Allergy and Infectious Disease and Thai government health officials 
recently completed an important HIV vaccine clinical trial that for the 
first time demonstrated modest protection against HIV infection. In the 
past, AFRIMS has helped develop--in partnership with host nation 
scientists and health officials--vaccines protective against hepatitis 
A and Japanese Encephalitis 2 in Thailand; rapid diagnostic tests for 
malaria; work on plague in Vietnam; and other related health 
initiatives in the Pacific Command area of responsibility.
    The Kenya laboratory (US Army Research Unit--Kenya, USAMRU-K) has 
done similar work with the Kenyans on malaria, leishmania, HIV, and 
trypanosomiasis (African sleeping sickness) and is a pivotal African 
regional asset for implementation of the President's Emergency Plan For 
Aids Relief. Further, in partnership with the President's Malaria 
Initiative, USAMRU-K has developed a regional center for the training 
of African laboratory technicians in the proper diagnosis of malaria.
    General Green's Answer. Absolutely! The Air Force Medical System 
(AFMS) provides a Total Force contingency response capability, 
leveraging both our Active and Reserve (Air Reserve and Air National 
Guard) Components, to deliver world-class patient care on the ground 
and in the air. We are light, lean and are designed to move quickly to 
wherever needed. Our Expeditionary Medical System (EMEDS) is a time-
tested and proven medical capability around which the AFMS has built 
its deployed operations over the past decade. It is extremely adaptive 
across all mission areas to include combat operations, homeland 
response, and humanitarian disaster relief. When linked with our highly 
developed patient movement system to include Critical Care Air 
Transport Teams (CCATT's), we are able to stabilize and move even the 
most critical patients within hours of injury to the highest levels of 
care anywhere in the world, truly a good news story for our Wounded 
Warriors. This `system' of care is fast becoming the system of choice 
in responding to contingencies. A recent demonstration of the EMEDS 
success was in support of United States response to the 8.8 Chile 
earthquake. The United States Agency for International Development 
(USAID) specifically requested the EMEDS in their efforts to restore 
medical care and provide a temporary medical facility to the city of 
Angol. Within 72 hours of notification, we deployed 84 medical 
personnel and 67 tons of cargo to Chile and within 48 hours of hitting 
the ground, our facility was fully operational. Over the course of the 
next 14 days our Air Force medics treated 276 patients, performed 38 
surgeries, and integrated/transitioned the facility over to the local 
healthcare providers. The entire operation was well received, praised 
by both the Mayor of Angol and the U.S. Ambassador. We continue to 
perfect this expeditionary medical capability to solidify the EMEDS as 
the system of choice. Although the AFMS provides a vital niche 
capability to deploy rapidly with small modular personnel teams and 
equipment packages tailored to specific mission requirements, we 
recognize that we are still part of a much larger medical response 
effort that includes not only our sister Services, other U.S. 
governmental agencies, and coalition partners, but also a host of 
nongovernmental agencies specializing in providing support. Our 
humanitarian mission is an important one, as non-kinetic `soft power' 
in the DoD arsenal to win today's fight, and through partnership and 
partnership capacity building to enhance stability and cooperation 
around the globe. In conclusion, the AFMS, as always, stands ready, 
willing, and able to respond to our nation's call, wherever that may 
be.
    Question. For General Schoomaker: I enjoyed reading your written 
testimony about the improvements the Army has made with its Warrior 
Transition Units and ensuring that our wounded warriors are being 
properly cared for throughout the entire process. The Comprehensive 
Transition Plan seems like a good idea and the Army Wounded Warrior 
(AW2) advocates also appear to be a prudent step in giving individual 
attention when it comes to navigating the many decisions that need to 
be made by our wounded warriors. Are those advocate positions 
adequately manned and are there enough on hand now? Are there 
corresponding advocates in the VA if someone is transitioned into that 
system? Possible Follow-up for all services: How effective is the 
transition today from DoD to VA?
    Answer. Army Wounded Warrior (AW2) has 150 Advocates located at 
major Military Treatment Facilities (MTFs), Army Installations Warrior 
Transition Units (WTUs), and Department of Veterans Affairs Medical 
Centers (VAMCs) throughout the Continental United States, Alaska, 
Hawaii, 4 U.S. Territories and Germany. The current ratio of AW2 
Soldiers and Veterans to Advocates is appropriately 45:1. The AW2 
program has undertaken various innovative and cutting edge business 
protocols in an effort to continue providing its renowned first rate 
customer support and assistance to both the Service members and their 
Families. Over the past few months, the AW2 leadership has conducted a 
comprehensive assessment and has implemented a thorough growth 
management initiative that will ensure that every assigned Soldier and 
their Family members are adequately supported within the provisions of 
the AW2 program. The AW2 program is expanding its core of government 
personnel, who are augmented by a robust and flexible contract support 
vehicle. In addition to this initiative, the AW2 program has developed 
and is in the process of field testing new methodologies and processes 
for assessing, defining and managing assigned Soldiers under the 
Lifecycle Management Program (LCMP). LCMP allows Advocates, with the 
concurrence of assigned Soldiers, to more effectively provide 
assistance and support based on the needs and desires of the Wounded 
Warriors. The general premise is--as Soldiers and Families progress 
back to advanced levels of independence, the frequency of Advocate 
interactions and involvement can be tailored to meet the needs of our 
Soldiers and Families. This initiative has the benefit of providing AW2 
with a resource tool to measure and develop a more efficient Wounded 
Warrior to Advocate ratio.
    The Army and the VA have made great strides in the development and 
integration of sound collaborative efforts in the realm of jointly 
managing, supporting and assisting our severely injured and ill Wounded 
Warriors. The Army currently has Advocates positioned in 75 VA 
facilities (VAMCs or Community Based Outpatient Clinics--(CBOCs)). This 
relationship, like other VA/DoD joint ventures in the area of support 
services to Wounded Warriors, is on the increase. By the end of this 
fiscal year, it is anticipated that this collaborative effort will 
witness the growth of approximately 15 new Advocates sharing and 
supporting dually-eligible beneficiaries from VA locations. The Army 
and the VA will continue to reach out to each other to explore all 
available options that are likely to enhance our mutual support to 
Wounded Warriors and their Families.
    The Army and the VA have integrated several procedures to ensure 
Soldiers and their Families have a successful transition. Since FY2008, 
both organizations use Senior Advisors to ensure coordination and open 
communication between departments. There are 27 VA liaisons (Social 
Workers) currently assigned to 15 military treatment facilities to 
coordinate the transition of Warriors in Transition (WTs) to VA medical 
facilities and VA polytrauma centers. VA liaisons register and enroll 
service members into the VA healthcare system, coordinate care with VA 
program managers, coordinate with the Veterans Benefits Administration 
(VBA) staff to provide Soldiers with benefit information, integrate 
with Army staff at MTFs, and educate veterans, service members and 
Families about VA benefits.
    To ensure severely wounded Soldiers have a plan covering all 
clinical and non-clinical issues, the VA has assigned 20 Federal 
Recovery Coordinators to major MTFs. The VA has also assigned VBA 
advisors (currently there are 58 VBA Military Service Coordinators 
assigned to WTUs and their supporting Soldier Family Assistance 
Centers) to educate wounded Soldiers and their Families about VA 
benefits and claims processing at all WTUs. VBA and Veterans Health 
Administration (VHA) personnel support the nine Community-Based WTUs in 
the same manner. There currently are 37 Vocational Rehabilitation and 
Employment (VR`E) counselors assigned to WTUs who provide employment, 
career and educational counseling to Soldiers separating from Active 
Duty. VBA and VHA personnel are learning about the Army's Comprehensive 
Transition Plan (CTP) and how the plan supports WTs. Both VR`E 
counselors and VA liaisons will use the CTP to better understand 
Soldiers and their Families.
    The VA is assigning clinical and non-clinical personnel to support 
the ongoing Disability Evaluation System pilot at many major MTFs. At 
most Army installations, the VA has established ``Benefits Delivery at 
Discharge'' (BDD) sites to support the VA claims process, ensuring all 
Soldiers submit any necessary claims before discharge. By doing this, 
Soldiers can track the processing of their VA claim, and the VBA can 
start processing the claim before separation. In addition to the BDD 
sites, VA healthcare enrollment is supported at the 12 Army 
demobilization sites ensuring all Army Reserve and Army National Guard 
Soldiers are enrolled in VA healthcare and understand VA benefit 
programs. Lastly, the VA is part of a team that supports the Army 
Career and Alumni Program (ACAP), providing a detailed benefits 
briefing under the Transition Assistance Program. ACAP has been a 
successful program since 1991, and continues to be one of the main ways 
to provide VA benefits to all Soldiers separating from the Army.
    Admiral Robinson's Answer. The Departments of Defense (DoD) and 
Veterans Affairs (VA) work in a close and unified effort in support of 
Wounded Warriors. Transition support within the Navy consists of 
medical care case managers and non-medical care managers working 
collaboratively and with Recovery Care Coordinators (RCC) and VA 
Federal Recovery Coordinators and Case Managers. This close cooperation 
ensures a smooth and seamless handoff of each patient's recovery needs 
as a member transitions between DoD care locations, or from DoD to the 
VA and/or into the civilian sector.
    In support of this process, Navy Medicine has increased medical 
care case managers to over 190 individuals and tracks acuity to ensure 
that adequate staffing is available to meet the case management needs 
of our Wounded Warrior and beneficiary population. All Navy Medicine 
medical care case managers receive training on Post Traumatic Stress 
Disorder (PTSD), Traumatic Brain Injury (TBI) and other combat-related 
conditions/injuries. Navy Military Treatment Facilities and VA Poly 
Trauma Facilities hold multidisciplinary clinical case video 
teleconferences to discuss patient transition and care needs and to 
provide follow up information on previously transferred patients.
    Navy Safe Harbor has increased to 19 the number of non-medical care 
manager positions across a nation-wide network to facilitate close 
coordination during transition. Safe Harbor has also implemented the 
Anchor Program, assigning a Navy Reserve volunteer ``near peer'' mentor 
and senior mentor from community-based organizations such as the Navy 
League, Fleet Reserve Association, American Legion, Retired Affairs 
organizations and others, to support individual Sailors and their 
family members as they relocate to communities across the country. Safe 
Harbor non-medical care managers receive training on psychological 
health and traumatic brain injury as part of annual programmed training 
plans.
     General Green's Answer. The Air Force Medical Service is committed 
to ensuring that our wounded, ill, and injured Airmen are provided 
effective and efficient transition from the military to the Department 
of Veterans Affairs (VA). There are multiple initiatives aimed at 
streamlining and standardizing a service member's transition from DoD 
to VA. The Air Force created the Warrior and Survivor Care office (AF/
1) to oversee the Air Force Survivor Assistance Program, the Air Force 
Recovery Coordination Program, and the Air Force Wounded Warrior 
program, to ensure continual contact with the wounded, ill or injured 
Airman and his or her family throughout the entire recovery, 
rehabilitation, and reintegration process. These efforts have resulted 
in significant improvements in the transition process from DoD to VA.
    The following are examples of DoD/VA programs and working groups to 
further enhance transitions and simplify processes for our warriors:
    The DES Pilot
    The Benefits Delivery and Discharge
    The Quick Start
    The Benefits Executive Council
    The Pre-Discharge Working
    The Disability Evaluation System Working
    The DoD/VA Benefits Communication Working
    The Medical Records Working
    The Information Sharing/Information Technology Working
    The AF Survivor Assistance Program (AFSAP)
    The Recovery Coordination Program
    The Air Force Wounded Warrior Program

    [Clerk's note.--End of questions submitted by Mr. Young. 
Questions submitted by Mr. Moran and the answers thereto 
follow:]

    Question. Over the past several years there has been an increasing 
burden on the civilian health care community to provide services to 
active duty members, their dependents and retirees that had previously 
been provided by military treatment facilities. For example, Ft Eustis, 
in my state of Virginia, recently closed its post hospital and now 
buses soldiers daily to the nearby Mary Immaculate Hospital Emergency 
Room to receive care. Because Tricare reimbursement rates to civilian 
hospitals are often below the actual cost of care, these hospitals are 
incurring financial losses. Four areas in particular suffer the most 
due to a high concentration of military servicemembers: Hampton Roads, 
Virginia, Killeen, Texas, Colorado Springs, CO and the area surrounding 
Fr. Carson.
    Is the Department exploring alternative reimbursement solutions to 
hospitals that serve a high-volume of TRICARE enrollees?
    Answer. The Department is not exploring alternative reimbursement 
solutions to hospitals that serve a high-volume of TRICARE enrollees 
beyond what is already available through regulations and policy. After 
reviewing regulations and policies governing the TRICARE Outpatient 
Prospective Payment System (OPPS), we have found that the General 
Temporary Military Contingency Payment Adjustments (TMCPA) adequately 
reimburse hospitals that serve a high volume of TRICARE beneficiaries.

    [Clerk's note.--End of questions submitted by Mr. Moran. 
Questions submitted by Mr. Dicks and the answers thereto 
follow:]

    Question. Dr. Rice, you testified before HASC that DOD is facing a 
significant nurse shortage. 2010 NDAA included language (Section 525) 
authorizing OSD to take the lead on the establishment of an 
undergraduate nurse training program, and directed the Secretary to 
report to Congress within 180 days of passage on the plan for 
implementation of the program. Dr. Rice, can you talk about how you 
envision that program coming to fruition, and the status of the report 
to Congress? Do you intend to take an active role in the development of 
the undergraduate nursing program considering it is an OSD directive or 
defer it to the Services? If so, why do believe that is the appropriate 
course of action considering the clear congressional intent provided in 
Section 525?
    Answer. The way I envision this program is OSD and the Services 
collaborating to meet our need for nurses while ensuring that we are 
mindful of how we are using our resources. We should also ensure that 
establishment of this program does not adversely affect existing 
Service nursing accession programs (such as ROTC and enlisted to nurse 
educational programs) and that the Services address this new accession 
source in the context of their personnel management systems. The final 
report to Congress, with formal Service coordination, will be submitted 
by July 2010.
    Yes, I intend to take an active role in developing an undergraduate 
nursing program. For that reason, we have developed plans to establish 
a Tri-Service Academic Nursing Partnership program, which will meet the 
intent of the National Defense Authorization Act for Fiscal Year 2010, 
Section 525, to expand training programs aimed at increasing the number 
of nurses serving in the Armed Forces. We plan to establish 
partnerships with accredited schools of nursing near our largest 
military installations. The Department's Office of the Assistant 
Secretary of Defense for Health Affairs will have program oversight for 
the development of consolidated budget and reporting requirements. 
However, the operational aspects required to implement and maintain 
this program will be at the Service level.
    We believe this is the most appropriate course of action because it 
will best support existing unique Service nursing accession programs 
and integration with existing personnel management programs.

    [Clerk's note.--End of questions submitted by Mr. Dicks.]

                                            Wednesday, May 5, 2010.

                        MISSILE DEFENSE AGENCY 

                                WITNESS

LIEUTENANT GENERAL PATRICK J. O'REILLY, USA DIRECTOR, DEFENSE MISSILE 
    AGENCY

                  Opening Statement of Chairman Dicks

    Chairman Dicks. The committee will come to order, Mr. Young 
has a motion.
    Mr. Young. Mr. Chairman, I move that those portions of the 
hearing today, which involve classified material, be held in 
executive session because of the classification of the material 
to be discussed.
    Chairman Dicks. All those in favor of the motion say aye.
    Opposed, no.
    The ayes have it and the hearing is closed.
    The committee will come to order. Today the Defense 
Appropriations Subcommittee will receive testimony from 
Lieutenant General Patrick J. O'Reilly, Director of the Missile 
Defense Agency. Fiscal year 2010 was a year of significant 
transition and high operational tempo for the Ballistic Missile 
Defense program, and MDA participated in several warfighter 
activities in support of real-world events, tested new 
capabilities, and delivered hardware and software to the 
warfighter in defense of the Nation.
    MDA also restructured the test program and subsequently 
developed an Integrated Master Test Plan. The Agency supported 
the administration's development of the Phased Adaptive 
Approach, formerly European capability, that can be used for 
defense of deployed U.S. forces, friends, new allies and allies 
in Europe.
    The fiscal year 2011 President's budget request reflects 
significant new policies and initiatives in homeland and 
regional defense, enhanced testing, and technology development 
to adapt and respond to future threats.
    Restructuring of the Missile Defense Agency's test program 
and plan was a significant accomplishment in fiscal year 2010. 
MDA worked with the services, operational test agencies, and 
the warfighter, represented by the Joint Forces Component 
Command for Integrated Missile Defense, with the support of the 
Director of Operational Test and Evaluation.
    MDA transitioned to test objectives to verify, validate, 
and accredit BMDS models in simulations and collected data to 
determine operational effectiveness, suitability and 
survivability of programs. The Integrated Master Test Plan, 
which extended through fiscal year 2015, focuses on proving 
system capabilities through the collection of identified flight 
test data to ensure adequate test investments and a solid 
foundation to anchor BMDS models and simulations.
    We look forward to your testimony and a very spirited and 
informative question and answer.
    Now, before I go to Mr. Young, I just want to say that I 
had a chance to meet with General O'Reilly and a program that 
our committee has been strongly supportive of, the airborne 
laser, has had some very successful tests, and I think is 
really--we really moved forward dramatically, and we are going 
to have a demonstration after the General makes his statement 
of this so that the committee members and staff can see it.
    But first I want to turn to Mr. Young, the ranking member, 
and our former chairman. Mr. Young.

                     Opening Statement of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much. And I want to 
add my welcome to yours, to our distinguished guest, General 
O'Reilly.
    Protecting our Nation, including our troops abroad and our 
interests abroad, is an extremely important job, especially as 
rogue nations and other less-than-friendly nations develop more 
and more ability to attack with their missiles. We spent a lot 
of money on the Missile Defense Program over the years; most of 
the money well spent, I hope, but that can only be determined 
by testing.
    Sometimes the committee has taken a few raps because we 
have supported programs that maybe weren't quite as effective 
as they should have been, but we are prepared to do that. We 
just cannot overemphasize the importance of our missile defense 
to our Nation.
    General, your fiscal year 2011 budget builds upon your last 
year's transition and I commend you for some significant 
accomplishes. I do remain concerned, however, about our test 
and targets program. Continued test schedule delays or test 
failures due to target malfunctions only make your job and our 
job a little more difficult.
    But as Chairman Dicks stated, you and I had an opportunity 
to meet at length earlier yesterday, and I found that meeting 
extremely interesting, and look forward to your testimony 
today. Again, welcome.
    Chairman Dicks. General, why don't we go ahead with your 
statement and then we will take a look at the airborne laser 
tape.

                 Summary Statement of General O'Reilly

    General O'Reilly. Good morning, Chairman Dicks, Congressman 
Young and other distinguished members of the committee. It is 
an honor to testify before you today on the Missile Defense 
Agency's activities to continue developing and fielding an 
integrated, layered, Ballistic Missile Defense System to defend 
the United States, its deployed forces, allies and friends.
    Under the oversight and direction of the Department of 
Defense's Missile Defense Executive Board, the Missile Defense 
Agency proposes an $8.4 billion fiscal year 2011 program that 
is balanced to achieve the six policy goals of the Ballistic 
Missile Defense Review report and the combatant commanders' and 
the services' missile defense needs as stated in the latest 
U.S. Strategic Command's prioritized capabilities list.
    First, defense of the homeland against limited missile 
attack. The Ground-based Midcourse Defense system, or GMD, will 
continue to be our primary defense against raids of 
Intercontinental Ballistic Missiles, or ICBMs, from regional 
threats for the next decade and beyond. The missile fields in 
Alaska and California are in an optimum location to intercept 
missiles from either Northeast Asia or the Middle East. We 
continue to upgrade GMD to increase its reliability, 
survivability and ability to leverage a new generation of 
missile defense sensors. We also continue more expansive 
testing of GMD to accredit our simulations.
    The purchase of five additional Ground-based Interceptors, 
or GBIs, and the production of components to support extensive 
reliability testing and missile refurbishment, will sustain our 
GBI production capability until 2016, and our critical 
component manufacturing beyond 2020.------
    Additionally, the previous European Missile Defense program 
did not cover most of Southeastern Europe, which is exposed to 
today's ballistic missile threats. It would not have been 
available till 2017 and was not adaptable to changes in future 
missile threats to Europe.
    Therefore, instead of the previous program, we plan to 
deploy a larger number of SM-3 interceptors in Europe over the 
next decade, in four phases, as the missile threats from the 
Middle East evolve. The first two phases, in 2011 and 2015 
respectively, provide protection against short- and medium-
range ballistic missiles. The third phase in 2018 provides 
protection against intermediate-range ballistic missiles. And 
the fourth phase in 2020 provides capability to intercept ICMBs 
from the region in which they are launched.
    Third, prove the Ballistic Missile Defense System works. We 
have submitted a comprehensive Integrated Master Test Plan, 
signed by the Director of Operational Test and Evaluation, to 
service the operational test agencies and the Commander, U.S. 
Strategic Command, to ensure we comprehensively test our 
missiles before we buy them.
    The two greatest challenges we face in developing missile 
defense is acquiring cost-effective, reliable targets and 
improving quality control in all products. Over the past year, 
we have initiated a new target acquisition strategy to increase 
competition, improve quality control, reduce costs and provide 
backup targets starting in 2012.
    However, the precise performance of Missile Defense Systems 
requires stringent manufacturing standards. Until we complete 
planned competitions, including the greater use of firm fixed-
price contracts and defect clauses, we have to motivate some 
senior industry management through intensive inspections, low 
award fees, issuing cure notices, stopping the funding of new-
contract scope and documenting inadequate quality control to 
influence future contract awards.
    Fourth, hedging against the threat uncertainty. Due to the 
uncertainty in the intelligence estimates of a potential North 
Korean or Iranian ICBM threat over the next decade, we are 
augmenting our current capability today to destroy 8 to 15 
simultaneously launched ICMBs using our 30 GBIs in Alaska and 
California, with 8 additional silos. We are also completing the 
development of a two-stage GBI which adds several minutes to 
our battle space.
    Additionally, in accordance with the warfighters' 
priorities, we are focusing our future technologies to develop 
more accurate and faster tracking sensors on forward-deployed 
platforms to enable early intercepts, to enhance command and 
control networks, to rapidly fuse sensor data, to handle large-
scale missile attacks, to develop a more agile SM-3 interceptor 
to destroy long-range missiles, to enhance the discrimination 
of reentry vehicles from other objects, and to develop a high-
energy laser technology to destroy missiles while they are 
boosting at great ranges.
    Fifth, develop new fiscally sustainable capabilities over 
the long term. The Missile Defense Agency is complying with the 
Weapons Systems Acquisition Reform Act by establishing and 
managing six baselines--costs, schedule, technical, tests, 
contract and operational baselines--increasing service in COCOM 
participation and increasing emphasis on competition in all 
phases of a program's acquisition life cycle. We are reviewing 
over $37 billion in contracts for competition over the next 2 
years.
    Six, expand international missile defense cooperation. We 
are currently engaged in missile defense projects, studies and 
analysis in many countries, including Japan, Poland, the Czech 
Republic, Israel, Australia, the United Kingdom, Germany, South 
Korea, United Arab Emirates, Bahrain, Saudi Arabia, Kuwait and 
NATO. Additionally, Poland and Romania have agreed to host our 
Aegis ashore sites, and we are cooperatively developing the SM-
3 2A interceptor with Japan. We also continue to support expert 
dialogue on cooperative efforts with the Russian Federation.
    Relative to the recently expired START treaty, the new 
START treaty actually reduces constraints on the development of 
missile defenses. For example, our targets are no longer 
subject to START constraints, which previously limited our use 
of air-to-surface and waterborne launches of targets. The new 
START treaty also does not constrain our plans to employ 
ballistic missile defenses. The treaty prohibits the conversion 
of ICBM silos to new missile defense silos.
    However, if more silos are needed in the future, they would 
be less expensive and more reliable if we built new silos--
which are not prohibited from the treaty--than converting 
existing ICBM silos.
    In conclusion, MDA has teamed with the combatant 
commanders, services, other DOD agencies, academia, industry 
and other international partners to address the challenges of 
managing, developing, testing and fielding capabilities to 
deter the use of ballistic missiles and effectively destroy 
them, once launched.
    Thank you, Mr. Chairman, I look forward to answering the 
committee's questions.
    [The statement of General O'Reilly follows:]

    [GRAPHIC] [TIFF OMITTED] T6611A.073
    
    [GRAPHIC] [TIFF OMITTED] T6611A.074
    
    [GRAPHIC] [TIFF OMITTED] T6611A.075
    
    [GRAPHIC] [TIFF OMITTED] T6611A.076
    
    [GRAPHIC] [TIFF OMITTED] T6611A.077
    
    [GRAPHIC] [TIFF OMITTED] T6611A.078
    
    [GRAPHIC] [TIFF OMITTED] T6611A.079
    
    [GRAPHIC] [TIFF OMITTED] T6611A.080
    
    [GRAPHIC] [TIFF OMITTED] T6611A.081
    
    [GRAPHIC] [TIFF OMITTED] T6611A.082
    
    [GRAPHIC] [TIFF OMITTED] T6611A.083
    
    [GRAPHIC] [TIFF OMITTED] T6611A.084
    
    [GRAPHIC] [TIFF OMITTED] T6611A.085
    
    [GRAPHIC] [TIFF OMITTED] T6611A.086
    
    [GRAPHIC] [TIFF OMITTED] T6611A.087
    
    [GRAPHIC] [TIFF OMITTED] T6611A.088
    
    [GRAPHIC] [TIFF OMITTED] T6611A.089
    
    [GRAPHIC] [TIFF OMITTED] T6611A.090
    
    [GRAPHIC] [TIFF OMITTED] T6611A.091
    
                           AL&B TESTING VIDEO

    General O'Reilly. I have brought a 2-minute classified 
video, which I am prepared to show.
    Chairman Dicks. I just want to commend you, General 
O'Reilly, for your approach on this competition issue and your 
approach to dealing with these contractors. You and I had a 
discussion a year or so ago, where I complained, and I have 
been complaining, about the performance of many of our major 
companies. It is unfortunate, but the people, there is just a 
lack of performance.
    And I think what you have done here should be a model for 
the rest of the Department of Defense of aggressively going 
after those people who are not performing and, in essence, 
taking away their contracts and putting them out to bid and 
letting other people bid who will perform. And, somehow, you 
know, with the amount of programs in trouble and overruns at 
the Pentagon, I hope this works. And we are going to be 
watching very closely to see if this does work, because we have 
got to get this under control somehow.
    I am glad that you have taken this on so aggressively, and 
we look forward to seeing how it turns out.
    So why don't we--and I know Mr. Tiahrt will--we are going 
to have a little 2-minute video on the airborne laser here.
    Mr. Tiahrt. Excellent.
    General O'Reilly. Sir, if it is okay with the committee: I 
am going to project it on the wall. I would recommend some of 
you may want to stand in a position where you can see it. It 
will be very quick. ------
    Chairman Dicks. Now, weren't there a lot of critics who 
just said this is impossible to do?
    General O'Reilly. Absolutely, sir. My background is in 
laser physics, and there was a lot of discussion, including 
previous directors of the Agency, that said this was 
impossible. The main difficulty I will show you is we actually 
fired through the atmosphere into space to destroy this 
missile. This is a scientific breakthrough in the area of 
anchoring our models and simulations, which is what some of the 
physicists were saying why it was impossible. ------
    Chairman Dicks. One other thing, just one point. You will 
see the missile launch. And then when it breaks apart, it keeps 
alight, but it is only on the pieces of the thing as the debris 
goes away. So I would just point that out so you will 
understand it better. ------
    It was quite impressive. Let us go ahead and show the start 
of the video. ------
    So at this point we adjusted the optics and we deformed the 
laser, the main laser, so that when it leaves the aircraft it 
is unfocused. Since we now know basically the prescription of 
the atmosphere, kind of like my glasses. We used the Earth's 
atmosphere to focus the laser. When it arrives on the target it 
is perfectly focused. ------
    Unfortunately, with the movies that have been out for the 
last 20 years, this doesn't impress. I show this to high school 
classes and others in an unclassified form. People are not 
reacting to it because they are saying, of course, you have got 
a laser beam. This has never happened before. This is the first 
one in history.
    Chairman Dicks. It is easier to do it in Hollywood, right?
    General O'Reilly. Yes, sir. It does look like what you just 
saw in the movies. But what you just saw was real. ------
    It is hard to see, but that is the destruction of the 
missile. Now the laser is irradiating the pieces. So that is 
what it actually looks like for the pilots. They actually see a 
gigantic beam leaving the front of the aircraft.
    Can you just show it one time in real-time without 
stopping? And what we are doing today, while this tees up 
again. Here is the launch. You are watching the entire flight 
test here. And that is the destruction of the missile. ------
    We did this morning find a blemish on one of the mirrors. 
We are trying to clean it today. We have to change it out. It 
might take 2 more weeks before we do the next test.
    Thank you, sir.

                            ALTB DEVELOPMENT

    Chairman Dicks. Well, I want to compliment you on this, 
because this subcommittee was one of the steadfast supporters 
of this program over many years, especially when, a few years 
ago, there was a funding issue whether this should go forward 
or not.
    And I must say that there were some in this body who are no 
longer serving here, but are serving at the State Department, 
who had great doubts about this. And I think the point you make 
about the fact that the refocusing of this laser was the 
critical issue: Could you go through the atmosphere and this 
thing, the beam, would come and hit where it is supposed to?
    But I just want to compliment you because a lot of us 
thought this could be done, and I like your new approach to the 
program.
    And I think it is also important to know that out at 
Lawrence Livermore, which has been one of the great places for 
the development of laser capability, there is now a--why don't 
you tell them about this new laser that they are developing and 
how it relates to the aircraft and the fact that you can have 
two lasers on this plane?
    General O'Reilly. Sir, the Office of Secretary of Defense 
is executing a study right now on all high-energy laser 
programs. Last year there was over $325 million in laser 
programs across the Agency. They are reviewing them all in 
order to see if we can consolidate and get a better return on 
investment.
    But as part of that program, and under that review, they 
have identified the airborne laser to become the airborne laser 
test bed for most of these lasers. The aircraft actually has 
the mounting for two lasers. It had from the beginning. So you 
can actually put two different lasers on this aircraft. ------
    Chairman Dicks. As I understand it, DDR&E is creating a 
report for Deputy Secretary Lynn on defense high-energy laser 
research to be completed in June. General O'Reilly, can you 
tell you about this report?
    General O'Reilly. Yes, sir. It is the one I referred to 
before. Last year, in all services and the Department of 
Defense, we spent $325 million on various laser programs. They 
are reviewing all of those programs. By June they can make a 
recommendation on how the Department should move forward on 
high-energy laser research.
    I will tell you that in all the other applications, it is 
about 150 kilowatts. This is the only megawatt laser system or 
megawatt capability requirement that we have in the Department. 
And, sir, as you said, that will be done by the end of next 
month.
    Chairman Dicks. The committee would like a copy of the 
report when it is completed, General, if you could help arrange 
that.
    General O'Reilly. Yes, sir. I will pass that to the Office 
of the Secretary of Defense.
    Chairman Dicks. Thank you. Mr. Young.
    Mr. Young. Well, Mr. Chairman, thank you very much. That 
was a very interesting video, General.
    Can you give us--look into the future and tell us when this 
system might be available to be used?
    General O'Reilly. ------
    Chairman Dicks. And when might we anticipate that they 
would be actually an IOC, where we could actually put them into 
the war?
    General O'Reilly. Well, sir, the engineers themselves on 
this program have indicated they have learned so much--because 
this was a breakthrough technology--that if they were going to 
build a second aircraft, they would use what they have learned 
and design a different design. That is what the Secretary of 
Defense acknowledged last year when he said we will build one 
aircraft and we will test the aircraft and operate from them. 
------
    Mr. Young. General, as you look at the world and you see so 
many rogue nations developing missiles of one type or another, 
how many airborne laser systems do you think that the United 
States will need to give us the type of protection that this 
demonstration shows that we could have?
    General O'Reilly. Sir, our budget is proposing the 
development of several different classes of missile defense 
systems. I think the combatant commanders, who I work with 
every day, are looking at a spectrum of capabilities. Airborne 
laser does serve us very well in certain capabilities where you 
can deploy for a limited period of time, like we surge aircraft 
today, because they would have to be on station. It is 
expensive to do that, operationally difficult to do it, but it 
can be done.------
    Mr. Young. General, one of the realistic points during the 
negotiations for the new START agreement had to do with missile 
defense. Does that new START treaty affect the airborne laser?
    General O'Reilly. No, sir. I have been to Moscow seven 
times in the last 2\1/2\ years. One of the proposals we have 
had for cooperation on missile defense, besides sharing early-
warning data and so forth, is development in laser technology 
with the Russians.
    They have world-class experts at the University of Moscow. 
There are some of the best theoretical physicists and optics 
and such, and they can contribute a lot. Previously the 
Russians have not responded. ------
    Mr. Young. So if they become unhappy with and withdraw from 
the treaty, which we have seen some suggestions that they might 
do that, you don't think this would be one of the reasons that 
they might make that decision?
    General O'Reilly. No, sir. They are pursuing this 
technology, as we are, and as the Chinese are also.
    Mr. Young. Well, as Chairman Dicks has said, this committee 
has been involved with and supporting airborne laser for many 
years, and it is pretty exciting to see the success that you 
have showed us here today. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Dicks. Thank you. Mr. Moran.

                    GROUND-BASED INTERCEPTOR TESTING

    Mr. Moran. Thank you, Mr. Chairman.
    I think we are all impressed by your laser capability that 
you showed in that video. But the General Accountability Office 
is less impressed with your Ground-Based Missile System and, in 
fact, according to the GAO--and I will quote--``The Missile 
Defense Agency continues to put the Ground-Based Interceptor 
program at risk with cost growth and scheduled delays by buying 
and placing enhanced interceptors before this configuration has 
been demonstrated in a realistic environment.
    In January of this year, you attempted to intercept a 
target missile using the Ground-Based Interceptor with the--I 
will only use this full term once and then I will use the 
acronym--the capability enhancement 2 XO atmospheric kill 
vehicle. So we will just call it the CE-2. But it failed to 
intercept the target because of a failure of the X-Band Radar 
to track the target, as well as a failure of the CE-2 EKV.
    But about 40 percent of the EKVs have been delivered to 
date, notwithstanding the fact that in the first real-world 
test, the CE-2 EKV failed to intercept the target missile.
    What are the cost estimates for redesigning the EKV and 
when will a new functioning EKV be produced and fielded?
    General O'Reilly. Sir, as I testified last year and as I 
mentioned before, we have restructured our test program to more 
comprehensively test the GMD program.
    In the past, we have launched our targets out of Kodiak, 
Alaska, launched our targets. And our interceptors have come 
out of California. That is a 3,500-kilometer threat.
    What we have gone to now is testing against ICBM ranges. 
Our test in January was the first test to more thoroughly test 
the system out. It traveled--the test was over 8,500 
kilometers. We launched the target out of Kwajalein, and we 
launched the interceptor out of Vandenberg. That is the 
equivalent of a type of defense if you had to launch out of 
Alaska and defend Miami. ------

                         AEGIS SM-3 PRODUCTION

    Mr. Moran. Well, the problem that the GAO has, as you know, 
is that you were 40 percent--you had gone 40 percent of the way 
into production, whereas the only test showed that it was not 
operable as yet.
    And with regard to the Aegis Ballistic Defense Missile 
System, the GAO said that it believes that four of the five 
critical technologies are immature and that there are no plans 
to intercept a target using a fully integrated prototype SM-3 
Block 1B missile until the second quarter of fiscal year 2011. 
Yet production begins this year. It is not that we are not 
excited and we don't want to be supportive, but our job is to 
ask questions, particularly when GAO raises them.
    Given the fact that the SM-3 Block 1B production is set to 
begin before testing a fully integrated prototype in a relevant 
environment, what are the Department's plans to employ design 
changes to that SM-3 Block 1B should problems be discovered 
down the line? That is our concern. You have moved ahead with 
production, and yet the testing raises issues that seem 
legitimate, certainly in the mind of the GAO.
    General O'Reilly. Sir, I do not agree with the 
characterization that the GAO made regarding the 1B because 
those missiles we have in production right now are the test 
missiles.
    We do not have a full production decision made. We are not 
going to make that decision until the flight tests.
    What the GAO was referring to was production of the 
missiles to go test them, and then we will go to a full 
production decision. We are following the prudent traditional 
path of thoroughly testing these systems before we put them 
into production. The GBIs in the past were not procured that 
way, as you said, sir. We have procured CE-2s. We are, as 
rapidly as we can, doing the types of tests I just referred to, 
but our policy from this point on is to test first and then go 
into production.
    So, again, what we are buying right now are the test 
missiles to go to production. They are not production missiles.
    Mr. Moran. Okay, that is a good answer. And I won't want to 
take up any more time. If we get into a second round, though--
and I will just prepare you--I do want to better understand why 
we have to pay for Europe's missile defense. But at this point 
I will yield to the next questioner.
    Thanks, Mr. Chairman.
    Chairman Dicks. Mr. Lewis.

                        NATO AND MISSILE DEFENSE

    Mr. Lewis. Thank you, Mr. Chairman.
    General O'Reilly, thank you very much for being here. I am 
very much concerned about the point that Jim was just about to 
make, but perhaps we fall on a different side of this question. 
It is very clear that our European friends for some time now 
have been wallowing in their own resources because they spent a 
lot less money in defense. America, on the other hand, has been 
the strength providing defense for much of the world, certainly 
beyond the developing world.
    It is very important that we be willing to make sure we 
carefully measure where we are going in connection with those 
expenditures. If America doesn't continue to commit itself to 
our national security and much of the world's security, who 
will, is the question.
    If we decide to make, Mr. Chairman, a move in the other 
direction and continue to fund social programs here instead of 
defense, and Europe is not spending money on defense, who will? 
It is a pretty fundamental question in terms of our future.
    I am very concerned, General, about Iran and the testing 
that they are about and the implications of their future 
missile capability relative to the European theater and how 
that impacts our responsibilities in the world.
    Would you enlighten us more about your thinking relative to 
Iran, especially as a major target?
    General O'Reilly. Yes, sir. Do you also want me to address 
the question on the contribution of the allies?
    Mr. Lewis. Yes. We would like to hear it. Sure, if you want 
to.
    General O'Reilly. Sir, the most effective defense is not by 
looking at a map and see if it is covered or not. It is 
actually a side view. To have effective missile defense you 
need at least two shots at a target. You would like them to be 
from two different systems, so that if you have countermeasures 
in something and you can spoof one, you can't spoof the other.
    If each missile system has, per se, a 60 percent 
probability of destroying the target that it is launched at, 
you put those two together and you now have an 88 percent 
probability of killing it as it comes in. You add a third layer 
and you get high into the 90s. Therefore, we want layered 
missile defenses.
    Our proposal for Europe is the upper tier where we have the 
capability, and the proposal is they would provide the lower 
tier. The lower-tier systems, you need more of them than you do 
upper-tier, so their net investment actually would be greater 
than ours if they were going to cover Europe themselves.
    Their current NATO policy is to protect their forward-
deployed forces.
    They have just finished a NATO Ministerial where they are 
proposing to defend the soil of Europe itself with their NATO 
Missile Defense Systems. This proposal will go to a decision by 
NATO heads of state in Lisbon in November.
    My understanding--and I work with this every day--is we 
will provide the upper-tier defense. They are going to have to 
provide the lower-tier defense. Why do we do it in a classified 
session?------
    Mr. Lewis. General, as you responded to Congressman Young's 
question about timing, when will this be available? I wasn't--
maybe I missed it. I didn't quite get your response in terms of 
the actual time frame. You are in the process of development. 
You suggested, I think, that we would have this capability 
operable sometime near the end of the decade?
    General O'Reilly.------
    Mr. Lewis. General O'Reilly, the person who said this will 
go unnamed, but one of my colleagues has said he never saw a 
four-star general with so little support behind him. 
Congratulations. I am talking about numbers of people in the 
audience.
    General O'Reilly. Well, yes, sir, I am a three-star; thank 
you, sir.
    Chairman Dicks. He doesn't need as much. Mr. Rothmans.

                        COOPERATION WITH COCOMS

    Mr. Rothmans. Thank you, Mr. Chairman.
    Secretary, thank you for all your outstanding work 
throughout your career and in this matter in particular, and 
these matters in particular. Secretary Gates, it was revealed 
in the general press, had sent a memo back in January or 
February, I think, or maybe it was December, encouraging 
greater planning and coordination or upgrading of the planning 
and coordination for a military contingency option against Iran 
should diplomacy and sanctions fail. And that got a lot of 
attention recently in the press.
    I actually had asked him that in this subcommittee's 
hearing in April of 2009, in open session, and he and Admiral 
Mullen at the time said that they were confident they have the 
capabilities and were constantly working that offensive 
military option.
    But I would imagine that part of an offensive military 
operation would be a defensive capability, a simultaneous 
defensive operation to protect the homeland or our forces in 
the region or our allies in the region.
    Are you working, coordinated with the offensive military 
missile folks, in those kinds of contingency plans, Avis Iran?
    General O'Reilly. Yes, sir, we are. Both EUCOM, the U.S. 
Forces in Europe, under the command of Admiral Stauridis, and 
CENTCOM under General Petraeus are both--we are working with 
both of them to develop and modify and update their war plans 
against the protection of our assets from a strike from Iran 
and the offensive site. For example, our missile defense 
systems can, within seconds of identifying a missile being 
launched, determine where it came from.
    So we are providing that data, we are integrating it into 
our offensive command and control system. So they immediately 
know that while the missile is still in flight, we have already 
launched strike attacks against the point where it came from.
    Mr. Rothman. And, of course, we want to make sure that 
there is not a conflict between our offensive and defensive 
systems. So have you done exercises so that your defense of 
launches are not misinterpreted by our offensive folks? I know 
in Operation Juniper Cobra--from what I have been told and 
read--that you had in Israel in 2009, where you coordinated 
that kind of information-sharing between the Israelis and the 
American forces so that they weren't shooting at each other's 
rockets, et cetera. Do we have that--have we done that with our 
own forces?
    General O'Reilly. Yes, sir; extensively with simulations 
supported BY MDA with EUCOM and CENTCOM. The same commanders 
that are in charge of the missile defense assets that we have 
employed in other commands are the same commanders that have 
the offensive capabilities. So at the top and their staffs, 
they are responsible for developing both plans so it is 
integrated.

                        COOPERATION WITH ISRAEL

    Mr. Rothman. Right. And then regarding Operation Juniper 
Cobra, from what I understand it was at an unprecedented level 
of cooperation and showing of strength and commitment of 
resources and that it went well; but nothing goes perfectly, 
and that there were lessons to be learned and there is a review 
going on. There is some issue as to whether the U.S. is sharing 
the lessons learned and the mistakes with the Israelis and vice 
versa.
    Can you comment on that?
    General O'Reilly. ------
missile coming in, we immediately provide that data to the 
Israelis.
    Mr. Rothman. Two last questions, and I will leave him with 
the questions, if I may, just the questions. You say one of the 
two biggest challenges you face--and this is from your written 
testimony--are reliable targets.
    General O'Reilly. Yes, sir.

                           AEGIS INTERCEPTORS

    Mr. Rothman. And the last question would be, we need more 
of these Aegis ships and missiles. Are you comfortable with the 
budget for more ships and more Aegis missiles and your targets 
that you say are your number one priority?
    General O'Reilly. No, sir. I am not comfortable with the 
number of standard missiles. We need more today. It takes 2 
years to build one, though. And the decision in 2008, the 
proposed budget, was to build a total of 105 standard missiles, 
total. Today we are asking for funding for 431. The problem 
is----
    Chairman Dicks. Is that fiscal year 2011?
    General O'Reilly. It starts in fiscal year 2011; yes, sir.
    Chairman Dicks. Four hundred five?
    General O'Reilly. I think it is 435 SM-3s and 431 THAAD 
missiles across the FYDP. It starts the production line. The 
problem is it takes 2 years to build the first missile.
    So because of the decisions made in 2008, we could use many 
more missiles than we have today. The Joint Staff is 
conducting, with all the combatant commanders in the services, 
a capabilities mix study. The study will determine what the 
ultimate number is, so that our next year's budget can have 
that in there. But we know we need to ramp up, and we are doing 
that under this budget as quickly as we can.
    But, again, we need to test first and then put into 
production these new missiles.

                            STANDARD MISSILE

    Chairman Dicks. On this point, why don't you describe kind 
of in a general overall sense, how we are going to do this 
missile defense and where the standard missile fits into this?
    General O'Reilly. ------
    That standard missile, we made the determination it works 
very well on an Aegis ship. If you just take it off the ship 
and put it on the land, you don't have to do very much 
development. It is mainly the building itself and the 
structure. And if you put it on the land, now we have a land-
based capability equivalent to a Navy capability and, more 
importantly, the sailors are trained. The logistics system, the 
worldwide logistics system, is there. There is a savings of 
billions of dollars to have this same missile system on the 
land as you do at sea.
    But more revolutionary is the Joint Chiefs approved earlier 
this year that the Navy would be the lead service for the land-
based SM-3, which will be the first time that the Navy is 
operating and fully responsible for a land-based weapons 
system. The Army fully agreed with that.
    The problem the Navy had was, with all their sailors at sea 
for Aegis, they did not have the type of shore assignments 
where they could rotate them. The Chief of Naval Operations now 
has land assignments and sea assignments which will help 
retention, it helps training, it helps across the board. So we 
thought that this was a very prudent way to move forward to 
have land- and sea-based capability, same command and control. 
Where the sailors walk into a room on a land-based SM-3, it 
looks identical to the way it does on a ship.
    And when we have remote locations such as Guam, Okinawa, 
Diego Garcia, and other places in the past that have been 
problematic to station a ship near them, we can now permanently 
put one of these land-based SM-3 sites--or, as the Navy calls 
them, Aegis ashore--and you have now that protection. ------
    Mr. Young. When will this global defense system be in place 
or be available to use in the event of an attack?
    General O'Reilly. Sir, the first capability is against 
medium-range ballistic missiles, 3,000 kilometers or less, and 
that will be deployed in 2011.
    Mr. Young. Is that worldwide?
    General O'Reilly. No, sir. Until this budget is requested, 
we are requesting at least 37 ships, and, between THAAD and 
Aegis, about 800 interceptors. By 2015, we should have the 
capability now that we can start deploying around the world 
against MRBMs. We need the Japanese missile that we are working 
with the Japanese by 2018. And by 2020, we will have had many 
independent reviews. We believe we will have the capability to 
develop a missile that can destroy ICBMs from a ship or one of 
these forward bases by 2020.
    Mr. Dicks. Mr. Frelinghuysen.

                      CHINA AND BALLISTIC MISSILES

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Just within the last week, for the first time we have 
revealed a lot about our nuclear stockpile. It will be 
interesting to see whether the Chinese and Russians will be 
willing to go through the same full measure of public 
disclosure.
    My question, sort of general question, is what do we know 
about the Russians' and Chinese offensive ballistic capability? 
Do we know how many missiles they have? I assume we have done 
the intel on that?
    General O'Reilly. ------
    Mr. Frelinghuysen. The view here oftentimes is what the 
Chinese have is crude, and often we say that about the North 
Koreans. But some people sort of have a different take on it. 
It impacts their moving fairly rapidly with the development of 
their missile program, particularly the Chinese. There continue 
to be stories circulating in the media that China is working to 
modify their land-based B-21 ballistic missiles.
    General O'Reilly. Yes, sir.
    Mr. Frelinghuysen. To potentially use against our carrier 
assets. Can you talk about that? I understand the idea is to 
have a satellite or over-the-horizon radar or maybe a UAV guide 
these heavy missiles towards our carrier groups at very high 
speeds. We have a range reportedly of about 2,000 kilometers, 
so that would make our fleet out there or our ships out there 
fairly vulnerable. And more importantly, do we have the ability 
to protect the carrier groups that are out there?
    General O'Reilly. ------
    Mr. Frelinghuysen. This is idiocy.
    General O'Reilly. We have looked at that extensively in the 
past, us and the Navy. It is very cost-prohibitive. It is very 
complex. We are not looking at using submarines to launch GBIs.
    Mr. Dicks. Not offense.
    General O'Reilly. I was referring to defensive missiles.
    Mr. Dicks. I think what you are suggesting in the START 
agreement is that the number of launchers, you use some, but I 
know of no system that you would use off a submarine as a 
defensive system against----
    General O'Reilly. We are not pursuing that.
    Mr. Frelinghuysen. But we are limiting on the offensive 
side.
    Mr. Dicks. Both sides are coming down. I mean, to answer 
the gentleman's points, any of these acts that you are talking 
about would be an act of war, and we have our whole, you know, 
strategic term that would--they are going to have to 
contemplate that they are going to be retaliated against, 
massively and overwhelmingly, if they were to launch such an 
attack.
    Mr. Frelinghuysen. My point is that there is a degree of 
vulnerability.
    Mr. Dicks. One thing that wasn't mentioned, at least for 
the carriers, our ships' defense systems. I mean Phalanx is not 
anything to write home to mother about, but it is a final 
system that can shoot down these missiles.
    General O'Reilly. Yes, sir.
    Mr. Dicks. There are limits to its effectiveness. But there 
are ship defense systems.
    General O'Reilly. ------
    Mr. Dicks. Mr. Visclosky.

                        PHASED ADAPTIVE APPROACH

    Mr. Visclosky. General, I would like to talk about the 
phased adaptive approach, and part of this is just to clarify 
the program in my mind, if I could.
    You have the SM-3 block, and as I understand the relation 
of Block 1, Block 2, those can be launched from land or sea; am 
I correct? I want to make sure I am clear.
    General O'Reilly. That is our proposal, sir. We have tested 
the standard missiles before from the land at White Sands so it 
is not unprecedented. But that is what we plan to develop, the 
land-based launchers, so we can deploy them--so you can launch 
the same missiles at sea as you can on the land.
    Mr. Visclosky. Are they launched today on land or sea?
    General O'Reilly. Today they are launched at sea on 
destroyers and cruisers.
    Mr. Visclosky. And the proposal would be to have them also 
be adaptive--I guess that is the ``adaptive'' word there--on 
land as well.
    General O'Reilly. Yes, sir. The ``adaptive'' word is we can 
move them if we find a threat changes in the future. It takes a 
couple of months to disassemble the whole deployment and move 
it to another location if we see some in the future.
    Mr. Visclosky. And also, obviously, there are multiple at 
sea.
    General O'Reilly. Yes, sir.
    Mr. Visclosky. On the Ground-Based Interceptor, that is 
land exclusively. That is not launching from sea.
    General O'Reilly. That is correct.
    Mr. Visclosky. The SM-3 is for short and intermediate 
intercepts essentially?
    General O'Reilly. Sir, there are several variances of the 
SM-3. The SM-3 IA is for short--which is up to 1,000 
kilometers--and medium range, which is up to 3,000 kilometers.
    So the SM-3 IA and IB will be to engage targets up to 3,000 
kilometers, the range of the target, 3,000 kilometers. And the 
SM-2s would be able to handle targets of 5,000 kilometers, the 
IIA and the IIB ICBMs.
    Mr. Visclosky. So the A and the B in Block II would be 
modified to be long-term interceptors as well; or would it be A 
is short and medium, and A is long term?
    General O'Reilly. The SM-3 I series is the short and medium 
range. The SM-3 IIA would be against IRBMs up to 5,500 
kilometers, and the SM-3 IIB would be ICBMs, 12,000 kilometers.
    Mr. Dicks. Are these the ones that are under development 
with the Japanese?
    General O'Reilly. The IIA is.
    Mr. Dicks. But not the IIB.
    General O'Reilly. Not the IIB, sir. That is a new missile 
start.
    Mr. Visclosky. That is not under development currently. It 
is a proposal?
    General O'Reilly. We are going through the technology today 
of verifying the high-risk parts which we believe we have in 
hand, the high-risk technologies for the next 2 years for the 
IIB, and then we would start a formal program start after that.
    Mr. Visclosky. And the IIA would still be adaptable for 
short and intermediate intercepts?
    General O'Reilly. ------
    Mr. Visclosky. And B would be long?
    General O'Reilly. Yes, sir.
    Mr. Visclosky. There is no further development or changes 
proposed for, then, the Ground-Based Interceptor, which is long 
range?
    General O'Reilly. ------
    Mr. Visclosky. What about the missile itself?
    General O'Reilly. ------
    Mr. Visclosky. General, if I could follow up. You are not 
in those upgrades looking to also make it a sea-launched 
system, though?
    General O'Reilly. No, sir. We have no plans for a sea-
launched GBI.
    Mr. Visclosky. Then the question in my mind, understanding 
that the Block IIB is not yet developmental--you are looking at 
it--why proceed with that if you are upgrading your current 
land-based system?
    General O'Reilly. Sir, it is a quantity. A GBI costs about 
$70 million apiece. The estimate for a IIB would be on the 
order of $15 million.
    Mr. Visclosky. One-five, 15?
    General O'Reilly. One-five, yes, sir.
    And the difference is the GBIs, if we are going to add a 
new silo--if we found out we needed more GBIs, it takes 5 years 
to expand a missile field. The ships at sea, we are building 
these new missiles so they fit in the existing launcher 
systems. So a cruiser has 120 launching cells on it. So we can 
put up to 120 missiles, four times as many as we have in 
Alaska----
    Mr. Visclosky. Short, intermediate, and long?
    General O'Reilly. Yes, sir.
    Mr. Visclosky. On your land-based, that would also hold 
true, $15 million per copy?
    General O'Reilly. Yes, sir. That is the II--what we refer 
to as the IIB and IIA. They are about $15 million, is our 
estimate.
    Mr. Visclosky. If you have a missile that is long-range and 
one copy--of course you haven't built one yet--that is $15 
million and the other $70 million, what is the cost disparity 
when I am comparing apples and apples; that is, land-based IIB 
and the land-based GBI?
    General O'Reilly. ------
    Mr. Visclosky. So the upgrade, then, to the GBI is not 
necessarily to increase their quantity but to make sure, as 
long as you have that investment in them, it is an effective 
investment, then you keep them effective. If you have 
additional quantities, you go with the IIB that you have in 
your proposal.
    General O'Reilly. Yes, sir.
    Mr. Visclosky. I know I don't have a lot of time.
    If the IIB, you have not started development but obviously 
you have a plan for and you have a cost assessment for it, will 
there be a time when you need more of--will you need at some 
point some of the additional GBI in the interim until all of 
this is built?
    General O'Reilly. Sir, there is a threat uncertainty. Our 
current plans, we are going to procure 52 missiles, GBIs, and 
five additional booster stacks. Now, that is what we are 
proposing. With those 52, we are going to be flight-testing 
some of them. By 2020 when we have planned on fielding the 
newer missile, we should have 36 GBIs at that point. If we find 
we need more, we are going to be in production until 2016. So 
we have 5 more years to continue to assess the intel and 
determine if we need more.
    We don't want to get into the situation I am in today. Our 
last time we bought a GBI was 2006. Our production is stopped 
on most of the vendor base, and I have to restart it next year, 
which I am. But we are trying to make--allow decisions to be 
made in the future before we shut down that production line 
again.
    Mr. Visclosky. Which--industrial base would be a concern. 
But I know my time is up, and I thank the general and the 
chairman.
    Mr. Dicks. Mr. Tiahrt.

                             ALT B FUNDING

    Mr. Tiahrt. Thank you, Mr. Chairman, thank you for your 
support for the Missile Defense Program. I think you have been 
a great visionary.
    One of the things I would like to pick up on what Mr. 
Rothman talked about and the cooperation with Israel. They are 
developing great new technology over there. In fact, you can't 
buy a new computer today without the incorporation of some 
ideas that originated in Israel on processing. And I think 
there is a great deal of synergism that we could gain by close 
cooperation. So if there are any problems with that 
cooperation, I have got to join with Mr. Rothman in trying to 
smooth the bumps in the road, because I think it gives us an 
advantage on defense issues as well.
    There is something that happened last year that I want to 
point out to you. The ABL is about 12 years old. Last year, the 
optics needed to be recoded. It took 6 weeks to get a supplier 
up and running. So there was like a 6-week delay. It is an 
indication of how our national defense industry base is 
shrinking and making us more vulnerable.
    While this is occurring within the United States, our own 
Pentagon is looking outside the United States as a supplier. 
You have heard a lot about the tanker program where they are 
trying to buy a French tanker and put an American paint job on 
it and call it American. And even though this is a country that 
I don't think we can fly over today to get our men and material 
to Iraq and Afghanistan, I am very concerned about this 
outsourcing of our national security.
    We are also doing it through a program called Imminent 
Fury, where we are going to Brazil for aircraft which have a 
competitor that is made right here in America. So again, we are 
outsourcing our national defense base, and I think it is very 
ill-advised. And this ABL program is an example.
    When you are in confrontation, you can't afford a 6-week 
delay or 6-day delay. And we have seen this in the Gulf War, 
Japan disappointed us by delay. In Operation Iraqi Freedom, 
Belgium disappointed us with a delay in war materials. So we 
can't make ourselves more vulnerable. And I think the committee 
needs to know that by diluting our defense industrial base, we 
are making ourselves more vulnerable.
    And I don't think any of you are going to run for 
reelection on the platform that we are going to increase the 
employment in France when we have got almost 10-percent 
unemployment in America; or we are going to run on the platform 
of increasing the employment in Brazil when we have got almost 
10-percent unemployment in America. So we need to be very 
concerned about this outsourcing of our national security, 
whether it is Imminent Fury or an air refueling tanker or the 
ABL program. ------
    For us to now cut back the funding on this program concerns 
me greatly, especially in light of all of these advancements 
you have made in technology, in compressing the package 
carrying.
    If the Department was provided with the same level of 
funding as last year, which would be an additional hundred 
million, I believe, how would that money be spent and how would 
we use that to progress the program and the technology?
    General O'Reilly. ------
    Mr. Tiahrt. Please explain to the committee what the 98 or 
99 million will buy in 2011 that we have in program now. Is 
that just the one test you are talking about?
    General O'Reilly. The one test, but the 1-year program. The 
one major test, but we have a lot of smaller tests.
    Mr. Tiahrt. The hundred million would get the smaller 
tests, the advanced?
    General O'Reilly. Yes. And a part of that does pay for the 
newer laser work going on at Lawrence Livermore.
    Mr. Tiahrt. ------
    General O'Reilly. ------
    Mr. Tiahrt. I think I want to emphasize the need for 
increased testing because of the versatility of this weapon. 
And we just are thinking, you know, how many kilometers away 
and all of this. But by increasing the testing, I think the 
capability will dramatically increase. And if you take it to--
you know, using my imagination, I can imagine the capability in 
the back of a Humvee, and it can protect a platoon, at the 
platoon level, from incoming objects like a handheld rocket. So 
it has great potential as we compress it further, and I think 
that can be revealed. ------
    Mr. Dicks. Mr. Hinchey.

                           COUNTERFEIT PARTS

    Mr. Hinchey. Thank you very much, Mr. Chairman.
    I think you made a very good point, as everybody else did 
here, but I want to express my agreement with you of the kinds 
of things that--what you were saying and why I think it needs 
to be done. So if there is anything I can do to work with you 
on that, I would be happy to do that.
    General O'Reilly, thank you very much. Thank you for 
everything you are doing and the opportunity that we have to 
understand this situation much more clearly.
    The safety and security on this planet is diminishing, and 
it is something that really has to be dealt with more 
effectively, including diplomatically. But that is another 
issue here that really has to be addressed.
    The safety and security issue with North Korea and Iran, it 
is just remarkable why they would be engaging in the 
capabilities they are engaged in, when, if they were to do 
anything militarily dramatic in the context of this, it would 
be a disaster for them. No question about it.
    And of course the safety and security issue was 
demonstrated in New York just a couple of days ago, and we know 
that kind of situation that we are likely to continue to see 
over time, and it is something that we have to be very, very 
careful about and very, very intensive about.
    I wanted to ask you a technical question. It has to do with 
a number of things, including a company in a district that I 
represent, Endicott Interconnect Technologies, working with the 
Department of Defense.
    The situation basically is this: Last year, the New York 
Times reported that despite a 6-year effort to build trusted 
computer chips for military systems, the Pentagon now 
manufacturers in secure facilities run by American companies 
only about 2 percent of the more than $3-1/2 billion of 
integrated circuits that are bought annually for use in 
military gear. And the effectiveness of that gear, the 
reliability of it, is something that is obviously very 
important.
    So recently the GAO released a report regarding counterfeit 
parts and the potential of such parts to potentially seriously 
disrupt the Department of Defense supply chain, do other things 
like delay missions and affect the integrity of weapons 
systems.
    The report found that the Department of Defense is limited 
in its ability to determine the extent to which counterfeit 
parts exist in its supply chain because it does not have a 
Department-wide definition of the term ``counterfeit'' and a 
consistent means to identify instances of suspected counterfeit 
parts.
    Apparently, while some Department of Defense entities have 
developed their own definitions of ``counterfeit,'' these can--
they vary on the context of the definitions that are being put 
out there. Two Department of Defense databases that track 
deficient parts--and they are those that do not conform to 
standards--are not designed to track counterfeit parts. A third 
database can track suspected counterfeit parts; but according 
to officials, reporting is low and that reporting is low due to 
the perceived legal implications of reporting prior to a full 
investigation, reporting something that you may not have all of 
the information about, so are you going to report it in any 
case before you know everything about it. Well, that is just 
one aspect of what is now a deeply complicated set of 
circumstances here. And it has to do a lot with security.
    So I am wondering to what extent you may have looked into 
this and may have understood this situation.
    Has the MDA been impacted by counterfeit parts? Does MDA 
have its own definition of counterfeit? And what anti-
counterfeiting measures are being considered by MDA?
    General O'Reilly. Sir, first of all, that GAO report cites 
us as one of the organizations that is aggressively pursuing 
counterfeit parts. We do have a definition of counterfeit 
parts, and it is both not building the part to the exact design 
that was proposed in our approved designs for our components of 
our missile systems by our prime contractors, but also built by 
someone different than was originally identified when we 
approved the design. So that is our definition of counterfeit 
parts: change the part or been built by somebody differently. 
So we hold our prime contractors accountable for that.
    Yes, we have been affected. Yes, we have called in the FBI. 
Yes, the Justice Department has pursued them. And so yes, sir, 
we do see it as a growing problem.
    Mr. Hinchey. So to what extent do we have or to what extent 
is the reliability of this situation increasing, do you think, 
over recent time?
    General O'Reilly. Sir, we have been aggressively pursuing 
them. I have inspectors in almost every one of the plants. So 
does the Defense Contracting Agency. A lot of our reporting, 
though, of this is actually coming from our prime contractors 
themselves or major subcontractors. These counterfeit parts are 
not coming from large companies, but it is the smaller ones.
    What we have added in is additional screening. So we test 
the first thing, to identify if something is not operating 
right, when you take the component. Years ago, we had--in order 
for acquisition reform and reducing the cost of acquisition, we 
had removed some of those tests. We have installed those tests 
back in to do more parts screening when they come in.
    And second of all, it is a crime and we do pursue that.
    So through inspection, making it a contract requirement, 
and our prime contractors themselves have been vigilant. ------
    Mr. Hinchey. Is it generally considered to be a serious 
situation where you have essentially 98 percent of the products 
here that are being manufactured, apparently, in places outside 
of the country, and the reliability of the integrity of these 
operations comes into question? Is the situation concerned 
about; is it being looked into effectively? I know you just 
mentioned some of the ways in which it has been.
    General O'Reilly. Yes, sir. It is a concern. Screening is 
the first order we do to protect at the piece-part level to 
catch them when they are coming in, but more is needed.
    Mr. Hinchey. Is there any potential for this operation, or 
is it significant enough to have it be focused in the context 
of being manufactured here in ways that can be seen more 
effectively?
    General O'Reilly. Sir, that obviously is a viable solution 
that would solve that. Some of our counterfeit parts, though, 
we have found in the past some of them are from U.S. entities, 
and the Justice Department has taken over at that point. We 
have had to redesign parts of a component and go procure them 
from somebody else. But it is not just overseas; it is U.S. 
too, where we have run into this problem.
    Mr. Young. Will the gentleman yield?
    This is a field I have cared for for a long time. We all 
know the technology exists in the world to embed programs into 
certain types of electronics, certain types of technology that 
could cause a failure or a disruption of the system.
    And as Mr. Hinchey and Mr. Tiahrt have raised the issue of 
foreign producers or counterfeit producers, are we vulnerable 
to having that type of attack made against us by embedding 
something that we can detect but an enemy could disrupt our 
missile with one of those embedded programs?
    General O'Reilly. Sir, as far as a foreign component, we 
prohibit the use of foreign components by any of our 
contractors unless we provide them a waiver. And the waiver is 
not just the Department of Defense, but the Department of 
Commerce also. So we go through a process. It has to be a 
trusted source. We have trusted sources in the U.K. Obviously, 
this is something that we work very closely with the Japanese 
in our development with the SM-3 IIA. We do have processes to 
provide waivers, but without a waiver, they cannot use a 
foreign piece-part in any of our systems.
    Mr. Dicks. Mr. Kingston.
    Mr. Kingston. General, that just seems outrageous to me. 
And it would appear to me that within your Department that 
there would be equal outrage; in fact, that your outrage would 
be bigger than our outrage in terms of anybody selling 
counterfeit parts to a missile system so important.
    Do you feel it? You don't strike me as a real emotional 
guy, which is good. But is anybody there pounding the desk and 
saying this is--somebody has got to go to jail?
    General O'Reilly. Sir, our process for that is, first of 
all, we turn it over to the Justice Department. Second of all, 
we prohibit them as a supplier to the Defense Department, 
immediately to MDA. We submit them to be a prohibited supplier 
in the future. So what we try to do is put it out of business.
    Mr. Dicks. Will the gentleman yield on this point?
    Has anybody been put out of business?
    General O'Reilly. We have--sir, I know of several 
incidences a couple of years ago. I can provide you the data on 
that.
    Mr. Dicks. That would be good.
    [The information follows:]

    MDA has experienced several instances of counterfeit parts. For 
example, a counterfeit operational amplifier, which can be used on 
multiple MDA systems, was identified on MDA hardware during testing. 
The failed part was found on a circuit board supplied by a 
subcontractor. It was later determined that the subcontractor purchased 
these parts from a parts broker who was not authorized to distribute 
parts by the original component manufacturer. In another instance, a 
counterfeit microcircuit, which can be used on multiple MDA systems, 
was identified on MDA hardware. MDA's visual inspection showed that the 
part was resurfaced and remarked, which prompted authenticity testing. 
Tests revealed surface scratches, inconsistencies in the part marking, 
and evidence of tampering. These parts were purchased from a parts 
broker who was not authorized to distribute parts by the original 
component manufacturer.
    MDA reports instances of counterfeit parts to the Department of 
Justice (DOJ) for criminal investigation and possible prosecution. In 
October 2009, DOJ announced that it had indicted three individuals in 
connection with sales of counterfeit electronic components through 
several distributors, including MVP Micro, Red Hat Distributors, Force-
One Electronics, Becker Components, and Pentagon Components. In January 
2010, one of the defendants pleaded guilty to charges of Conspiracy to 
Traffic in Counterfeit Goods and Defraud the United States and to the 
Trafficking in Counterfeit Goods. MDA also issued a formal advisory to 
its program offices to determine whether there had been any other parts 
procurements from these distributors and confirm that these entities 
had been removed from all Approved Vendor Lists at the contractor and 
subcontractor level.
    Counterfeit parts are addressed as part of MDA Parts, Materials, 
and Processes Mission Assurance Plan which includes instructions on 
part selection, procurement, receipt, testing, and use of parts. MDA 
further has applied DOD's item-unique identification technology that 
provides for the marking of individual items. In addition, MDA issues 
formal bulletins that alert MDA staff of counterfeiting techniques and 
how to detect them.

    Mr. Dicks. Also, what is their excuse? What do they say 
when they are confronted with this?
    General O'Reilly. Sir, we deal with the prime contractor. I 
don't know. It is a criminal act and we turn it over to the 
Justice Department. We then immediately find a new supplier and 
change the design if we have to avoid ever using those 
components again.
    Mr. Dicks. But you are not getting a new prime. You are 
just getting a new subcontractor.
    General O'Reilly. Yes, sir.
    Mr. Kingston. It would seem to me that the prime contractor 
would have some vulnerability.
    Mr. Dicks. He is the one that selected the prime--the 
subcontractor, right?
    General O'Reilly. That is right. Sir, this is a problem 
that we deal with in the Department; that is the use of cost-
plus contract. A cost-plus contract is intended in order to say 
that there is a risky technology or something we are pursuing 
that is not mature. And instead of the contractor absorbing the 
whole risk, the government, for most risky technologies, like a 
lot of the missile defense ones, we share the risk of them 
proceeding in a risky development. It was never intended, but 
there is no distinction in our contracts today, our older 
contracts, to distinguish between a legitimate development risk 
and negligence or a defect.
    And so our new contracts that we are moving forward--and we 
are reviewing $37 billion in contracts right now--our new 
contracts, we are aggressively using fixed-price contracts 
where we can; which means when you spot counterfeit parts it is 
on the prime contractor to pay for the impact of that.
    And we are also adding in defects clauses.

                            HOMELAND DEFENSE

    Mr. Kingston. I want to move on a little bit.
    I want a Rotary Club takeaway here. When we move from 
agriculture to education to health care to ballistic missile 
defense, what would you say in terms of your number one goal, 
defending the homeland against a limited ballistic missile 
attack, where are we on the scale of 1 to 10, 10 being 100 
percent secure?
    General O'Reilly. Sir, we have conducted three out of three 
successful tests of a geometry that shows missiles being 
launched from North Korea and our interceptors coming out of 
Alaska. That is the tests where we launch the interceptor--the 
target out of Kodiak and we launch out of Vandenberg. We have 
shown it is technically viable.
    The Director of Operational Tests and Evaluation has 
calculated that to have a statistical confidence you would need 
to repeat that test 17 times, and each test is over 200 
million.
    So I think what is more critical is when we are going to 
complete the testing on these systems--and that is what our 
integrated master test plan does--to validate our models so we 
can run thousands of runs in order to get a high confidence 
level in this capability.
    We know we have capabilities, sir, but I can't quantify 
like I would like to be able to of what that probability is.
    Mr. Kingston. Two hundred million dollars just for one 
test?
    General O'Reilly. For a GBI test, yes, sir. Again, we are 
now testing at greater ranges. The latest one was $279 million. 
We were launching out of the Marshall Islands and the 
intercepter out of Vandenberg.
    Mr. Kingston. If you were going to guess where our biggest 
threat is, what would you say, what could be--fast forward in 
the tape if you could make a prediction.
    General O'Reilly. In defense, sir?
    Mr. Kingston. Yes
    General O'Reilly. ------
    Mr. Kingston. Would it come from a rogue nation or where 
would it come from?
    General O'Reilly. Sir, our concern is they are being sold 
on the arms market. So they do not discriminate. So nonstate 
actors do have a potential to have these.

                            NATO BMD FUNDING

    Mr. Kingston. Okay, then I have one more question, Mr. 
Chairman.
    I wanted to know on the European contribution, you had said 
they do the first level.
    General O'Reilly. That is the proposal, yes, sir.
    Mr. Kingston. And how much is that in terms of a percent of 
the total of their defense? What is their lift compared to 
American taxpayers?
    General O'Reilly. Sir, our rough calculation of the value 
of the missile defense assets they own today, and several 
countries do, is about $2 billion that they already procured.
    Mr. Kingston. What would be the total defending Europe--and 
I understand it is not just defending Europe--but defending 
Europe, what is the total price tag for that?
    General O'Reilly. ------
    Mr. Kingston. I am really worried about the dollars here.
    General O'Reilly. They need a lot more of them.
    Mr. Kingston. But we are spending $12 billion. What are we 
proposing that they spend?
    General O'Reilly. They would have to make a determination 
of what they want to protect at that lower level. And that is 
what is going to occur in the Lisbon Summit, between the heads 
of states of NATO. Today they haven't declared that they will 
protect territory of Europe, and that is a first step.
    Then the second step--and NATO does have studies going on 
looking at what is the priority of what they are trying to 
protect and their investment strategy.
    Mr. Kingston. At Lisbon, if they vote not to participate, 
what do we do with the upper tier?
    General O'Reilly. ------
    Congresswoman Kilpatrick.

                      STRATEGY BALLISTIC MISSILES

    Ms. Kilpatrick. Interesting discussion. I think I am trying 
to visualize.
    Let me ask you this: What missile system is the strongest 
defense system in the world? What countries?
    General O'Reilly. For missile systems?
    Mr. Dicks. Are you talking about offensive or defensive?
    Ms. Kilpatrick. How can you separate them?
    General O'Reilly. Offensive, the threat missiles, if you 
remove the United States----
    Ms. Kilpatrick. I don't want to remove them.
    General O'Reilly. The country that has the most missiles 
today is Russia; the second country is the United States; and 
the third is China.
    Ms. Kilpatrick. Do you base my question on the number of 
missiles they have or the best defense system that there is?
    General O'Reilly. Our intelligence estimates look at the 
effectiveness of the threat. So it is the most egregious 
threats are the ones that have the most potential.
    Ms. Kilpatrick. So which is the best system of the three 
that you named?
    General O'Reilly. ------
    Ms. Kilpatrick. So U.S. in that regard.
    General O'Reilly. For offensive strategic accurate weapon.
    Ms. Kilpatrick. And Russia would be how in that same 
scenario?
    General O'Reilly. ------
    Ms. Kilpatrick. And Russia is now our friends. We work with 
them. They are one of our allies, are they not?
    General O'Reilly. They are not an ally, but we do work with 
them. We have agreements that we do surveillance on each 
other's systems. So we do know--and they do inform us and they 
have done that--every time they move their systems.
    Ms. Kilpatrick. So we have a working relationship, say, not 
allies. What would they be to us? We use their parts.
    We meet with them. We discuss the security thing.
    General O'Reilly. We have an ongoing open dialogue for 
years, going back to the original STARTs. We exchange data back 
and forth on our systems.
    Ms. Kilpatrick. I am trying to move to Iran and North Korea 
and all of them.
    Is Iran--you didn't name them in that top three. Do they 
have the capability that the other three that you mentioned 
have?
    General O'Reilly. No. They are pursuing it, is our 
intelligence estimate. So are the North Koreans. But, no, they 
don't today. ------
    Ms. Kilpatrick. Okay, so that is good. They are still in 
testing, then. They are trying to get there.
    General O'Reilly. They are trying to get there.
    Ms. Kilpatrick. So between Syria, Iran, China, North Korea, 
we have better offensive and defensive missile defense systems 
than they at the current time?
    General O'Reilly. Yes.
    Ms. Kilpatrick. If we use some of our other partners--I 
guess Russia would be one of those--does Russia have the same 
relationship with Iran and North Korea that we have? Are they 
in that realm? They agree on some things and some things they 
don't, or are they like our country?
    General O'Reilly. They do have ongoing dialogues and 
relationships with both North Korea and Iran.
    Ms. Kilpatrick. Then on the video that we saw, the laser. 
Does it operate in bad weather, in clouds? Is any of that 
interrupted?
    General O'Reilly. ------
    Ms. Kilpatrick. How much is it going to cost to develop 
that testing? We want to get you what you need. Is it in 
addition to--in our Congress, everyone wants to cut the Defense 
budget because it is the money that we need to secure, and I am 
for securing as much as we need.
    Is the phase-in 2014 that you mentioned, 2015, going to 
mean that we can reprogram some old money, or is it all new 
money that we are talking?
    General O'Reilly. It is all new money that we are proposing 
in this budget. However, there are two reprogramming actions on 
the Hill here today right now; one to complete the missile 
field in Alaska to provide us the eight additional silos to 
give us some additional hedge for the future; and the other is 
to upgrade more Aegis ships to BMO capability sooner. So those 
actions are on the Hill today.

                   STANDARD MISSILE-3 IIB DEVELOPMENT

    Ms. Kilpatrick. I commend you for your knowledge, and the 
physics background that you have obviously helps that.
    Lastly for me, if there was one thing that you would ask 
this committee to do or support in your capacity as Director of 
MDA, what would that be?
    General O'Reilly. I believe it is the support for the SM-3 
IIB missile. And the reason for that is that regardless of the 
intelligence estimates, my concern is these technologies are 
out of the box. People are aggressively working on long-range 
mobile missiles and they have shown over and over again they 
are willing to sell them to anybody who will buy them.
    So it may not be this decade, but it would be hard to say 
it wouldn't be the next decade that we could face threats from 
all directions. We have to convince these people it is not 
worth even pursuing. And therefore having missiles like an SM-3 
II8 that could shoot down a missile over a country that is 
launching the missile would deter them and persuade them, like 
we have done with their air forces, to stop investing in these 
missiles.
    Ms. Kilpatrick. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Dicks. Now I want to recognize Mrs. Granger, and I 
notice that she has an apple there.
    And General, can you tell us why that apple is there?
    General O'Reilly. My mother taught me to always bring an 
apple and give it to your teacher. And believe it or not, I 
don't know what the odds are of missile defense, but the odds 
here are pretty high.
    Should I say how long ago it was, ma'am?
    Mr. Dicks. That is one thing you don't. Strike that from 
the record. If you were both much younger.
    General O'Reilly. A few years ago I was briefing 
Congresswoman Granger and she asked me where I was from, and I 
informed her I was from her district. And then she asked me 
where I went to high school and where my parents lived. And it 
became quickly apparent that we have known each other many 
years ago when I was 16, and I don't know how old she was.
    Mr. Dicks. But she was the teacher, right?
    General O'Reilly. Yes, sir. Congresswoman Granger was my 
high school English teacher, I believe my junior year in high 
school.
    Mr. Dicks. You told us that she vigorously corrected your 
papers.
    General O'Reilly. You may think I am worried about these 
questions that committees ask. I am worried about having my 
former English teacher correcting my grammar.

                          ARROW-3 DEVELOPMENT

    Ms. Granger. When you were talking about the defense of 
Europe and you said, ``We are going to have to propose,'' and 
so I was going to come back to you and say, Does that mean they 
haven't decided not to? Then you told us about the Lisbon 
Summit, so we will watch that very carefully.
    I want to ask you to go back to something that we have 
talked about, you and I talked about, and that is the critical 
importance of the relationship with the U.S. and Israel. And I 
want to ask you about the Arrow-3 program and how that is 
progressing and the challenges it presents and how we are 
coming along with the project agreement.
    General O'Reilly. ------
    So we have a program laid out with them that very 
systematically monitors their progress, and we do assist with 
them, and U.S. companies like Boeing are participating with 
them on this program.
    Ms. Granger. I was aware that it was more costly and going 
to take more time, but they are absolutely committed to it. So 
I thank you.
    I would suggest to anyone--I did, because I am his former 
teacher, and because I wanted more information. You gave me a 
briefing that was very helpful just generally on all of these 
missile programs and what they do. And it was very helpful to 
me in understanding and be able to then zero in on particular 
issues.
    Mr. Kingston. Was he still trying to get extra credit? Is 
that what this was about?
    General O'Reilly. When I briefed her, she gave me a gold 
star at the end. I was hoping there was no homework.

                        PHASED ADAPTIVE APPROACH

    Mr. Dicks. Mr. Rogers.
    Mr. Rogers. General, some people are concerned that the new 
Nuclear Posture Review weakens our missile defense efforts. In 
2009, the administration scrapped the planned missile defense 
systems in Poland and the Czech Republic, coincidentally 
turning its back on two very staunch allies in the effort to, I 
think, appease Russia. Am I correct on that?
    General O'Reilly. No, sir. When I was advising the 
Secretary of Defense and others in this, our primary concern 
with the other program is it takes 5 years to build the missile 
field. And if we found we didn't have enough missiles, we would 
be vulnerable for 5 more years until you can upgrade the 
missiles. ------
    So the concern was not enough missile defense. We needed to 
procure or pursue a system that was more affordable, that could 
in fact--because GBI cost 70 million apiece, the missiles we 
are proposing now are between 10 to 15 million apiece. We 
project we are going to need hundreds--instead of 10, hundreds 
of interceptors in Europe if the threat emerges, as some of the 
intel predictions are.
    Mr. Rogers. Why did we scrap Poland and the Czech Republic?
    General O'Reilly. Sir, I was part of the--Under Secretary 
Tauscher and Under Secretary Flournoy and I went to Poland the 
day the President made the announcement.
    When we landed at the airfield in Warsaw, the first thing 
we saw was a London Financial Times telling us how the meeting 
went that we hadn't even held yet. There was a complete 
fabrication on what had occurred in the announcement. I was one 
of the three that announced this to the Polish Government.
    We listened for an hour respectively, as they were very 
upset that we had left them hanging. And at the end of the 
hour, we then explained to them we still want to put an 
intercepter system in Poland; and they looked at us and said, 
But that is not what we were told.
    And myself and Secretary Flournoy and Secretary Tauscher 
said, ``We are here on behalf of the President. We do want to 
have missile defense here. We are continuing our agreements on 
the deployments of Patriot and to put the command and control 
system we had before.'' And frankly, instead of having 10 
interceptors in Poland, they could have as many as a hundred 
and----
    Mr. Rogers. Where do we stand now? Are we going to have 
missiles in Poland?
    General O'Reilly. Yes. And they have agreed to that, sir.
    Mr. Rogers. And effectively, what will those missiles 
defend against and whom?
    General O'Reilly. ------
    Mr. Rogers. Well, again, the question is why are we paying 
for the protection of Europe, especially those areas where we 
do not have troops of our own or installations that we need to 
protect? Why are we doing this? Are they going to help us with 
the costs, the Europeans?
    General O'Reilly. Sir, that, again--NATO is reviewing that 
right now, and the first step is to agree to protect 
themselves. That is the Lisbon Summit.
    But, second of all, once you have this separate tier 
protection for ourselves, it does have zones of about 2,000 
kilometers. With Article 5 and NATO, if we have a capability to 
defend NATO, we must under the article launch our interceptors 
to defend NATO, which is part of the indivisability of NATO 
that goes back to the very beginning.
    Mr. Rogers. Well, will we be pushing NATO and/or the 
Europeans to help pay the costs of these deployments?
    General O'Reilly. Yes, sir. Two weeks, ago, I spent 4 
hours, privately, with the Secretary General of NATO. He came 
to Colorado, and we showed him all of our demonstrations and 
our simulations and so forth, and we had very long discussions 
on what would be the cost to NATO and what would be the changes 
in the command and control and so forth, for them to have an 
Integrated Missile Defense System. ------
    Mr. Rogers. So the Lisbon Summit will, hopefully, decide 
the European defense posture; correct? Who pays for it, where 
the missiles will be?
    General O'Reilly. Yes, sir. Without their agreement to 
protect themselves, and it is a U.S. commitment only, or 
bilateral, with each of the countries.
    Mr. Rogers. Well, in September of 2009, the President 
introduced what is called a Phased Adaptive Approach for 
missile defense in Europe. What is that and what does it have 
in relation to the Lisbon Summit?
    General O'Reilly. ------
    The second step, then, would be the Phased Adaptive 
Approach. As we are developing new missile capabilities with 
the SM-3 and the THAAD and our forward-based radars, we will 
deploy the capability, as they are being tested and proven and 
accepted by the services, first deployment in 2011, the second 
deployment in 2015. And these deployments are geared by our 
intelligence estimates of what range the Iranians can reach if, 
in fact, they are successful in the development of their own 
systems.
    Mr. Rogers. So this will be a NATO-run program, do you 
think?
    General O'Reilly. ------

                       ALTB CONCEPT OF OPERATIONS

    Mr. Rogers. Now, in closing, a wholly different subject. In 
the video, what is the planned protocol for stationing the 
aircraft, the laser-armed aircraft, in a defensive situation? 
Obviously the plane has to be fairly close to the launch phase, 
right? How would you have those planes deployed on a routine 
basis?
    General O'Reilly. ------
    Mr. Rogers. Well, on a worldwide mission, you are going to 
need a lot of planes.
    General O'Reilly. Sir, that is why this would be a great 
capability to surge. That is why we are proposing to have many 
different missile defense systems so that the combatant 
commanders that I am working with today put the appropriate 
system against the appropriate threat.
    Chairman Dicks. Would the gentleman yield?
    Mr. Rogers. Yes.
    Chairman Dicks. A possibility would be you would have 
planes off of North Korea.
    General O'Reilly. Yes, sir.
    Chairman Dicks. Or off of Iran as a possibility. So if 
tensions rose, we had some indication that they might do 
something, then you could deploy these airplanes and you could 
attack a missile in boost phase.
    Mr. Rogers. Well, that is what I am talking about. And, 
like Iran, where to get close to a launch site that might be 
inside the middle of Iran, I don't know how you would be able 
to patrol close enough to----
    General O'Reilly. Well, again it is what we call goal-
tending from hockey. If you know where the threat missiles are 
coming and you know what you are trying to defend, and you have 
a mobile defense, you can put the defense and put the aircraft 
between where they are being launched and where they are going.
    So we have an idea. We know what trajectories they would 
have to use if they were going to threaten the United States. 
So we are in their path, and we let them come towards us as 
well as shooting them. That would be part of the strategy.
    But, again, this would be more applicable to a system 
where, when tensions rise, like many of our defense systems, we 
surge them into an area and then you have, for a limited time, 
a very high capability.
    But to deploy them globally, constantly, we do not do that 
with any of our defense systems because of affordability.
    Mr. Rogers. But I assume you would, for the moment. You 
would be patrolling around Iran and North Korea, would you not, 
if you had the capability?
    General O'Reilly. Sir, that is why we work with the 
combatant commanders, and they would determine that capability 
because of training and other things. That is why we went with 
an Aegis ashore, where you can have a semipermanent protection 
and then you have mobile systems, both sea and aircraft. They 
are not to act as--our proposal is they are not to act as a 
permanent defense. They are surged when they are needed because 
it would be cost-prohibitive to keep them there constantly.
    Mr. Rogers. Final question. In your realism talk, what do 
you think the distance, the range, will finally be of the 
airplane-borne laser capability?
    General O'Reilly. ------
    Mr. Rogers. Got you. Thanks, General.
    Chairman Dicks. Mr. Rothman then has a final question.
    Mr. Rothman. Yes, sir, thank you, Mr. Chairman. I 
appreciate it.
    It is a two-part question. It is regarding the airborne 
laser and part one is, how high will it fly? My concern is 
countries objecting, certain countries to our overflying their 
territory, albeit at 400 kilometers out. But what countries 
would those be, and are they all friendlies who would permit to 
us overfly their countries, and how high would they be?
    Mr. Rothman. Right.
    General O'Reilly. And you could actually use the defensive 
systems of Japan in order to assist our aircraft. So it really 
does depend on geometries, but what we are working for is to 
give the combatant commanders this capability so that they can 
determine the best use.
    Mr. Rothman. And so you build in--the SAMs will have a 
longer range in the future,
    General O'Reilly. Yes, sir.
    Mr. Rothman. So at 50,000 feet we don't care about 
overflight rights?
    General O'Reilly. Yes, sir, we do. And that is an issue 
that we have today. But usually this is used in a time of war 
and when tensions have risen and those are--we are given those 
rights----
    Mr. Rothman. We have already identified those countries, 
the racetracks?
    General O'Reilly. No, sir. We actually work with that all 
the time. We have recently received overflight rights from the 
Russians but it is a continual diplomatic dialogue.
    Mr. Rothman. Thank you, General. Thank you,
    Mr. Chairman.

                        THAAD TESTING/PRODUCTION

    Chairman Dicks. Let me just go through, give us a little 
update on THAAD. How is THAAD doing?
    General O'Reilly ------
    The next two big decisions for THAAD is, number one, that 
the Army formally accepts it and it will be transferred, the 
first unit to the Army, and the Army will operate it, not MDA 
at that point. That will occur in January; it is scheduled 
upcoming January.
    Chairman Dicks. 2011.
    General O'Reilly. 2011. That will be the Army's first fully 
operational THAAD unit. ------
    I am requiring that they solve that before, in fact, we go 
to our first full-rate production decision. The United Arab 
Emirates have put in a request to purchase two THAAD units and 
a forward THAAD-based radar at the cost of $6.9 billion, and 
their request is to have a THAAD unit by 2014.
    Chairman Dicks. Who is the contractor on THAAD?
    General O'Reilly. Lockheed Martin is the developer of the 
missile and the whole system, and Raytheon develops the fire-
control system and the radar.
    Chairman Dicks. How is Raytheon performing?
    General O'Reilly. In the Raytheon area, they have performed 
very well with their radar and their fire-control system on 
this.

                           PAC-3 INTEGRATION

    Chairman Dicks. Okay, what about PAC-3?
    General O'Reilly. Sir, I currently do not have 
responsibilities for PAC-3. That is an Army program. The Army 
is looking at, in discussions today, and has been asking us 
about a possible transfer of PAC-3 back to MDA. And that is a 
decision that they are discussing at this time.
    Chairman Dicks. What is the reason for that?
    General O'Reilly. The approach to MDA used to be, back 5 
years and beyond, was that we would develop the technologies 
and develop systems ready for production, and then we would 
hand them off to the services and we would produce the systems. 
The decision has been made since then, over the previous 
administration and this administration, is that due to the 
constant need to upgrade our missile defense systems as the 
threat keeps changing, I am now responsible for the lifetime of 
the systems, for the Navy systems, for all of them, and PAC-3 
had just matured early, or matured at the point where it was 
transferred to the Army. Today it wouldn't have been 
transferred to the Army; just like Aegis and THAAD, stay with 
the Missile Defense Agency.
    So because of that, they are going back and looking at 
should they revisit the decision on moving PAC-3 possibly back 
to MDA so that the Army then gets the benefits of the rest of 
our national effort that I lead.
    Chairman Dicks. How do you feel about it?
    General O'Reilly ------
    Chairman Dicks. So who in the Army--this will go up to 
General Casey?
    General O'Reilly. Yes, sir--and the Secretary of the Army 
are currently reviewing this. At their request--it was their 
initiative, not MDA's, to retook this decision.

                              SBX TESTING

    Chairman Dicks. We have discussed a lot of things today, 
but is there anything on the radars, again, that stands out in 
your mind that we need to----
    General O'Reilly ------
    When you are dealing with a solid rocket motor, it 
actually, what we call chuffs, it produces bits and pieces that 
are burning still, that come out of the back end of the missile 
and produce a lot of fiery hot objects, that are just part of 
the debris that comes out of the back of a missile, a solid 
missile, as it burning. ------
    And as we said, the Iranians are working on a solid rocket 
motor missile, so we need this capability for the future, sir.
    Chairman Dicks. Okay. Well, thank you very much.
    The committee stands adjourned until May 13 at 10:00 a.m., 
when we will hold a hearing on the United States Pacific 
Command and U.S. Forces-Korea.
    Thank you, General. You did a great job.
    [Clerk's note.--Questions submitted by Mr. Dicks and the 
answers thereto follow:]

                 Precision Tracking Space System (PTSS)

    Question. Another new program in the FY2011 budget request is PTSS 
which is intended to track a missile after boost phase and cue Aegis. 
This is a follow on program to STSS however is still a demonstration 
satellite
    How is this new demonstration satellite different that STSS that 
was launched on September 25, 2009?
    Answer. The Space Tracking Surveillance System (STSS) was designed 
from pre-existing work on the Space-Based Infrared System (SBIRS) 
program and will accomplish the following objectives:
          <bullet> Provide critical data on how a space-based sensor 
        could be used to track missiles and their released mid-course 
        objects to close the fire control loop from space;
          <bullet> Assess space layer performance in Launch-on/Engage-
        on Remote scenario of an intercept of a ballistic missile in 
        flight;
          <bullet> Measure latency of BMDS communications and weapon 
        system/Command and Control, Battle Management, Communications 
        (C2BMC) integration and interfaces;
          <bullet> Assess user/warfighter (i.e., CONOPS gaps) in 
        operating a Low Earth Orbit (LEO) space constellation in 
        support of BMDS operations;
          <bullet> Familiarize the warfighter with precision space 
        tracking;
          <bullet> Collect LEO based phenomenology, atmospheric and 
        environmental data; and
          <bullet> Conduct observations and monitoring in support of 
        other missions, not necessarily related to BMDS tracking.
    The objective of the Precision Tracking Space System (PTSS) program 
is to address the ascent-phase, midcourse tracking challenge facing the 
joint warfighter. PTSS is a simplified system with the minimum 
necessary functionality to cost effectively provide midcourse tracking 
data and is an integral part of the extended Aegis fire-control system 
and early intercept capability--a key focus of the Missile Defense 
Agency (MDA). PTSS will leverage high Technology Readiness Level (TRL) 
space system components and improvements in BMDS Command and Control, 
Battle Management, and Communications. This approach will minimize the 
need for new technology development that may drive up costs and 
increase development timelines.
    MDA is incorporating lessons learned from the STSS demonstration 
satellites to inform our decisions on the development of PTSS, 
specifically in the areas of phenomenology and fire control. STSS 
phenomenology data (i.e., infrared scene collections such as 
atmospheric GC 611 315 lot backgrounds, clouds, earth limb 
observations, etc.) will be used to anchor models essential to the 
missile tracking mission. In the case of PTSS, this category of 
collections is planned to be used in payload design, and validate the 
selection of optics, focal planes, wavebands of interest and data 
processing. STSS uses on-board processing to autonomously generate 
missile target tracks and pass that data to the ground control system. 
The PTSS program will analyze STSS processing performance to determine 
the level of on-board processing required, from a system- wide 
perspective for PTSS.
    PTSS program goals are to:
          <bullet> Develop an operational, end-to-end, missile tracking 
        capability from space focusing on regional ballistic missiles;
          <bullet> Develop and test a space system prototype and 
        integrated ground system with BMDS to precisely track missiles 
        with sufficient accuracy and low enough latency to provide 
        sensor data to BMDS interceptors to defeat large raids from 
        regional threats;
          <bullet> Establish the technical and programmatic foundation 
        for procuring the operational system;
          <bullet> Develop space qualified technology to hedge against 
        future missile threat growth; and Fully integrate PTSS space 
        and ground systems into the BMDS architecture.
    Question. Why is MDA pursuing another demonstration satellite that 
will not have the appropriate capabilities?
    Answer. The objective of the Precision Tracking Space System (PTSS) 
program is to address the ascent-phase, midcourse tracking challenge 
facing the joint warfighter. PTSS is an integral part of the extended 
Aegis fire-control system and early intercept capability, which is a 
key focus of the Missile Defense Agency (MDA).
    Challenges and problems associated with past satellite development 
programs indicate that a stable baseline and risk reduction is 
necessary to improve development timelines. To that end, the Missile 
Defense Agency (MDA) will establish Precision Tracking Space System 
(PTSS) requirements baseline upfront and early and discourage future 
growth without operational necessity. The MDA also intends to leverage 
heritage, high TRL space system components for the PTSS. This approach 
focuses on component reuse and integration and minimizes the need for 
new technology development and custom design which will drive costs up 
and increase development timelines.
    Developing prototypes prior to making production decisions will 
ensure that proper Technology Readiness Levels (TRL) are achieved, 
thereby improving our development timelines. The PTSS acquisition 
strategy is to develop a prototype system with Johns Hopkins 
University's Applied Physics Laboratory before awarding production 
development contracts to industry. Additionally, we will award 
contracts to several industry participants during concept development 
and exploration to insure the prototype can be readily produced by 
industry. Industry engagement during the prototyping phase will greatly 
improve the level of understanding by the contractors and reduce risk 
for PTSS production. This partnership between industry and the 
scientific community will ensure our understanding of requirements 
before we award production development contracts.
    The crawl-walk-run approach to space system development has shown 
great success in prior programs, such as the efforts that led to the 
Global Positioning System program.
    Question. How are the mission requirements different than those for 
STSS?
    Answer. The Precision Tracking Space System (PTSS) plan calls for 
simplification of STSS as much as possible and takes advantage of 
several improvements in capability over the past decade. PTSS will 
utilize MDA's Command and Control, Battle Management, Communications 
(C2BMC), significantly reducing the requirements on PTSS for command, 
control, battle management, and communications as compared to those 
levied on Space Tracking Surveillance System (STSS). In addition, PTSS 
will receive missile launch cues from Overhead Persistent Infrared 
systems, reducing the sensor requirements on PTSS, again, as compared 
to those on STSS. PTSS will also be integrated as part of space layer 
leveraging external space systems with a common ground processing node 
that is interfaced to the battle manager.
    Question. Will PTSS have mid-course tracking capabilities?
    Answer. Yes. The requirement for Precision Tracking Space System 
(PTSS) is to enable mid-course tracking, closing the fire-control loop 
and enabling early intercept.

                           Target Acquisition

    Question. MDA is also addressing the need to have more reliable and 
less costly targets. The new target acquisition strategy, initiated in 
FY 2009, streamlines a set of target classes to increase quality 
control, account for intelligence uncertainties, control costs, and 
ensure the availability of backup targets.
    Since it takes about two years to build and deliver a high quality 
target, when do you expect to complete the new target acquisition 
strategy?
    Answer. Request for Proposal (RFP) was issued for the Intermediate 
Range Ballistic Missile (IRBM) targets in the second quarter of FY10. 
The draft RFP for the InterContinental Ballistic Missile (ICBM) target 
is anticipated for release 4QFY10. The IRBM contract award schedule is 
dependent on the volume/quantity of proposals received, but award is 
planned for 1QFY11. The ICBM contract award is planned for 4QFY11.
    Question. What is the timeframe the new strategy will be realized?
    Answer. Over the past year, the Agency has initiated steps to 
implement the new target acquisition strategy. The initial step was to 
streamline the current Lockheed Martin contract to provide the near 
term IRBM targets with the LV-2. Secondly, two classes of new targets 
are to be procured.
    <bullet> The IRBM class of targets is being acquired through the 
release of an RFP in 2QFY10 with contract award 2QFY11 and first target 
delivery milestone in 2QFY14.
    <bullet> The ICBM class of targets is being acquired by release of 
RFP in 4QFY10 with contract award 4QFY11 and first target delivery 
milestone in 3QFY14.
    Question. What types of targets will you be acquiring?
    Answer. In accordance with the Targets and Countermeasures 
Acquisition Plan (3 November 2009), MDA will acquire targets in the 
following classes:
          <bullet> Intermediate Range Ballistic Missiles (3000-5500 km 
        or 1620-2970 nm)
          <bullet> InterContinental Ballistic Missiles (greater than 
        5500 km or 2970km)

                         GMD Flight Test Delays

    Question. GMD has planned 11 flight tests and 14 ground tests in 
fiscal year 2011. Many previous tests have been delayed or cancelled. 
This test schedule contained 9 additional tests compared to FY2010.
    The Committee understands that many test events scheduled in 
previous years have been delayed. Please outline the tests that have 
been delayed.
    Answer. In 2005 the Missile Defense Agency (MDA) Director 
established a Mission Readiness Task Force (MRTF) to address all issues 
contributing to flight test mission preparedness and strengthen systems 
engineering and quality. The new processes that were adopted greatly 
improved the success of Ground-based Midcourse Defense (GMD) testing. 
The attached ``GMD Flight Test Delay History--FY06 to FY10'' chart 
shows each flight test incurring delay since FY2006 and the reasons for 
the delay.
    In Fiscal Year 2009, MDA transitioned from an architecture-based 
approach to a Models and Simulations (M&S) Verification, Validation, 
and Accreditation parameters-based test objectives approach. The 
Integrated Master Test Plan (IMTP) is used to evaluate research and 
development milestones, technology maturity levels, and coverage and 
performance analysis. The IMTP establishes and documents test 
requirements of the GMD element with specific focus on collecting data 
needed for the Verification, Validation, and Accreditation (VV&A) of 
missile and threat models and simulations. Models and simulations 
permit repeated assessments of performance and provide a statistical 
determination of effectiveness of GMD capabilities. Ground tests using 
these high fidelity models and simulations test GMD capabilities across 
a range of threats and environments that cannot be affordably 
replicated in flight tests.
    The Missile Defense Agency remains committed to successfully 
executing and completing the IMTP. The development and testing schedule 
within the IMTP is realistic, accounts for the possibility of testing 
anomalies, and is updated semi-annually. The next update is expected to 
be complete by July 30, 2010.
    Question. Can you explain primary reasons behind the rescheduling 
of prior year test events?
    Answer. In Fiscal Year 2009, MDA transitioned from an architecture-
based approach to a Models and Simulations (M&S) Verification, 
Validation, and Accreditation parameters-based test objectives 
approach. The Integrated Master Test Plan (IMTP) is used to evaluate 
research and development milestones, technology maturity levels, and 
coverage and performance analysis. The IMTP establishes and documents 
test requirements of the GMD element with specific focus on collecting 
data needed for the Verification, Validation, and Accreditation (VV&A) 
of missile and threat models and simulations. Models and simulations 
permit repeated assessments of performance and provide a statistical 
determination of effectiveness of GMD capabilities. Ground tests using 
these high fidelity models and simulations test GMD capabilities across 
a range of threats and environments that cannot be affordably 
replicated in flight tests.
    The Missile Defense Agency remains committed to successfully 
executing and completing the IMTP. The development and testing schedule 
within the IMTP is realistic, accounts for the possibility of testing 
anomalies, and is updated semi-annually. The next update is expected to 
be complete by July 30, 2010.
    Specific challenges in the Ground-based Midcourse Defense (GMD) 
flight test program include acquiring a cost effective set of reliable 
targets and Ground-Based Interceptor quality control issues. MDA has 
taken action to address both of the challenges.
    For example, as a result of a Short Range Air Launched Target 
(SRALT) failure during a THAAD flight test in December 2009 MDA issued 
a Cure-Notice and directive to cease air-launch operations to repair 
program deficiencies. This resulted in a delay to the BMDS test program 
impacting cost and schedule of multiple major BMDS weapon systems and 
capability delivery to the Warfighter. To bridge the time between the 
delivery of these targets and our new competitive target procurements 
next year, the MDA initiated a limited procurement of Air Launched 
Targets through its existing Lockheed Martin contract. Lockheed Martin 
is evaluating the target options to satisfy MDA's requirements and have 
not made a final target solution decision. As with all of our target 
providers, MDA fully expects Lockheed Martin to select and deliver a 
target solution that meets the performance specification thresholds 
within the cost and schedule parameters.
    Over the past year MDA also initiated steps to acquire a new set of 
targets for all ranges, including Foreign Material Acquisitions, needed 
to verify the performance of the BMDS. Our new target acquisition 
strategy, initiated in FY 2009, procures targets in production lots to 
increase competition, quality control, reduce costs, and ensures the 
availability of backup targets starting in 2012. Accordingly, MDA 
issued a Request for Proposal (RFP) for the Intermediate Range 
Ballistic Missile (IRBM) targets in the second quarter of FY10; a draft 
RFP for the InterContinental Ballistic Missile (ICBM) target is 
anticipated for release 4QFY10 with contract award planned for 4QFY11; 
the IRBM contract award is planned for 1QFY11, but the contract 
schedule is dependent on the volume/quantity of proposals received. 
Nevertheless, until backup targets are available starting in 2012, we 
will continue to rely on an intensive inspection and oversight process 
to enhance mission assurance.
    Quality issues are also a primary driver and a high focus area for 
GMD. Built-in-test software and test silo quality issues caused delays 
in 2005. Challenges in Exoatmospheric Kill Vehicle (EKV) development, 
hardware quality, and target availability and target development issues 
drove test schedule delays in 2007-2009 affecting flight tests FTG-03, 
FTG-04, and FTG-05.
    MDA is committed to improving missile defense acquisition to 
overcome significant flight test delays, target and interceptor 
failures, cost growth, quality control, and program delays we have 
encountered in the past. Moving forward, MDA is implementing the Weapon 
Systems Acquisition Reform Act of 2009, including provisions related to 
contract competition, and it is our intent to use greater firm fixed 
price contracts and defect clauses as we complete planned competitions. 
We are increasing emphasis on competition at all phases of a program's 
acquisition life cycle to ensure the highest performance and quality 
standards are sustained throughout development.
    However, until we complete planned competitions we will have to 
motivate some senior industry management through intensive inspections, 
low award fees, issuing cure notices, consideration of pending quality 
concerns during funding decisions for new contract scope, and 
documenting inadequate quality control performance to influence future 
contract awards by DoD.
    Question. What issues remain to be resolved to reschedule delayed 
test events?
    Answer. There are no current delayed test events that have not been 
rescheduled or are in the process of being rescheduled. FTG-06a is 
being added as an incremental step in correcting the shorts comings of 
FTG-06. FTG-06a scheduling is in work. FTG-09 is being deleted and the 
objectives are transitioning to FTG-08.
    FTG-06 was conducted on January 31, 2010 and resulted in a failed 
intercept. A Formal Independent Failure Investigation Team (FIT) was 
established to conduct Missile Defense Agency investigations into the 
failures to meet test objectives. The scope of the FIT included 
investigating all potential target, interceptor, ground systems, and 
any other area deemed relevant in the determination of root cause and 
contributing conditions associated with the failure; recommending 
corrective actions to preclude the reoccurrence of a similar event on 
future missions; and identifying design, integration, test, and 
readiness deficiencies discovered during the investigation that did not 
directly contribute to the failure. The FIT results will aid decisions 
on future GMD flight tests.
    The FTG-06 Failure Investigation Team final report and its effect 
on possible courses of action to ensure a successful FTG-06a follow-on 
flight test are driving final planning activities and the overall GMD 
test schedule. Decisions on the FTG-06a test design and schedule are 
expected in June 2010. The Integrated Master Test Plan is under semi-
annual review and will be updated to capture all GMD test planning 
changes as well as other BMDS test planning.
    Question. How will this impact the current test plan for GMD?
    Answer. The FTG-06 Failure Investigation Team (FIT) final report 
and its effect on possible courses of action to ensure a successful 
FTG-06a follow-on flight test are driving final planning activities and 
the overall GMD test schedule. Decisions on the FTG-06a test design and 
schedule are expected in June 2010. The Integrated Master Test Plan is 
under semi-annual review and will be updated to capture all GMD test 
planning changes as well as other BMDS test planning.
    FTG-06a is an incremental step in correcting the short comings of 
the FTG-06 mission. Once the FIT final report is complete modifications 
to the Ground Based Interceptor will be incorporated as needed.
    Question. How will the test plan review change the way MDA tests?
    Answer. In FY09, MDA transitioned from an architecture-based 
approach to a Models and Simulations (M&S) Verification, Validation, 
and Accreditation parameters-based test objectives approach. This new 
test approach focuses on collecting data needed for the Verification, 
Validation, and Accreditation of the BMDS Models and Simulations and 
identifies the specific data to be gathered and the circumstances in 
which to measure them. For example, Critical Engagement Conditions 
(CECs) and Empirical Measurement Events (EMEs) will examine the 
accuracy of GMD and BMDS models and simulation by measuring key factors 
affecting a kill vehicle's ability to see a target and adequately 
maneuver in time to collide with it. Key factors include: solar and 
lunar backgrounds; low intercept altitudes; timing between salvo 
launches; long times of flight; high closing velocities (ICBM-class 
targets); correcting for varying booster burnout velocities; and 
responding to countermeasures. This test approach will establish 
confidence that the M&S used to evaluate the BMDS represents real world 
behavior and enable simulation based performance assessment to verify 
system functionality. DOT&E and the operational test communities are 
key partners in this effort. The Integrated Master Test Plan describes 
each CEC and EME and is updated semi-annually. The next update is 
expected to be completed by 30 July, 2010.

            Testing and Lack of Sufficient Number of Targets

    Question. One of the key limiting factors of MDA's test program has 
been the lack of sufficient number of missile defense targets and the 
inventory of foreign assets.
    Do you currently have a sufficient amount of targets to execute 
your testing program? For the current fiscal year? For fiscal year 
2011? Does the FYDP provide for sufficient number of targets?
    Answer. Yes, we have sufficient quantity of primary targets on 
contract for the current fiscal year (FY10) and FY11; however, we do 
not have a sufficient number of spare targets in case of a target 
failure or other processing problems. Spare targets will be available 
starting in FY12. MDA plans to update the Integrated Master Test Plan 
(IMTP) twice a year ensuring executability within budget controls. For 
the remainder of the FYDP, we currently have the required targets on 
contract to support tests scheduled in FY12. The new Targets 
Acquisitions to be awarded in FY10 and FY11 will provide the remainder 
of the targets required across the FYDP in support of the IMTP Version 
10.1, which was delivered to Congress in March 2010.
    Question. If not, what can we do to improve the number of targets?
    Answer. We have sufficient primary targets to support the PB11 
program, but due to the 18-24 month lead time to produce a target, 
there is no opportunity to improve the availability of spare targets 
till FY13.
    Question. Would additional funds in this area be helpful?
    Answer. The Targets and Countermeasures acquisition strategy for 
the new target procurements provides the opportunity to acquire 
flexible threat representative target configurations. The President's 
budget request represents an appropriate balance of risk given 
competing priorities for resources.
    Question. Would having a procurement account be beneficial?
    Answer. No. The Targets and Countermeasures program will require 
RDT&E funding to perform non-recurring engineering activities 
associated with target development in the MRBM, IRBM, and ICBM classes 
against our new acquisition program in FY10 and FY11. Additionally, 
several on-going development activities in countermeasures along with 
improvements in existing target configurations require RDT&E funding. 
If procurement funding were provided it would be applied to the fixed 
price hardware Contract Line Item Numbers (CLINs) for targets procured 
on the new acquisition contracts only. The remaining CLINs for 
engineering services, modeling and simulation activities, or other 
related engineering activities would still require RDT&E funding.

    [Clerk's note.--End of questions submitted by Mr. Dicks.]
                                            Thursday, May 20, 2010.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              


        AMERICAN MUSEUM OF NATURAL HISTORY/OHIO STATE UNIVERSITY

                               WITNESSES

WARD WHEELER, Ph.D., CURATOR AND CHAIR, DIVISION OF INVERTEBRATE 
    ZOOLOGY, AND PROFESSOR, RICHARD GUILDER GRADUATE SCHOOL, AMERICAN 
    MUSEUM OF NATURAL HISTORY
DAN JANIES, Ph.D., ASSOCIATE PROFESSOR, THE OHIO STATE UNIVERSITY, 
    DEPARTMENT OF BIOMEDICAL INFORMATICS, COLLEGE OF MEDICINE

                              Introduction

    Mr. Dicks. The committee will come to order. This morning 
the committee will hear testimony from witnesses outside of the 
executive branch. The committee is finishing its hearing 
process for the fiscal year 2011 period, and we have heard from 
all the Secretaries and Chiefs of each service.
    The committee held hearings regarding the military's 
personnel programs, medical programs, intelligence programs, 
acquisition programs, the missile defense program. Now we are 
turning our attention to hear from 17 different public 
organizations which will highlight issues that the committee 
should consider as work continues on the 2011 base 
appropriations bill that we will fund in support of our men and 
women in uniform over the next year.
    This hearing will allow the committee to understand the 
unique capabilities that outside entities can contribute to the 
needs of our servicemembers. The committee is aware that many 
of you have an existing relationship with the Department of 
Defense as it relates to medical research in support of the 
unique needs of our warfighters.
    The structure of today's hearing will follow a format that 
ensures all witnesses will have an opportunity to highlight 
their key points on the record. Further, each of your prepared 
statements will appear in full in the published hearing volume.
    We ask that you summarize your testimony in 5 minutes or 
less. Because President Calderon is speaking at 11 o'clock, the 
hearing has to end, so at 5 minutes you are going to hear the 
gavel. We don't have the clock, do we?
    I would like to express my gratitude to each and every one 
of you for the work you do on behalf of our Armed Forces. We 
look forward to your testimony, and I now yield to Mr. 
Frelinghuysen for any comments that he would like to make.
    Mr. Frelinghuysen. I join the chairman and welcome you all 
this morning, and I commend him for having this hearing. Thank 
you very much.
    Mr. Dicks. Our first witness is Dr. Ward Wheeler, Ph.D., 
curator and chair, Division of Invertebrate Zoology, and 
Professor, Richard Guilder Graduate School, American Museum of 
Natural History; and Dr. Dan Janies, Ph.D., associate 
professor, the Ohio State University, Department of Biomedical 
Informatics, College of Medicine.
    We will start you at 5 minutes to 9:00. You may proceed. We 
will put your statement in the record.
    Mr. Wheeler. Good morning. Chairman Dicks, my name is Ward 
Wheeler, and as chair of the Invertebrate and Zoology Division 
and Professor at the American Museum of Natural History, it is 
a pleasure and honor to testify before you about the global 
spread of emergent infectious disease and human health 
implications of viral evolution. With me today is Dr. Megan 
Cevasco, a research scientist who is actively involved in the 
project.
    The recent emergence of a pandemic influenza and SARS has 
shown that new diseases can affect human populations without 
warning, presenting critical threats to our troops, public 
health and our economic welfare. Rapid genomic sequencing of 
these pathogens has become the primary method by which we 
understand, fight and infer their spread.
    Analysis of these data, however, is difficult, requiring 
new algorithmic approaches and high-performance computation. To 
provide an important basis for forecasting these outbreaks, the 
AMNH has been working over the past several years to apply our 
research expertise in evolution, geography and computation to 
the problems of the emergence and spread of pathogens.
    Recognizing the potential of this work to aid the 
Department of Defense in its goal to prepare for and respond to 
the full range of threats, the AMNH seeks $3.5 million in 
fiscal year 2011 to continue contributing our unique resources 
to the advancement of research in this area. By increasing the 
Nation's capacity to infer where disease outbreaks might occur, 
and to effectively monitor disease-causing agents and their 
global spread, this research works directly to combat 
bioterrorism and to protect both troops in the field and 
civilian populations at home.
    While the AMNH has been a recognized leader in education, 
educating the public on complex scientific issues, many people 
may not realize that we are also an active research and 
training institution, much like a research university, with 
major innovative research programs that are positioned to 
advance the Nation's capacity to prepare for and respond to 
security threats.
    AMNH research staff, who number over 200, publish nearly 
450 scientific articles each year and enjoy a success rate in 
competitive peer-reviewed scientific grants that is 
approximately double the national average. AMNH is also the 
only American museum authorized to grant the Ph.D. degree. Our 
Richard Guilder Graduate School encompasses both a doctoral 
program in comparative biology and long-standing graduate 
training partnerships with such universities as Columbia, 
Cornell and NYU.
    As our research on infectious disease requires biomedical 
expertise, as well as evolutionary and computational expertise, 
AMNH has bonds with Dr. Dan Janies of The Ohio State University 
Medical Center in these efforts. Dr. Janies is here with me 
today and will testify in just a moment.
    First I would like to tell you what we have been able to 
accomplish with DOD support thus far. In fiscal year 2005, DOD 
and the AMNH launched a multifaceted research partnership via 
DARPA that leverages the AMNH's unique expertise and capacity. 
The first phase of this project focused on the development and 
application of a high-performance computational system to study 
the complex conditions that underlie the evolution and spread 
of infectious diseases, specifically analyzing genetic and 
functional changes in hosts and pathogens across time and 
space.
    Concurrently we develop methods to visualize these data by 
projecting an evolutionary tree onto a virtual globe, such as 
Google Earth or NASA Whirlwind, and the resulting 
visualizations are akin to weather maps that show the spread of 
pathogens and their key mutations over time, space and various 
hosts. These maps provide not only situational awareness, but 
also diagnostic and inferential power.
    We are now able to track the global spread of any pathogen 
and can identify for any geographic region sources, 
destinations, mutations and host shifts by pathogens.
    Mr. Dicks. You have got 2 minutes left, so if you are going 
to share any time here, it is 5 minutes for the both of you.
    Mr. Wheeler. We continue work, particularly in influenza. 
And I appreciate the opportunity to speak to you today. I will 
now give the floor to my colleague Dan Janies.
    Mr. Janies. Mr. Chairman, members of the subcommittee, I, 
too, am honored to have been invited to testify today. My name 
is Daniel Janies, and I am an associate professor of biomedical 
informatics at Ohio State. I bring biomedical expertise to the 
project. My efforts have focused on meeting deliverables, 
ensuring that the tools are highly interoperable, and 
communicating our results to military planners, public health 
scientists and policymakers.
    We have engaged in a variety of outreach programs. We have 
conducted workshops and symposia, have published results in 
peer-reviewed scientific journals, results that have been 
covered by journalists in many media. We have testified on 
pandemic influenza before the U.S. Senate Committee on Homeland 
Security and have been invited to present our research to DHS.
    We have also worked with the Department of State on efforts 
to build capacity in public health abroad to foster data 
sharing. We have discussed the evolution of drug resistance and 
pandemic influenza with the White House Office of Medical 
Preparedness. Throughout our partnership, DARPA program 
managers have supported the AMNH's work and made our research 
known to other DOD-supported scientists, have invited 
scientists from the AMNH and Ohio State to participate in 
today's conferences for research, planning and force 
protection.
    Our work moves forward. We plan to continue our outreach 
efforts and plan to hold workshops and symposia annually, as 
well as to rapidly respond to requests for information, 
consultations and briefings.
    As you know, the committee has supported our work over the 
last several years. Should the committee fully support our 
fiscal year 2011 requests, the AMNH will be able to advance to 
the next phase of the project, focusing on more complex 
pathogens and the host side of the infectious disease problem.
    Mr. Dicks. Thank you very much. We will take this under 
very serious consideration.
    [The statement of Mr. Wheeler and Dr. Janies follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.001
    
    [GRAPHIC] [TIFF OMITTED] T6611B.002
    
    [GRAPHIC] [TIFF OMITTED] T6611B.003
    
    [GRAPHIC] [TIFF OMITTED] T6611B.004
    
    [GRAPHIC] [TIFF OMITTED] T6611B.005
    
    Mr. Dicks. Mr. Frelinghuysen.
    Mr. Frelinghuysen. No comment.
    Mr. Dicks. Thank you.
                              ----------                              

                                            Thursday, May 20, 2010.

                          HEART OF A CHAMPION


                                WITNESS

STEVE RIACH, FOUNDER AND BOARD MEMBER, HEART OF A CHAMPION FOUNDATION
    Mr. Dicks. Next is Mr. Steve Riach, founder and board 
member, Heart of a Champion Foundation.
    Mr. Riach, welcome.
    Mr. Riach. Good morning.
    Mr. Dicks. You have 5 minutes. You understand the drill.
    Mr. Riach. Chairman Dicks and distinguished Members, thank 
you. It is an honor for me to be here and provide testimony 
this morning regarding military families and the unique 
challenges that they face, and the unique challenges that we 
face in terms of educating our military families, and the role 
that character-development programs can play, such as our very 
successful Heart of a Champion Program, in meeting those 
challenges.
    We know that 1 million military-connected students today 
are living in what is called a ``new normal'' environment, 
dealing with multiple wartime deployments, lengthy parent-child 
separations, mental illness, injuries and even death. These 
unique stresses can create chaos in the lives of affected 
students and negatively impact their motivation, their grades, 
their behavior, their peer relations, family life and 
graduation rates in military-impacted schools and districts. 
And while each of our Nation's military services has made 
strong covenants to assist families and students, much greater 
support and specialized programs are needed to follow those 
military students into DOD, DEA and non-DOD public school 
systems. Our research has proven that an important part of the 
solution must be character-development programs taught in these 
schools.
    During the past 9 years our Nation has been at war, DODEA 
schools have had to deal with special significant challenges to 
teach our military children. But more than just our military 
bases, schools in districts such as the Killeen Independent 
School District, which, of course, serves Fort Hood, Texas, 
where Active Duty military enrollment can be as much as 80 
percent of that population, they struggle to meet those 
challenges.
    It is my view that character-development programs such as 
ours can be a vital, in fact, necessary, tool to help these 
young children of our servicemen and women deal with the many 
unique stresses they face on a daily basis.
    When we launched Heart of a Champion 14 years ago, started 
by business leaders around the United States who had a desire 
to impact the lives of children in any kind of environment, it 
was our goal to create the finest character-development program 
around that would deliver measurable results. We spent 4 years 
researching with educators around the United States to 
determine what would create the most efficient and effective 
program. And now, since 2001, we have deployed our program in 
24 States, to reaching about a half a million young people in 
any kind of environment you can imagine, public schools, after-
school programs, partnering with people like the Big Brothers/
Big Sisters, Boys and Girls Clubs, and in juvenile justice 
facilities, where we impact students who are--or young people 
who are the most hard-core teen offenders in the United States, 
as well as those who are in the probation system, and 
redirecting them out of the juvenile system.
    So we know that this program works and character education, 
character-development programs work to create change in the 
lives of young people in any type of population. We know it can 
be the same in the population of military families.
    We have seen results that are dramatic. We have seen not 
only attitudinal behavioral changes, we have seen increased 
graduation rates, in some cases as many of 100 percent of 
students in some areas graduating; decreased truancy; decreased 
dropouts; decreased drug and alcohol use, in some cases as much 
as 40 percent; increased grade average; increased test scores.
    We know that what has occurred is in changing the heart of 
the student. We have seen students perform better. We have seen 
them make better life choices.
    Mr. Dicks. The gentleman has 1 minute to summarize, or if 
you want us to ask a question or two.
    So how do you work this with the school? Are you doing this 
with the DOD schools?
    Mr. Riach. Currently not in DOD schools; in public schools.
    Mr. Dicks. But you just do it in public schools that are 
near the bases?
    Mr. Riach. Correct.
    Mr. Dicks. How do you get organized? How do you work it out 
with the local school district?
    Mr. Riach. We work directly with the local school district 
and the individual schools. We train their teachers. Those 
teachers deploy the program in the school. We certify them. 
They deploy it during the class day, in class during the school 
day. And we work with them. We pre- and post-assess and deliver 
measurables, empirical data showing the results that I 
mentioned earlier.
    Mr. Dicks. And do they do after school, too? Is it after 
school as well?
    Mr. Riach. Absolutely. Worked with Big Brothers/Big 
Sisters, Boys and Girls Clubs, a number of after-school 
programs, both on school campus and in the community.
    Mr. Dicks. Any other questions?
    Thank you very much. If you want to summarize.
    Mr. Riach. Thank you.
    I just, in conclusion, would say that if there is anything 
this committee can do to look at the critical need with these 
families and these students, and the deployment of a character 
program that actually works and changes their hearts and helps 
them make better decisions, we will see a decrease in suicides, 
drug and alcohol use and those things that are plaguing young 
people who are military family members in this current day.
    Mr. Dicks. Thank you very much.
    Mr. Riach. Thank you.
    [The statement of Mr. Riach follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.006
    
    [GRAPHIC] [TIFF OMITTED] T6611B.007
    
    [GRAPHIC] [TIFF OMITTED] T6611B.008
    
    [GRAPHIC] [TIFF OMITTED] T6611B.009
    
    [GRAPHIC] [TIFF OMITTED] T6611B.010
    
    [GRAPHIC] [TIFF OMITTED] T6611B.011
    
    [GRAPHIC] [TIFF OMITTED] T6611B.012
    
    [GRAPHIC] [TIFF OMITTED] T6611B.013
    
    [GRAPHIC] [TIFF OMITTED] T6611B.014
    
    [GRAPHIC] [TIFF OMITTED] T6611B.015
    
    [GRAPHIC] [TIFF OMITTED] T6611B.016
    
    [GRAPHIC] [TIFF OMITTED] T6611B.017
    
    [GRAPHIC] [TIFF OMITTED] T6611B.018
    
                                            Thursday, May 20, 2010.

                          LUNG CANCER ALLIANCE


                                WITNESS

LAURIE FENTON-AMBROSE, PRESIDENT AND CEO, LUNG CANCER ALLIANCE
    Mr. Dicks. Laurie Fenton-Ambrose, president and CEO, Lung 
Cancer Alliance. Welcome, Laurie.
    Ms. Fenton-Ambrose. Thank you, Mr. Chairman.
    Mr. Dicks. You have 5 minutes. We will let you know when 
you have 1 minute so you can summarize.
    Ms. Fenton-Ambrose. Thank you very much.
    Dave Hobson also says hello, who I also had the pleasure of 
seeing this morning. So he wanted me to say hello.
    Mr. Dicks. Thank you.
    Ms. Fenton-Ambrose. I am delighted to be here, Mr. 
Chairman, members of the subcommittee. My name is Laurie Fenton 
Ambrose, and I am president and CEO of the Lung Cancer 
Alliance, which is the only national organization that is 
providing patient support and advocacy to those either living 
with or at risk for lung cancer.
    And it is my great privilege to be here to talk with you 
about a program that we had the great pleasure of working to 
see established, along with our former board chairman Admiral 
Phil Coady; and our current board members, former Secretary of 
Transportation Norman Mineta, who is a lung cancer survivor, 
and along with Joe Lopez; and certainly with the late chairman 
John Murtha, who saw the need to create this program to help 
our military men and women who are at greater risk for the 
disease.
    To summarize, lung cancer is a public health epidemic. It 
is the leading cause of cancer deaths among men, among women, 
in every ethnic group, and in our military, conservatively 
speaking, is at a 25 percent higher risk for this disease not 
just because of smoking, but because of exposures to toxins, 
battlefield fuels and the like. It is a disease that, even with 
this proportion of deaths, has received the least amount of 
Federal funding. What we are doing today is to try to ensure 
that a very comprehensive plan of action is brought to bear on 
all of those who are either living with or at risk for this 
disease.
    It is important to note that today, based on CDC surveys, 
60 percent of those with this disease are former smokers, most 
who quit decades ago. Another 20 percent are those who have 
never smoked at all. So what we are faced with is the fact that 
today, tomorrow----
    Mr. Dicks. Is that a different kind of cancer; is that a 
different disease for the people who don't have--who have never 
smoked?
    Ms. Fenton-Ambrose. I wish I could say we knew. There are 
many variations to this disease. We don't have enough research 
to understand why, for example, men and women have differences 
in the type of diagnosis and progression with the disease. But 
it is lung cancer.
    So if you think about the fact that 80 percent of those 
with this disease today, tomorrow and decades to come do not 
have the research to support earlier intervention or certainly 
to have a robust treatment pipeline, no doubt we need tobacco 
control and prevention strategies, but that alone will not 
address those who actually heard the message and quit their 
addiction to ensure that we find it early or then have 
treatments best to manage it.
    This brings us really to why we are here today. Even last 
week the President's Panel on Cancer produced a report about 
the environmental risk factors that highlighted among our 
military exposures that are putting them at greater risk.
    Lung Cancer Alliance has been advocating strongly and 
persistently for a greater focus on our military men and women 
who are at great risk. Whether it is Agent Orange, whether it 
is battlefield fuels, whether it is smoking, our military men 
and women do not deserve to have this disease, and we have 
worked to establish a program within the CDMRP that is focused 
on an early intervention program to help our at-risk military.
    Chairman Murtha was so quick to recognize the need. We are 
grateful that he helped us to establish this in 2007. This is a 
program not intended to duplicate, but rather supplement, the 
research programs under the National Cancer Institute. This has 
a particular focus on the patient and patient outcomes rather 
than the basic science which has been the purview of NCI.
    This patient-oriented, mission-oriented program, if 
properly implemented, will have an immediate impact on our 
high-risk military and quickly lead to other earlier detection 
and improvement of treatments for the entire civilian 
population.
    I have attached supporting documents----
    Mr. Dicks. Thank you.
    Ms. Fenton-Ambrose [continuing]. I am happy to present for 
you today.
    Mr. Dicks. Thank you.
    [The statement of Ms. Fenton-Ambrose follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.019
    
    [GRAPHIC] [TIFF OMITTED] T6611B.020
    
    [GRAPHIC] [TIFF OMITTED] T6611B.021
    
    [GRAPHIC] [TIFF OMITTED] T6611B.022
    
    [GRAPHIC] [TIFF OMITTED] T6611B.023
    
    [GRAPHIC] [TIFF OMITTED] T6611B.024
    
    [GRAPHIC] [TIFF OMITTED] T6611B.025
    
    [GRAPHIC] [TIFF OMITTED] T6611B.026
    
    [GRAPHIC] [TIFF OMITTED] T6611B.027
    
    [GRAPHIC] [TIFF OMITTED] T6611B.028
    
    [GRAPHIC] [TIFF OMITTED] T6611B.029
    
    [GRAPHIC] [TIFF OMITTED] T6611B.030
    
    [GRAPHIC] [TIFF OMITTED] T6611B.031
    
    [GRAPHIC] [TIFF OMITTED] T6611B.032
    
    [GRAPHIC] [TIFF OMITTED] T6611B.033
    
    [GRAPHIC] [TIFF OMITTED] T6611B.034
    
    [GRAPHIC] [TIFF OMITTED] T6611B.035
    
    [GRAPHIC] [TIFF OMITTED] T6611B.036
    
    [GRAPHIC] [TIFF OMITTED] T6611B.037
    
    [GRAPHIC] [TIFF OMITTED] T6611B.038
    
    [GRAPHIC] [TIFF OMITTED] T6611B.039
    
    [GRAPHIC] [TIFF OMITTED] T6611B.040
    
    Mr. Dicks. Any questions?
    Mr. Frelinghuysen. Good to have you back.
    Mr. Dicks. Thank you very much for your testimony. We 
appreciate it. Thank you very much.
                              ----------                              

                                          Thursday, May 20, 2010.  

                           NEUROFIBROMATOSIS


                                WITNESS

KAREN GUNSUL, VICE PRESIDENT, WASHINGTON STATE NEUROFIBROMATOSIS 
    FAMILIES--WSNF
    Mr. Dicks. Karen Gunsul.
    Ms. Gunsul. Good morning.
    Mr. Dicks. Good morning, Karen, welcome.
    Ms. Gunsul. Thank you.
    Mr. Dicks. We will put your statement in the record. You 
have 5 minutes to summarize.
    Ms. Gunsul. I understand.
    I am a business owner from Seattle, Washington.
    Mr. Dicks. Well, welcome.
    Ms. Gunsul. Thank you. Your whole State said hello.
    I am representing the Washington State Neurofibromatosis 
Families and a national coalition of States under NF, Inc. We 
are asking for $20 million to continue the Army's highly 
successful peer-reviewed Neurofibromatosis Research Program. I 
am also the mother of a 17-year-old son Sam who has NF.
    Neurofibromatosis, if you don't know, is a genetic disorder 
involving uncontrolled tumor growth along the nervous system, 
which can result in a variety of symptoms; disfigurement, 
deformity, deafness, blindness, brain tumors, cancer and/or 
death. NF is not rare.
    Mr. Dicks. Is it a lung disease, too?
    Ms. Gunsul. No, not yet, but it does cause tumors to grow 
anywhere along nerve pathways, so it can be. You just don't 
know when and where it is going to strike. It is more common 
than muscular dystrophy and cystic fibrosis times three. It is 
not as widely known because for years it has been poorly 
diagnosed, and approximately 100,000 Americans currently have 
NF, and it occurs in 1 in 2,500 births.
    It strikes worldwide without regard to gender or race, and 
approximately 55 percent of those cases are spontaneous 
mutations of genes, such as my son's. We have no history of NF 
in our family, and 50 percent of the cases are inherited.
    There are two types of NF, NF1, which is more common, that 
my son has, and NF2, which primarily causes deafness, tumors 
that affect the ears and balance problems.
    When my son was diagnosed in 1996, I learned as much as I 
possibly could about neurofibromatosis, and the one thing that 
stood out to me is that there are no known treatments and no 
known cure. And 14 years ago that was tough news to take.
    While there are broad implications for the general public, 
the Army can see direct military application. Research on NF 
stands to benefit the military because this disorder is closely 
linked to cancers, brain tumors, learning disabilities, brain 
tissue degeneration, nervous system degeneration, deafness, 
memory loss and balance. And because NF manifests in the 
nervous system, findings generated by the Army-supported 
research on NF address peripheral nerve regeneration. This is 
very important to understand for wound healing and war-related 
illnesses.
    In recognizing NF's importance to both the military and to 
the general population, Congress has given the Army's NF 
program strong bipartisan support for years. After the initial 
3-year grants were successfully completed, Congress 
appropriated continued funding for the Army NF research program 
on an annual basis. From fiscal year 1996 through now, this 
funding has amounted to $214 million in addition to the 
original $8 million, 3-year grant. These grants, through the 
Army program, reach across all 50 States, and they are highly 
regarded in the medical community.
    There are currently five clinical trial sites located 
across the country, and they are all coordinated and monitored 
through the Huntsville, Alabama, central site. The Army program 
funds innovative, groundbreaking research which would not 
otherwise have been pursued.
    At our last meeting with Army officials administering the 
program, they indicated that they could easily fund more 
applications if funding were available because of the high 
quality of the applications received. They stated they felt 
they were turning away good science.
    In order to ensure maximum efficiency, the Army 
collaborates closely with other Federal agencies that are 
involved in NF research, National Institutes of Health. They 
have several members of the National Institute of Neurological 
Disorders and Stroke. The NINDS group sits on the Army's NF 
Integration Panel----
    Mr. Dicks. You have 1 minute.
    Ms. Gunsul. Thanks--which sets the oversight and long-term 
vision strategies for the program.
    The results from this program have been fast, and we are 
right on the brink of some very exciting findings.
    The difference was brought home to me personally last 
month. After my son had three very large tumors removed from 
his left leg, I sat down with Sam's surgeon, and we discussed 
potential therapies that are now right on the horizon for 
restricting tumor growth and stopping the formation of tumors.
    The science is real, and we are very excited by the 
potential. We are asking for $20 million to continue the Army's 
important NF research. It is money well spent. Thank you.
    Mr. Dicks. Thank you very much. We appreciate your 
testimony.
    [The statement of Ms. Gunsul follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.041
    
    [GRAPHIC] [TIFF OMITTED] T6611B.042
    
    [GRAPHIC] [TIFF OMITTED] T6611B.043
    
    [GRAPHIC] [TIFF OMITTED] T6611B.044
    
    [GRAPHIC] [TIFF OMITTED] T6611B.045
    
    Mr. Dicks. Any questions? Thank you. Thank you very much.
                              ----------                              --
--------

                                            Thursday, May 20, 2010.

                   MELANOMA RESEARCH FOUNDATION (MRF)


                                WITNESS

MARTIN A. WEINSTOCK, M.D., PH.D., PROFESSOR OF DERMATOLOGY AND 
    COMMUNITY HEALTH, BROWN UNIVERSITY ALPERT MEDICAL SCHOOL
    Mr. Dicks. Martin A. Weinstock, M.D., Ph.D., professor of 
dermatology and community health, Brown University. Welcome.
    Dr. Weinstock. Thank you very much, Mr. Chairman, for the 
opportunity to testify before you. I am here representing 
melanoma research and the Melanoma Research Foundation, which 
is the largest independent national organization devoted to 
melanoma in the United States.
    Mr. Chairman, I am requesting $10 million for melanoma 
research in fiscal year 2011 defense appropriations bill 
through the Peer-Reviewed Cancer Research Program within the 
Defense Health Account.
    Melanoma, as you may know, is a type of cancer which nearly 
always arises in the skin. Invasive melanoma affects nearly 
70,000 Americans every year, and about 9,000 of those die every 
year. I met the sister of one of those people who succumbed to 
melanoma just last year about an hour ago, just coming to 
Washington, D.C. It is actually quite common. That is actually 
about one an hour dying from this disease.
    It has been increasing over time. At a time when most 
cancers are decreasing in incidence and mortality, melanoma is 
increasing. It is the most rapidly increasing of any of the 
common types of cancer. And, indeed, since about the 1930s, 
when we started collecting these data, melanoma had an incident 
rate that has increased twentyfold. That's not 20 percent, that 
is 2,000 percent, twentyfold since that time.
    Melanoma also, compared to other cancers, tends to affect 
younger adults. So people in the 25- to 29-year age group, it 
is the most common cancer in the United States in that age 
group.
    We have learned in recent years through the various 
research that has gone that, in fact, melanoma is more than 
just one disease, it is multiple diseases. The most common 
types of melanoma are related to intense ultraviolet radiation 
exposure from the sun or from artificial sources either in 
childhood or in the early adult years. This is the type of 
exposure that our military has.
    Also, many people who are afflicted by melanoma are, 
indeed--have the type of melanoma that is related to cumulative 
ultraviolet exposure either from the sun or artificial sources 
over the course of their lives. So recent exposure is 
important. For many people, the most common type of melanoma, 
it is early adult life and childhood exposure.
    So the connection to the military, obviously, is obviously 
very important, because we put our military men and women in 
areas of intense sun exposure, and that has been linked to 
increased risk of melanoma. There are some recent publications 
to that effect, and we know the etiology of melanoma, so that 
that is an important risk factor.
    In order to appropriately treat those people, we need to 
detect those melanomas early, and for those that aren't 
detected early enough, we need to find a cure.
    So right now we have about 150,000 Army National Guard, 
Coast Guard, Air Force and Marines in Iraq where the intensity 
of sun exposure is quite great, and that is common, such as in 
Vietnam in years past, and it generates melanomas in these 
people years after their service.
    Mr. Dicks. You have 1 minute to summarize.
    Dr. Weinstock. Okay. So basically the peer-review cancer 
research----
    Mr. Dicks. Can I ask a question?
    Dr. Weinstock. Sure.
    Mr. Dicks. Why hasn't the National Cancer Institute funded 
this? I just don't understand why melanoma, which is a very 
serious cancer, would not get more attention from the National 
Cancer Institute. Is there an answer to that?
    Dr. Weinstock. Well, I can say that there is some funding 
from the National Cancer Institute, but more is needed. I can't 
answer why in their wisdom they have decided not to increase 
levels. I can just say that the Peer-Reviewed Cancer Research 
Program established in fiscal year 2009 is specifically geared 
towards this purpose, which uniquely affects members who have 
served in the military, and so we respectfully request $10 
million for melanoma research.
    Mr. Dicks. Thank you very much. We appreciate your 
testimony.
    [The statement of Dr. Weinstock follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.046
    
    [GRAPHIC] [TIFF OMITTED] T6611B.047
    
    [GRAPHIC] [TIFF OMITTED] T6611B.048
    
    [GRAPHIC] [TIFF OMITTED] T6611B.049
    
    Mr. Dicks. Any questions?
                              ----------                              --
--------

                                            Thursday, May 20, 2010.

              THE NATIONAL ASSOCIATION TO PROTECT CHILDREN


                                WITNESS

DAVID KEITH, SPOKESPERSON
    Mr. Dicks. David Keith, National Association to PROTECT 
Children.
    Mr. Keith. Thank you, Mr. Chairman and distinguished 
members, for giving me this opportunity to speak to you.
    Mr. Chairman, in 1980, when you and I were 26, I enjoyed 
filming An Officer and a Gentleman in your district.
    Mr. Dicks. Great movie, one of the best. Port Townsend. I 
was there last weekend.
    Mr. Keith. It is a beautiful place. I understand that----
    Mr. Dicks. Rhododendron Festival.
    Mr. Keith. I understand that hotel, that motel room, 
tourists come to see where I hung myself in that thing. Pretty 
weird.
    I want to come and tell you about what I have decided to do 
with the final chapter of my life. The members of this 
committee remember how shocked and appalled Americans were to 
see the graphic photographs of cruelty and abuse in the Iraqi 
prison Abu Ghraib.
    I ask for your full attention now as I describe something 
much, much worse. Those Abu Ghraib photos are eclipsed in 
volume and savagery by the millions of images of little 
children being raped, tortured, sodomized and bleeding that 
flood the Internet to fill the bottomless appetite of a global 
pedophile marketplace.
    Child exploitation is the great blind spot to a homeland 
security focused on protecting our ports, financial assets and 
intellectual property, but is bafflingly oblivious to 
international criminal networks soliciting the filmed abuse of 
American children. Children in the U.S. military families are 
no exception.
    A 2008 investigation by the London Times delivered a 
stunning indictment to our cybersecurity response when it 
reported British officials had found secret coded messages 
between terrorists embedded in child pornographic images and 
pedophilic Web sites because this is ``a secure way of passing 
information between terrorists.''
    Internet-facilitated child exploitation is investigated by 
four military criminal investigative organizations in each 
military branch, or MCIOs. These MCIOs do their best, but their 
capacity is a national disgrace. Only half a dozen of their 
investigators are trained and ready to conduct on-line 
investigations, about the size of the police force of Forks, 
Washington, Mr. Chairman, to protect the entire U.S. military. 
This small ghost patrol knows the locations of hundreds of 
child exploitation suspects and their victims in the U.S. right 
now, but they cannot take action due to sheer lack of 
resources.
    Last month PROTECT coordinated a meeting of the best and 
the brightest. At a table here in Washington were Federal and 
State law enforcement agents, computer scientists from Oak 
Ridge National Laboratory and Cray Computer, makers of the 
world's most powerful supercomputers. Since that meeting those 
partners began a research and development project that could 
dramatically change the game for law enforcement.
    The one indispensable partner not participating is the 
United States Government. In addition to underfunded MCIOs, the 
ICE Cyber Crimes Center, C3, took crippling budget cuts this 
year. DOJ lags far behind, leaving the National Internet Crimes 
Against Children Data System, NIDS, and the PROTECT Our 
Children Act, which reshaped our national child exploitation 
response, unfunded. Shame on us.
    Modest emergency funding from this Congress is a simple----
    Mr. Dicks. This is in the Justice Department budget; is 
that what you are saying?
    Mr. Keith. I realize that part of these things are outside 
of this committee.
    Mr. Dicks. No, no. We are not being critical of your 
pointing this out. We just want to get your ideas.
    Mr. Keith. Yes, sir. I understand that. Thank you.
    A modest emergency funding from this Congress and a simple 
three-pronged attack will significantly advance the war against 
child predators in the military and those attacking our 
homeland; provide at least $2 million in defense funding to the 
four military criminal investigation organizations for 
investigation of child exploitation, the development and 
deployment of new technology; provide at least 10 million in 
Homeland Security funding to ICE Cyber Crimes Center for the 
specific purpose of research and development in high-speed 
computing and related technology; provide at least 2 million in 
Justice funding for the implementation of the NIDS computer 
platform as authorized by the PROTECT Our Children Act of 2008.
    I understand that two of these proposals for funding are 
beyond the purview of this subcommittee; however, no piecemeal 
attack will be an effective or an efficient use of precious 
taxpayer dollars, and I ask each of you to champion this simple 
three-pronged solution with the full House Appropriations 
Committee.
    Finally, let me share one other project that PROTECT is 
working on that is gathering congressional momentum. The Hero 
to Hero bill will provide financial assistance and training to 
returning and disabled veterans, allowing them to transition 
into jobs combating child exploitation and abuse, allowing them 
literally to go from hero to hero.
    Since the dawn of history, men have gone off to war 
understanding that they were leaving behind what they held most 
dear. Protecting our children and our families are why we 
fight, and it is why we are all here today. Given our children 
face this clear and present danger, we cannot fund wars 
overseas without first funding this war at home. It will take 
your leadership right now to make that happen.
    Thank you.
    Mr. Dicks. Thank you. You make a very compelling statement.
    [The statement of Mr. Keith follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.050
    
    [GRAPHIC] [TIFF OMITTED] T6611B.051
    
    [GRAPHIC] [TIFF OMITTED] T6611B.052
    
    [GRAPHIC] [TIFF OMITTED] T6611B.053
    
    [GRAPHIC] [TIFF OMITTED] T6611B.054
    
    Mr. Dicks. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you.
    Mr. Dicks. Any of my colleagues have any questions?
    Mr. Moran. I should be sitting down there. Nice to see you, 
David.
    He really has been working hard, and he is trying to get an 
across-the-board approach to this issue. It is very convincing 
testimony.
    Thank you.
    Mr. Dicks. Thank you. We appreciate your good work. I hope 
you get back to Port Townsend or Forks.
                              ----------                              --
--------

                                            Thursday, May 20, 2010.

       AMERICAN SOCIETY OF TROPICAL MEDICINE AND HYGIENE (ASTMH)


                                WITNESS

DR. BERMAN, AMERICAN SOCIETY OF TROPICAL MEDICINE AND HYGIENE (ASTMH)
    Mr. Dicks. Dr. Berman, American Society of Tropical 
Medicine and Hygiene.
    Thank you, Dr. Berman, you have 5 minutes to present your 
statement and summarize.
    Colonel Berman. Thank you, Mr. Chairman. I am Dr. Berman, 
Colonel, United States Army Medical Corps, Retired, 
representing the American Society of Tropical Medicine and 
Hygiene, which is the principal professional medical 
organization in the United States and actually in the world for 
tropical medicine and global health. ASTMH represents 
physicians, researchers, epidemiologists and other health 
professionals dedicated to the control and prevention of 
tropical diseases.
    Because the military operates in so many tropical regions, 
reducing the risk that tropical diseases present to service 
personnel is critical to mission success. Malaria and other 
insect-transmitted diseases, such as leishmaniasis and dengue, 
are particular examples of this. Antimalarial drugs have saved 
countless lives throughout the world, including troops serving 
in tropical regions during World War II, Korea and Vietnam. The 
U.S. military has taken a primary role in the development of 
antimalarial drugs, and nearly all antimalarial drugs and most 
promising vaccines to date were developed, at least in part, by 
U.S. military researchers.
    Three hundred fifty million people are at risk of 
leishmaniasis in 88 countries; 12 million are currently 
infected. Leishmaniasis was a particular problem for Operation 
Iraqi Freedom as a result of which 700 American service 
personnel became infected.
    Because of leishmaniasis's prevalence in Iraq and Southwest 
Asia in general, the DOD has spent large resources on this 
disease, and DOD personnel are the leaders in development of 
new antileishmanial drugs. I might add both for malaria and 
leishmaniasis, I count or did count am still counting as one of 
those leadership personnel.
    Dengue is the leading cause of illness and death in the--a 
leading cause in the tropics and subtropics. One hundred 
million people are affected yearly. Although dengue rarely 
occurs in the continental United States, it is endemic in 
Puerto Rico, many tourist destinations, and periodic outbreaks 
occur in Samoa and Guam.
    The intersection of militarily important diseases and 
tropical medicine is the reason that 15 percent of ASTMH 
members are also members of the military. For this reason we 
respectfully request that the subcommittee expand funding for 
the DOD's long-standing and successful efforts to develop new 
drugs, vaccines and diagnostics to protect servicemen and women 
from malaria and tropical diseases.
    Specifically we request that in fiscal year 2011 the 
subcommittee ensure 70 million to DOD to support its infectious 
disease research efforts through USAMRIID, WRAIR and NMRC. 
Presently DOD funding for this important research is about 47 
million. To keep up with biomedical inflation, fiscal year 2011 
funding needs to be 60 million, and to fill the gaps that have 
been created by underfunding, ASTMH urges Congress to fund DOD 
ID research at 70 million in fiscal year 2011.
    We very much appreciate the subcommittee's consideration of 
our views. We stand ready to work with the committee and staff 
on these and other tropical disease matters.
    Thank you.
    Mr. Dicks. Thank you very much for your statement.
    [The statement of Ms. Finney follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.055
    
    [GRAPHIC] [TIFF OMITTED] T6611B.056
    
    [GRAPHIC] [TIFF OMITTED] T6611B.057
    
    [GRAPHIC] [TIFF OMITTED] T6611B.058
    
    [GRAPHIC] [TIFF OMITTED] T6611B.059
    
    [GRAPHIC] [TIFF OMITTED] T6611B.060
    
    Mr. Dicks. Karen Mason, Ovarian Cancer National Alliance. 
Good morning, and you have 5 minutes to summarize. Your 
statement will be put in the record.
    Ms. Mason. Good morning, Mr. Chairman, ranking member and 
members of the subcommittee. I am honored to appear before you 
in support of the Ovarian Cancer National Alliance's request of 
$30 million for the Department of Defense Ovarian Cancer 
Research Program.
    My name is Karen Mason, and I am an intensive care nurse 
from Pitman, New Jersey. I also serve as an Integration Panel 
member of the Ovarian Cancer Research Program, which I will 
refer to as the OCRP for the rest of my testimony.
    As a 9-year survivor of late-stage ovarian cancer, I feel a 
strong sense of responsibility to my community and sit before 
you today as the voice of all women with this disease, past, 
present and future. It is my hope that today I can beseech you 
to share this responsibility to fund research conducted by the 
OCRP to find new treatments and an early detection for women 
with or at risk of ovarian cancer.
    This year approximately 20,000 women will be diagnosed with 
ovarian cancer; 15,000 women will die of this disease. Ovarian 
cancer has no tests, like the mammogram for breast cancer or 
the Pap test for cervical cancer. Because there is no reliable 
early detection test, women must rely on their and their 
doctors's knowledge of ovarian cancer symptoms. However, most 
women and even their doctors do not know the symptoms of 
ovarian cancer, which are bloating, pelvic or abdominal pain, 
urinary urgency or frequency, difficulty eating or feeling full 
quickly. These symptoms are often confused with less 
threatening conditions.
    Unfortunately, even with symptom awareness, by the time a 
woman has symptoms, she will already have late-stage cancer. 
Two out of three women with ovarian cancer are diagnosed when 
their cancer is late stage, as mine was.
    Care and treatments are brutal and consist of long 
debulking surgeries followed by months of chemotherapies. Even 
when the initial treatment response seems positive, around 70 
to 95 percent of women diagnosed at stages 3 or 4 will have a 
recurrence.
    During my 9 years of survivorship, I have befriended many 
women who also had late-stage ovarian cancer. One by one I have 
watched most of these women die. Today, in the Delaware Valley, 
I know of no other woman diagnosed at a late stage who has 
survived as long as I have. I still speak to women newly 
diagnosed to offer them hope, but now I must hold a piece of my 
heart in reserve.
    The OCRP has one bold aim, to eliminate ovarian cancer. 
Since 1997, the OCRP has funded out-of-the-box, innovative 
research focused on detection, diagnosis, prevention and 
control of ovarian cancer. Many of the funded proposals can be 
characterized as high risk and high reward. Although we take 
risks in the research we fund, we believe that investing in 
innovative research will result in great breakthroughs in the 
fight against ovarian cancer.
    The OCRP is also special in that it involves patient 
advocates at all levels. I have volunteered my time for the 
past 3 years to serve as an Integration Panel member for the 
OCRP. I work alongside physicians, scientists and other patient 
advocates, and together we select proposals we think merit 
funding. Patient advocates hold equal weight with the 
scientists and physicians when funding proposals and deciding 
the program's vision for the future.
    Mr. Dicks. You have 1 minute.
    Ms. Mason. The OCRP needs increased funding. This spring we 
have received approximately 350 preapplications. In the end we 
will only be able to fund approximately 32 full proposals. The 
ovarian cancer community worries that the cure could be heading 
into the trash can. Only with increased funding can the OCRP 
grow and continue to contribute to the fight against ovarian 
cancer.
    The ovarian cancer community was very disappointed last 
year when our funding was cut from 20 million to 18.75 million 
for 2010. This cut is shocking when you consider our mortality 
has not decreased, and new treatments and an early detection 
test are so desperately needed. By increasing our funding to 30 
million for 2011 so that more research can be carried out, we 
not only help women in battling the deadly beast, but the 
future generations of women at risk for having ovarian cancer.
    Thank you again for this opportunity.
    Mr. Dicks. Thank you for your statement. You make a very 
compelling case.
    Ms. Kilpatrick.
    Ms. Kilpatrick. Thank you, Mr. Chairman, and thank you for 
your testimony. I understand you are a registered nurse.
    Ms. Mason. Yes.
    Ms. Kilpatrick. You are 9 years----
    Ms. Mason. Yes, of late stage.
    Ms. Kilpatrick. And I am sure you have seen in your career 
what procedures, medications allowed you to resist.
    Ms. Mason. I think that my initial surgery that was done in 
a major cancer center was just long and tedious, and the 
doctors stayed there and removed every bit of cancer. Ovarian 
cancer has a way of spreading like Rice Krispies throughout 
your abdomen and pelvis. And once the big tumors are removed, 
the physician then has to spend hours picking out all these 
little tiny pieces.
    Ms. Kilpatrick. So then the people who have this disease 
obviously are not getting the proper care?
    Ms. Mason. Well, my long surgery was followed by months of 
chemotherapy. I think that my own particular body was very 
sensitive to the chemotherapy drugs. There aren't many women 
like me. I was extremely lucky, and I do feel a great sense of 
responsibility to help change, you know, the facts of this 
cancer.
    And although cancer survival rates have improved since the 
war on cancer was declared for ovarian cancer, that is not 
true. We are kind of basically where we were 40, 50 years ago.
    Ms. Kilpatrick. I am with you on that. I look forward to 
following up.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Frelinghuysen.
    Mr. Frelinghuysen. I just wanted to thank you, Ms. Mason. I 
work pretty closely with Kaleidoscope of Hope and Paint the 
Town Teal, and there is a critical mass up there which I think 
is spreading the message. Thank you for being here.
    Ms. Mason. Thank you.
    [The statement of Ms. Mason follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.061
    
    [GRAPHIC] [TIFF OMITTED] T6611B.062
    
    [GRAPHIC] [TIFF OMITTED] T6611B.063
    
    [GRAPHIC] [TIFF OMITTED] T6611B.064
    
    [GRAPHIC] [TIFF OMITTED] T6611B.065
    
    [GRAPHIC] [TIFF OMITTED] T6611B.066
    
    [GRAPHIC] [TIFF OMITTED] T6611B.067
    
                                            Thursday, May 20, 2010.

                   SOCIETY OF GYNECOLOGIC ONCOLOGISTS


                                WITNESS

DANIEL L. CLARKE-PEARSON, M.D., PRESIDENT, SOCIETY OF GYNECOLOGIC 
    ONCOLOGISTS, PROFESSOR AND CHAIR, OBSTETRICS AND GYNECOLOGY, 
    UNIVERSITY OF NORTH CAROLINA MEDICAL SCHOOL, CHAPEL HILL, NORTH 
    CAROLINA
    Mr. Dicks. Our next witness is Daniel L. Clarke-Pearson, 
M.D., president, Society of Gynecologic Oncologists. Thank you, 
sir, welcome.
    Dr. Clarke-Pearson. Thank you. Good morning, Mr. Chairman 
and members of the subcommittee. Thank you for inviting me to 
testify at today's hearing.
    My name is Daniel Clarke-Pearson. I am a physician and 
president of the Society of Gynecologic Oncologists. The 
Society of Gynecologic Oncologists is a national medical 
specialty organization of physicians who are trained in the 
comprehensive management of women with malignancies of the 
reproductive tracts, such as ovarian cancer. Our purpose is to 
improve the care of women with gynecologic cancers by 
encouraging research, raising the standards of practice, 
disseminating knowledge, and the prevention and treatment of 
gynecologic malignancies.
    I also practice medicine at the University of North 
Carolina in Chapel Hill, where I am a professor in the School 
of Medicine, and I am the chairman of the department of 
obstetrics and gynecology. A large part of my clinical practice 
is committed to the care of women with ovarian cancer.
    I am honored to be here and pleased that this subcommittee 
is focusing its attention on the Department of Defense 
Congressionally Directed Medical Research Program in Ovarian 
Cancer, OCRP.
    As this subcommittee may know, ovarian cancer causes more 
deaths than any other cancers of the female reproductive tract. 
One of our biggest challenges lies in the fact that only 19 
percent of all ovarian cancers are detected in a localized 
stage when the 5-year survival rate is about 90 percent.
    Unfortunately, as Ms. Mason just said, most ovarian cancer 
is diagnosed at a late stage when the cancer is spread 
throughout the abdomen and pelvis. In these cases the 5-year 
survival is only about 30 percent. We, the members of SGO, 
along with out patients who are battling ovarian cancer, depend 
on the DOD OCRP research funding. It is through this research 
funding that a screening and early detection method for ovarian 
cancer can be identified. Therefore, the SGO respectfully 
recommends that the subcommittee provide DOD OCRP with a 
minimum of $30 million for Federal funding in fiscal year 2011.
    Since its inception, the DOD OCRP has funded 209 research 
grants totaling more than $140 million in funding. The common 
goal of these research grants has been to promote innovative, 
integrated and multidisciplinary research that will lead to 
prevention and early detection and ultimate control of ovarian 
cancer.
    Much has been accomplished in the last decade to move us 
forward. In my home State of North Carolina, DOD OCRP has 
funded research on important questions such as the designing of 
personalized cancer treatments that may prolong survival based 
on individual cancer gene expression. We are also looking to 
adapt a radiology imaging technique used successfully in 
prostate cancer to potentially detect early ovarian cancers.
    Mr. Chairman, in your home State of Washington, the DOD 
OCRP has funded five grants in the last 5 years either at the 
University of Washington or at the Hutchinson Cancer Center, 
looking at questions such as the development of tests to detect 
new small molecules in blood that are present in high levels in 
early ovarian cancers that might be used for early ovarian 
cancer detection.
    Another research project is examining the entire human 
genome in women, searching for genes or other groups of genes 
that may cause ovarian cancer in a familial inheritance rather 
than just focusing just on BRCA genes, and also developing an 
infrastructure for the collection and storage and testing of 
new biomarker blood tests.
    In Ranking Member Young and Mr. Boyd's State of Florida, 
nine grants have been funded since the inception of OCRP. These 
have contributed much to ovarian cancer research enterprise, 
specifically through the creation of a model of ovarian cancer 
in mice that allows the evaluation of the interaction of gene 
mutations in female hormones, and through studies to determine 
whether a gene, Bcl-2, which is expressed in ovarian cancer, 
can be used as a novel marker for early detection.
    Mr. Dicks. You have 1 minute to wrap it up.
    Dr. Clarke-Pearson. Yes, sir.
    Mr. Dicks. But you are doing very well.
    Dr. Clarke-Pearson. These examples of achievement are 
obscured to a great degree by opportunities that have been 
missed because of underfunding.
    The program's success has been documented in numerous ways, 
including 469 publications in professional journals, 576 
abstracts and presentations, and 24 patents and applications.
    The Society of Gynecologic Oncologists joins with the 
Ovarian Cancer National Alliance and the American Congress of 
Obstetricians and Gynecologists to urge this subcommittee to 
increase Federal funding at a minimum to $30 million in fiscal 
year 2011. I thank you for your leadership and the leadership 
of the subcommittee on this issue.
    Mr. Dicks. Thank you for your statement. We appreciate it 
very much.
    Ms. Kilpatrick.
    Ms. Kilpatrick. Thank you very much.
    How are you funded? How is the society funded?
    Dr. Clarke-Pearson. Mostly membership dues and fees for our 
annual meeting.
    Ms. Kilpatrick. And the OCRP is funded----
    Dr. Clarke-Pearson. Yes, in terms of developing projects. 
Of course, the National Cancer Institute as well funds some 
research by our members.
    Ms. Kilpatrick. Thank you.
    Thank you, Mr. Chairman.
    Mr. Dicks. Thank you.
    [The statement of Dr. Clarke-Pearson follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.068
    
    [GRAPHIC] [TIFF OMITTED] T6611B.069
    
    [GRAPHIC] [TIFF OMITTED] T6611B.070
    
    [GRAPHIC] [TIFF OMITTED] T6611B.071
    
    [GRAPHIC] [TIFF OMITTED] T6611B.072
    
    [GRAPHIC] [TIFF OMITTED] T6611B.073
    
    [GRAPHIC] [TIFF OMITTED] T6611B.074
    
    [GRAPHIC] [TIFF OMITTED] T6611B.075
    
    [GRAPHIC] [TIFF OMITTED] T6611B.076
    
    [GRAPHIC] [TIFF OMITTED] T6611B.077
    
    [GRAPHIC] [TIFF OMITTED] T6611B.078
    
                                            Thursday, May 20, 2010.

          AMERICAN COLLEGE OF OBSTETRICIANS AND GYNECOLOGISTS


                                WITNESS

MARY F. MITCHELL, SENIOR DIRECTOR OF PROFESSIONALISM AND GYNECOLOGIC 
    PRACTICE, AMERICAN COLLEGE OF OBSTETRICIANS AND GYNECOLOGISTS
    Mr. Dicks. Mary F. Mitchell, American College of 
Obstetricians and Gynecologists. We will put your entire 
statement in the record, Mary, and you have 5 minutes to 
summarize.
    Ms. Mitchell. Mr. Chairman, ranking member and members of 
the subcommittee, thank you for inviting me to testify at 
today's hearing. My name is Mary Mitchell, and I am the Senior 
Director of Professionalism and Gynecologic Practice at the 
American College of Obstetricians and Gynecologists. I am here 
today on behalf of the college's companion organization, the 
American Congress of Obstetricians and Gynecologists, or ACOG, 
representing more than 54,000 physicians and partners in 
women's health. The gynecologist is often the first health care 
provider a woman sees, and ACOG and its fellows are committed 
partners in the fight against gynecologic cancer.
    This morning I will outline the great need for research 
into all aspects of ovarian cancer and some of the important 
contributions made by the Department of Defense Congressionally 
Directed Medical Research Program in ovarian cancer, the OCRP.
    These needs and the contributions of the OCRP lead ACOG to 
respectfully request a minimum of $30 million in Federal 
funding for the OCRP in fiscal year 2011. We believe that the 
unique structure of the program and its success in funding 
innovation combine to yield a high return on the Federal 
financial investment.
    In the more than 30 years since passage of the National 
Cancer Act, ovarian cancer mortality rates have not 
significantly improved. In large part this is because we do not 
have a reliable screening test for ovarian cancer. Without this 
critical tool, ovarian cancer, as you have heard, is too often 
diagnosed in a late stage when the 5-year survival rate is only 
29 percent. And, as you have heard from Ms. Mason, 13,000 women 
die each year from ovarian cancer.
    In contrast, since the 1950s, we have had an effective 
screen for cervical cancer, the Pap test, which has reduced 
mortality from cervical cancer by over half in the past 30 
years. We need a test like the Pap test for ovarian cancer, and 
the research supported by DOD's OCRP can help us get there.
    Unfortunately, inadequate funding is a barrier to 
scientific progress. At the National Institutes of Health and 
the Centers for Disease Control and Prevention, funding for 
ovarian cancer research has not kept pace with inflation. Even 
in the DOD medical research program, ovarian cancer research is 
significantly underfunded relative to other cancers, and, as 
you have heard, funding was cut to $18.75 million in fiscal 
year 2010.
    We recognize the challenges of funding research, given so 
many competing demands, but we believe that the OCRP's flexible 
and collaborative approach ensures that the maximum value is 
gained for the dollars spent through Federal appropriations. 
Through the Integration Panel structure mentioned by Ms. Mason, 
the OCRP is able to actively manage and evaluate its current 
grant portfolio and fill gaps in ongoing research at other 
agencies. With seed money from the OCRP, possible research 
strategies are efficiently reviewed, and then the most 
promising can be funded by other agencies. Collaboration is one 
reason the OCRP is so effective.
    Mr. Dicks. You have 1 minute, ma'am.
    Ms. Mitchell. The new Ovarian Cancer Academy for junior 
faculty will allow early career researchers to optimize the 
pace of their career development, and the Consortium Award will 
bring together researchers from multiple institutions to study 
the early signs of ovarian cancer.
    The OCRP has been an unqualified success, but as you have 
heard from other speakers, the current level of funding allows 
only a fraction of the approved proposals to actually receive a 
grant. ACOG joins with the American Society of Gynecologic 
Oncologists and Ovarian Cancer National Alliance to urge this 
subcommittee to increase Federal funding for the OCRP to at 
least $30 million in fiscal year 2011 and allow for the further 
development of discoveries and research breakthroughs achieved 
in the first 13 years of this program.
    We thank you very much for your leadership.
    Mr. Dicks. Thank you. Thank you for your testimony.
    [The statement of Ms. Mitchell follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.079
    
    [GRAPHIC] [TIFF OMITTED] T6611B.080
    
    [GRAPHIC] [TIFF OMITTED] T6611B.081
    
    [GRAPHIC] [TIFF OMITTED] T6611B.082
    
    [GRAPHIC] [TIFF OMITTED] T6611B.083
    
    [GRAPHIC] [TIFF OMITTED] T6611B.084
    
    [GRAPHIC] [TIFF OMITTED] T6611B.085
    
    [GRAPHIC] [TIFF OMITTED] T6611B.086
    
    Mr. Dicks. Michelle Galvanek, The Leukemia & Lymphoma 
Society. Thank you, Michelle. We will put your statement in the 
record. You have 5 minutes to summarize.
                              ----------                              --
--------

                                            Thursday, May 20, 2010.

                    THE LEUKEMIA & LYMPHOMA SOCIETY


                                WITNESS

MICHELLE GALVANEK
    Ms. Galvanek. Thank you. Good morning, Mr. Chairman and 
members of the subcommittee. My name is Michelle Galvanek, and 
I am a volunteer with the Leukemia & Lymphoma Society. And I 
would like to thank you for allowing me to testify today on 
behalf of the LLS and the thousands of blood cancer patients we 
serve. Since 1949, the Society has been dedicated to finding a 
cure for blood cancers. To that end, in fiscal year 2009, the 
Society provided approximately $69 million in research grants. 
A number of our grant recipients also received funds from the 
National Institute of Health, private foundations and the 
Department of Defense. The funding from the Department of 
Defense is through the congressionally directed medical 
research program.
    For fiscal year 2011, the Leukemia & Lymphoma Society, 
along with other cancer groups, the C3 Colorectal Cancer 
Coalition, the Kidney Cancer Association, the International 
Myeloma Foundation, the Lymphoma Research Foundation, and the 
Vietnam Veterans of America support the peer reviewed cancer 
research program and request it to be funded at $50 million in 
fiscal year 2011.
    Additionally, we request that the program fund research 
into the same cancers it did in 2010, namely blood, kidney, 
colorectal, pediatric brain and melanoma. I know firsthand 
about the benefits of research as my husband is an 11-year 
leukemia survivor. The LOS supports the inclusion of all 5 
cancers in the PRCR, and particularly blood cancer. The reasons 
for having a blood cancer research program at the DOD are the 
benefits such a program would have for military service members 
and the fact that blood cancer research has led to break 
throughs in the treatment of other cancers. Civil agencies in 
the Federal Government have recognized the importance of blood 
cancers to those who serve in our military.
    For example, the Department of Veterans Affairs has 
determined that service members who have been exposed to 
ionizing radiation and contract multiple myeloma, non-Hodgkin 
lymphoma or leukemia other than chronic lymphocytic leukemia 
are presumed to have contracted those diseases as a result of 
their military service. Secondly, in-country Vietnam veterans 
who contract Hodgkin's disease, chronic lymphocytic leukemia, 
multiple myeloma or non-Hodgkin's lymphoma are presumed to have 
contracted these diseases as a result of their military 
service. Because these diseases are presumed to have been 
service connected in certain instances, VA benefits are 
available to affected veterans.
    Furthermore, the Institute of Medicine has found that Gulf 
War veterans are at risk for contracting a number of blood 
cancers due to exposure to Benzene, solvents and insecticides. 
One example is IOM has found sufficient evidence of a causal 
relationship between exposure to Benzene and acute leukemias. 
In addition, the C.W. Bill Young Department of Defense Marrow 
Donor Program works to develop and apply bone marrow 
transplants to military casualties with marrow damage resulting 
from radiation or exposure to chemical warfare agents 
containing mustard. Bone marrow transplants are also a commonly 
used second-line therapy for blood cancers more so than other 
cancers.
    Finally, research into blood cancers have produced results 
that can help patients with other cancers too. The idea of 
combination chemotherapy was first developed to treat blood 
cancers in children and is now common among cancer treatments. 
Bone marrow transplants were first used as curative treatments 
for blood cancer patients, and these successes led the way to 
stem cell transplants and immune cell therapies for patients 
with other diseases. In general, blood cancer cells are easier 
to access themselves from solid tumors, making it easier to 
study cancer causing molecules in blood cancers and to measure 
the effects of new therapies that target these molecules that 
are frequently also found in other cancers.
    Mr. Dicks. You have 1 minute.
    Ms. Galvanek. Thank you, sir. Several agents designed only 
to kill cancer cells and leave healthy cells undamaged were 
first developed for blood cancer patients and are already 
helping or being developed to help other cancer patients as 
well. In conclusion, because blood cancer research is relevant 
to our Nation's military and because blood cancer research 
often leads to treatment in other cancers, I would urge the 
subcommittee to include $50 million for the Peer Reviewed 
Cancer Research Program for funding into blood, colon, skin and 
kidney cancer, as well as pediatric brain tumors. Thank you 
very much.
    Mr. Dicks. Thank you very much. I would just point out that 
Mr. Young, the ranking member and former chairman of the 
subcommittee, has been a leader on this particular form of 
cancer and has been a great advocate in this committee for more 
research in this area. Ms. Kaptur.
    Ms. Kaptur. Mr. Chairman, just very quickly, I just wanted 
to ask whether your data provides you with any statistics that 
show for veterans from any of our conflicts--you mentioned 
Benzene. Do veterans contract these particular type of cancers, 
blood-related cancers at a higher rate than others? Can you 
provide that--you sort of mentioned some of it.
    Ms. Galvanek. I don't have that answer off the top of my 
head, but I can follow up with you and get that to you.
    Mr. Dicks. Her statement has a few examples. Thank you for 
being a volunteer.
    Ms. Galvanek. Thank you. It is the best way I spend my 
time. Thank you.
    [The statement of Ms. Galvanek follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.087
    
    [GRAPHIC] [TIFF OMITTED] T6611B.088
    
    [GRAPHIC] [TIFF OMITTED] T6611B.089
    
    [GRAPHIC] [TIFF OMITTED] T6611B.090
    
    [GRAPHIC] [TIFF OMITTED] T6611B.091
    
    [GRAPHIC] [TIFF OMITTED] T6611B.092
    
    [GRAPHIC] [TIFF OMITTED] T6611B.093
    
    [GRAPHIC] [TIFF OMITTED] T6611B.094
    
    [GRAPHIC] [TIFF OMITTED] T6611B.095
    
    Mr. Dicks. Thank you. We appreciate it. The National Breast 
Cancer Coalition, Fran Visco, J.D., president of the coalition. 
Hold on just a second. We are going to switch here. Mr. Moran 
has got a problem, and he wants to hear this witness. If you 
would just give us Carlea Bauman, President of the Colorectal 
Cancer Coalition. Welcome.
                              ----------                              

                                            Thursday, May 20, 2010.

                    C3: COLORECTAL CANCER COALITION


                                WITNESS

CARLEA BAUMAN, PRESIDENT, C3: COLORECTAL CANCER COALITION
    Ms. Bauman. Good morning. Thank you. Mr. Chairman and 
members of the subcommittee, thank you for the opportunity to 
testify in support of the research that is being funded through 
the DOD's Peer Reviewed Cancer Research Program. My name is 
Carlea Bauman. I am the president of the C3: Colorectal Cancer 
Coalition. C3 is a nonprofit, nonpartisan advocacy organization 
seeking to eliminate suffering and death due to colorectal 
cancer. Last year, our advocates asked Congress to include 
colorectal cancer in the DOD's Peer Reviewed Cancer Research 
Program. Thank you for listening to them. We were thrilled that 
in the fiscal year 2010 bill, for the first time, colorectal 
cancer research is being funded through the DOD's PRCRP. 
Because when you fund research for a disease, people diagnosed 
without disease live longer and enjoy a higher quality of life.
    In 2010, there are $15 million for 8 research areas that 
includes colorectal cancer. C3 is working with other advocacy 
groups to increase that funding for fiscal year 2011. We hope 
we can count or your support. We respectfully ask that you 
increase the funding for this important program in fiscal year 
2011. Specifically we ask that you fund the DOD's PRCRP at $50 
million. Although the cancers included in this program are 
diverse, the research on these disease types is often 
synergistic. Efforts to develop a genetic profile for pediatric 
brain tumors will direct research efforts and permit greater 
targeting of treatment options and molecular profiling of 
melanoma will permit better predictions of therapeutic response 
and informed research efforts.
    And researchers today working on colorectal cancer are 
producing biomarker tests that provide important information 
about which treatments will work and which will not. Today, 
treatment options for colorectal cancer have expanded to seven 
drugs, more precise surgery and radiation. Continuing to fund 
innovative research will result in more treatment option for 
colorectal cancer patients. 30 years ago, people diagnosed with 
metastatic colorectal cancer lived approximately 6 months after 
their diagnosis. Today they are living on average over 2 years 
past their diagnosis and some are even cured.
    In the general population, colorectal cancer is the third 
most commonly diagnosed cancer and the second most common cause 
of cancer deaths for men and women in the United States. Nearly 
147,000 people will be diagnosed with colorectal cancer and 
nearly 50,000 people will die this year. Funding for the DOD's 
PRCRP is an opportunity to advance the best research to 
eradicate diseases and support the warfighter for the benefit 
of the American public. A continued investment by the 
subcommittee in research focusing on these cancers may yield 
benefits beyond the specific cancers.
    A study published in the Cancer Epidemiology Biomarkers and 
Prevention found differences in cancer incidence rates between 
military personnel and the general population. Rates were lower 
among military personnel than the general population for 
colorectal, lung and cervical cancers. However, for colorectal 
cancer, the difference in rates between the two populations was 
significant only among white males. Screening rates in the 
military for colorectal cancer like in the general population 
are much too low.
    In 2008, only about 58 percent of those in the military who 
should be screened for colorectal cancer had been screened. And 
every day precancerous polyps that could be detected through 
screening are not being found. Today only 39 percent of 
colorectal cancer patients have their cancers detected at an 
early stage. For many patients, a diagnosis of colorectal 
cancer means a diagnosis of late stage colorectal cancer. Not 
nearly enough research is being done into late stage colorectal 
cancer treatments. The PRCRP represents an opportunity to 
conduct such research. Areas of focus for colorectal cancer 
research in the PRCRP could be an inexpensive, noninvasive 
accurate screening test, predicted markers to identify who will 
benefit from which treatments and accurate diagnostics that can 
evaluate the markers.
    Mr. Dicks. You have 1 minute.
    Ms. Bauman. Thank you, sir. Discoveries resulting from 
investment in PRCRP research have the potential to transform 
the investigation of cancer through the development of new 
prevention strategies and therapies and some day cures. I thank 
you for your commitment to cancer research at the Department of 
Defense and efforts to improve the lives of Americans facing 
and living with a cancer diagnosis. I respectfully request that 
this subcommittee continue to support the important work of the 
DOD's congressionally directed medical research programs by 
funding the PRCRP at $50 million for fiscal year 2011. Once 
again, thank you for the opportunity to provide this testimony 
to this subcommittee.
    Mr. Dicks. Thank you. Thank you very much.
    Mr. Moran. Mr. Chairman.
    Mr. Dicks. Yes, Mr. Moran.
    Mr. Moran. If I could, the next speaker will represent the 
Breast Cancer Survivors Coalition, which all of these groups 
really have to thank for initiating medical research. I am glad 
we have been as robust in funding that. When you look at what 
the Lung Cancer Coalition has submitted, lung is the largest, 
then colorectal cancer, then, of course, breast cancer and then 
pancreatic cancer and then prostate cancer, which we have 
specific funding for. Colorectal cancer is in a larger group, 
including pediatric cancer and the like. But we made so much 
progress.
    Mr. Chairman, I want to thank you particularly for having 
this public hearing because otherwise we don't really hear from 
the other side. It is just a line item. These folks are putting 
a face to it. But in colorectal cancer, so much of this is a 
matter of screening. That is how you save lives. You have got 
to get it before it gets into the body and takes hold. And to 
think that only about half of our military are being adequately 
screened for colorectal cancer is just wrong when the incidence 
is over 50,000 deaths a year. Many of those are military folks. 
So I wanted to make that point and I appreciate, Ms. Bauman's 
testimony.
    Ms. Bauman. Great. Thank you very much.
    [The statement of Ms. Bauman follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.096
    
    [GRAPHIC] [TIFF OMITTED] T6611B.097
    
    [GRAPHIC] [TIFF OMITTED] T6611B.098
    
    [GRAPHIC] [TIFF OMITTED] T6611B.099
    
    [GRAPHIC] [TIFF OMITTED] T6611B.100
    
    [GRAPHIC] [TIFF OMITTED] T6611B.101
    
    Mr. Dicks. Thank you. Now we will go to Fran Visco, 
president of the National Breast Cancer Coalition. Thank you 
for being patient.
                              ----------                              

                                            Thursday, May 20, 2010.

                    NATIONAL BREAST CANCER COALITION


                                WITNESS

FRAN VISCO, PRESIDENT, NATIONAL BREAST CANCER COALITION
    Ms. Visco. You are welcome. Thank you for inviting me. So I 
am Fran Visco. I am a 22-year breast cancer survivor and head 
of the National Breast Cancer Coalition, which is a coalition 
and umbrella for over 600 groups from across the country. I 
want to begin by thanking you for your leadership over the 
years in support of this program. I am not going to talk to you 
about the details of what we funded and what the specific 
successes of the program have been. I give you some examples in 
my testimony and all of the information is available on the 
program's Web site. What I do want to tell you is that this 
government program has been an incredible success on every 
level and it warrants level funding, this Competitive Peer 
Reviewed Biomedical Research Program.
    This program is a unique structure. It is a collaboration 
among scientists, trained consumers and the United States Army. 
Its vision is to eradicate breast cancer by funding innovative 
research. This program funds gaps. It doesn't replicate or 
duplicate what other funding agencies and private funders do. 
This program can rapidly respond to what is happening in the 
world of breast cancer. Why? There is no bureaucracy. The 
United States Army has done an incredible job administering 
this program. It is streamlined, it is efficient. The 
administrative costs don't even rise to 10 percent. And 
importantly for the public, this is a transparent program. It 
is accountable to the taxpayers. The public can go to the Web 
site and see where the money is going, where their tax dollars 
are being spent. Every other year at a meeting called the Era 
of Hope, everyone who has been funded by this program has to 
present the results of their research to the public.
    Mr. Dicks. When does that occur?
    Ms. Visco. Every other year. It is going to happen again in 
August of 2011 will be the next Era of Hope meeting.
    Mr. Dicks. Can Members of Congress go?
    Ms. Visco. Oh, yes. Absolutely. We would love to have you. 
This program has been successful because it has been free of 
outside influence and it has the strongest conflict of interest 
policy of any research funding entity within or without 
government. What this program does is it pushes science to new 
levels. It challenges the status quo. It creates new models, 
some of which you have heard from other programs that you have 
funded. We create new models of research. We don't direct the 
research questions to be asked. We leave that to the scientific 
community. It has been replicated by other programs, by other 
countries, by breast cancer programs in other States from its 
mission to the mechanisms it creates to the structure of the 
program.
    In fact, a number of years ago, the then general in charge 
of the program, General Martinez, told me that even the 
mechanisms and the way the integration panel works, he took 
that and used it elsewhere within the Department of the Army 
because he was so impressed with what we were able to do. So 
this works on every level. It doesn't just save lives. It 
changes how research is done. I want you to know that this 
program is where the hope lies, the hope of the women and men 
across the country and actually around the world who are 
dedicated to ending breast cancer. This is the program they 
look to because they know this is the program that is 
responding to the needs of patients. And that is really making 
a difference for all of us. Thank you.
    Mr. Dicks. Thank you very much. Are there any questions? We 
have a little time here for anyone who has a question. Thank 
you. Let me ask you this. Do you think this is a better program 
than National Cancer Institute?
    Ms. Visco. Yes, I do. Without question, I think this 
program for breast cancer is a better program than the National 
Cancer Institute.
    Mr. Dicks. Why is that?
    Ms. Visco. For all the reasons I said. It is incredibly 
transparent, it is accountable, it is able to rapidly respond. 
There is no huge bureaucracy here that you have to try to 
overcome. It is looking at innovation. A couple of years ago, 
the then head of the National Institutes of Health testified to 
Congress. And he was talking about how proud he was of the four 
new innovations at NIH. And all four of them were copied from 
the DOD Breast Cancer Research Program. This is the program 
where the creativity and the innovation lie. This is the 
program that brings the public into it. The NCI, while it is 
doing very good work, does not rise to the level of the breast 
cancer research that the DOD program funds.
    Ms. Kaptur. Mr. Chairman, since this witness is so 
articulate and though I won't only focus on breast cancers, I 
have listened to the various witnesses come before us this 
morning whether it is colorectal or lung or breast cancer, we 
thank you so much for the great work you are doing. What I fail 
to understand from a scientific standpoint is knowing 
everything we know about genetics, knowing everything we know 
about blood typing and analysis, why isn't it just a simple 
matter of genetic marking so that we can find better detection 
regimens. We spend so much money as a country.
    Ms. Visco. I could answer that. I am not sure by 11:00, but 
I could answer that. I will be as quick as I can. But I would 
love to have the conversation with you outside the hearing. The 
problem is that this isn't just an issue of early detection, 
nor is it an issue of genetic mutation. It isn't. It is much 
more complicated than that. Cancer is more complicated than 
that. We can find a pathway or a gene that is mutated. We can 
find people who are at high risk, but we don't know what to do 
with them. And when you find a mutated pathway or a mutated 
gene, there are some other pathways and genes and proteins that 
come into the story that it is not just one target that is 
going to make a difference, that is going to cure women or that 
is going to detect it early enough for everyone to make a 
difference.
    We don't understand enough about the biology of this 
disease or really any cancer. The question was asked about 
ovarian cancer. Why am I here? I am a 22-year survivor. I had a 
pretty difficult breast cancer. I had lymph node involvement. I 
had state-of-the-art treatment. I don't think that is why I am 
here. We don't know why I am here. There is something about my 
DNA, the biology of my disease that responded to therapy, maybe 
didn't need therapy at all. We don't know enough about these 
diseases. They are incredibly complicated. We can't just focus 
on early detection because that is so far from the answer to 
these diseases.
    The same thing with ovarian cancer, that woman thankfully 
is alive 9 years later. I don't know if it was her surgery or 
her treatment. It was probably something about the biology of 
her disease that we don't know yet. Those are the kinds of 
questions that we have to answer to really get rid of these 
diseases.
    Mr. Ryan. Mr. Chairman, if I could just add something here. 
Of all of these diseases, I think there is an issue that I hope 
over time we can start focusing on and that is stress, 
especially in the military environment, military families, is 
how we can begin to reduce levels of stress, teach people how 
to cope with their levels of stress because it has been proven 
that over time stress will just accelerate cancer and other 
diseases. So I hope that we can continue that and make that a 
part of our focus.
    Ms. Visco. Actually I mention in my submitted testimony we 
actually are funding looking at stress levels in the military 
and accelerated breast cancer. That is one of the concepts that 
was funded by the program.
    Mr. Ryan. It was just in the earlier testimony too on the 
schools with the kids and the families and everything else 
here. I think we are going to see a theme running through a lot 
of this stuff. I think if we really want to kind of focus on 
something that is a cause of or something that increases these 
problems, we are going to find out time and time again it is 
stress. So we need to figure out how to get to the root of the 
problem too at the same time.
    Mr. Moran. Mr. Chairman, I hate to belabor this. But the 
other thing that would be helpful is that in terms of 
prevention, we hear so many conflicting things. Breast feeding 
is good or aggressive exercise, any number of things, vitamins 
and so on. But one day we will see that this is the secret and 
then several months later we will say no, they were absolutely 
wrong. It would be helpful for a group such as yours to provide 
the kind of consistent device because women are desperate for 
credible information that they can use to apply to their own 
lives.
    Ms. Visco. Yes. And prevention research, of course, is one 
of the most underfunded areas of any disease but certainly in 
cancer. We really don't know enough about how to prevent these 
diseases. You are absolutely right.
    Mr. Moran. Thank you.
    Mr. Dicks. Thank you very much.
    Ms. Visco. You are welcome.
    [The statement of Ms. Visco follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.102
    
    [GRAPHIC] [TIFF OMITTED] T6611B.103
    
    [GRAPHIC] [TIFF OMITTED] T6611B.104
    
    [GRAPHIC] [TIFF OMITTED] T6611B.105
    
    [GRAPHIC] [TIFF OMITTED] T6611B.106
    
    [GRAPHIC] [TIFF OMITTED] T6611B.107
    
    [GRAPHIC] [TIFF OMITTED] T6611B.108
    
    [GRAPHIC] [TIFF OMITTED] T6611B.109
    
    [GRAPHIC] [TIFF OMITTED] T6611B.110
    
    Mr. Dicks. We appreciate it. Now we will have Kendra Sharp, 
associate professor of mechanical, industrial and manufacturing 
engineering at Oregon State University. A great northwest 
school.
    Ms. Sharp. Yeah. I just moved to the Pacific Northwest.
    Mr. Dicks. Some of my best friends went to Oregon State. 
Terry Baker played there. A great quarterback.
    Ms. Sharp. Okay. Great. I just moved there to the Pacific 
Northwest and I am quite pleased to have moved to that part of 
the country.
    Mr. Dicks. Corvallis? You are in Corvallis, right?
    Ms. Sharp. Yes.
    Mr. Dicks. Thank you.
                              ----------                              

                                            Thursday, May 20, 2010.

                 ASME, DEPARTMENT OF DEFENSE TASK FORCE


                                WITNESS

KENDRA SHARP, ASSOCIATE PROFESSOR, MECHANICAL, INDUSTRIAL, AND 
    MANUFACTURING ENGINEERING, OREGON STATE UNIVERSITY
    Ms. Sharp. Mr. Chairman, Mr. Ranking Member and members of 
the committee, I am Kendra Sharp, associate professor at Oregon 
State University's mechanical, industrial, manufacturing and 
engineering. On behalf of the ASME Department of Defense task 
force, I am pleased to have the opportunity to testify on the 
fiscal year 2011 Department of Defense budget request. The 
American Society of Mechanical Engineers is a 120,000 member 
professional organization focused on technical, educational and 
research issues. Our Nation's engineers play a critical role in 
national defense through research discoveries and technology 
development for military systems. Therefore, my comments will 
focus on the DOD's science and technology budget. The 
administration has requested $76.7 billion for the RDT&E 
portion of the fiscal year 2011 DOD budget, a 5.1 percent 
decline from last year. Of concern to our task force, funds for 
operational tests and evaluation function are still at reduced 
levels by historical standards.
    And while the fiscal year 2011 request represents an 
improvement from recent years, even this amount does not 
represent the importance of OT&E as mandated by Congress. The 
administration's request for defense S&T of $11 billion 
represents a 12.2 percent reduction from last year. Our task 
force strongly urges this committee to consider additional 
resources to maintain stable funding in the S&T portion of the 
DOD budget.
    We note that up to $16.4 billion would be needed for 
defense S&T funding to meet the 3 percent of total obligational 
authority guideline recommended by the National Academies and 
set in the 2001 Quadrennial Defense Review, recommendations 
which were broadly supported in Congress only a few years ago. 
The basic research 6.1 account supports programs which are 
crucial to fundamental scientific advances and for maintaining 
a highly skilled science and engineering workforce. Maintaining 
a skilled workforce is critical given the large turnover that 
will occur in the next few years in key science and engineering 
industries.
    The National Science Foundation's 2010 Science and 
Engineering Indicators Report shows that the U.S. severely lags 
the rest of the world in both real terms and on a percentage 
basis in the granting of first degrees in engineering with only 
4.5 percent of first university degrees being granted in 
engineering versus 12.6 percent for the European Union and over 
21 percent across Asia. Combined with the NSF findings that the 
average age and retirement rate of the engineering workforce 
will continue to rise over the next several years, our task 
force reiterates the need for robust S&T programs at DOD as 
critical to our economic competitiveness and national security. 
Several of the proposed reductions to individual S&T program 
elements are dramatic and could have negative impacts on future 
military capabilities. While basic research accounts are 
properly weighted under the President's request, applied 
research, the 6.2 accounts would receive an 11.2 percent 
reduction. Applied research programs may involve laboratory 
proof of concept and are generally conducted at universities, 
government laboratories or by small businesses. Many successful 
demonstrations lead to the creation of small companies and 6.2 
applied research has also funded the education of many of our 
best defense industry engineers. Failure to properly invest in 
applied research would stifle a key source of technological and 
intellectual development and stunt the creation and growth of 
small entrepreneurial companies. Advanced technology 
development, 6.3, would experience a dramatic 18.3 percent 
decline under the President's budget.
    These resources support programs where ready technology can 
be transitioned into weapon systems. This line item funds 
research in a range of critical material technologies, 
including improved body armor to protect troops against IEDs 
and in developing lightweight armor for vehicle protection. 
With the problems faced in Iraq and Afghanistan with IEDs and 
the need for improved armor systems, it does not seem wise to 
cut materials research.
    Another key program for the defense S&T community is the 
university research initiative which supports graduate 
education in mathematics, science and engineering. Under the 
proposed budget, this program would see a 2.1 percent decrease 
to 335.9 million. Sufficient funding for the URI is critical to 
educating the next generation of engineers and scientists for 
the defense industry. A lag in program funds will have a 
serious long-term negative consequence on our ability to 
develop a highly skilled scientific and engineering workforce 
to build weapon systems for years to come.
    Mr. Dicks. You have 1 minute.
    Ms. Sharp. Thank you. While DOD has enormous current 
commitments, these pressing needs should not be allowed to 
squeeze out the small but very important investments required 
to create the next generation of highly skilled technical 
workers for the American defense industry.
    In closing, I have three recommendations from our task 
force. The first is that we urge the subcommittee to support 
the President's request for the 6.1 basic research accounts for 
S&T programs. The second is that the task force recommends the 
subcommittee provide an additional $563 million in support for 
the 6.2 applied research account function in order to ensure 
workforce and project stability in this critical area of 
defense research.
    And third, we also recommend that the committee support the 
Pentagon's stated goal of devoting 3 percent of the 
department's baseline budget to Defense S&T program, 6.1, 6.2 
and 6.3 accounts. I thank the committee for its ongoing support 
of defense science and technology. Our task force appreciates 
the difficult choices that Congress must make in this tight 
budgetary environment. We believe, however, that there are 
critical shortages in the DOD S&T areas, particularly in those 
that support basic research and technical education that are 
critical to U.S. military in the global war on terrorism and 
defense of our homeland. Thank you.
    [The statement of Ms. Sharp follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.111
    
    [GRAPHIC] [TIFF OMITTED] T6611B.112
    
    [GRAPHIC] [TIFF OMITTED] T6611B.113
    
    [GRAPHIC] [TIFF OMITTED] T6611B.114
    
    [GRAPHIC] [TIFF OMITTED] T6611B.115
    
    [GRAPHIC] [TIFF OMITTED] T6611B.116
    
    Mr. Dicks. Thank you very much. I appreciate your 
statement. John Boslego, M.D., director of the Vaccine 
Development Global Program, PATH. I am very glad to have you 
here today.
                              ----------                              

                                            Thursday, May 20, 2010.

                                  PATH


                                WITNESS

JOHN BOSLEGO, M.D., DIRECTOR, VACCINE DEVELOPMENT GLOBAL PROGRAM
    Dr. Boslego. Good morning, sir. My name is John Boslego and 
I am the director of the Vaccine Development Global Program at 
PATH. I would like to begin by thanking Chairman Norman Dicks 
and Ranking Member Bill Young for the opportunity to testify 
before the subcommittee. Chairman Dicks understands the mission 
at PATH, has been a strong supporter of PATH programs.
    I speak for all of my colleagues at PATH when I thank him 
for his support and key leadership on the issues that are 
critical to our work. PATH is an international NGO and creates 
sustainable, culturally relevant solutions enabling communities 
worldwide to break longstanding cycles of poor health. By 
collaborating with diverse public and private sector partners, 
we help provide appropriate health technologies and vital 
strategies that change the way people think and act. We wish to 
take this opportunity to recognize the specific and unique 
areas of expertise that the DOD brings to bear in advancing 
innovation that ensures people in low resource settings have 
access to lifesaving interventions and technologies. Through 
DOD, the U.S. Government is able to apply this core capacity to 
improving health throughout the world. The global health 
research efforts of DOD respond to diseases many Americans 
never see up close, but which military personnel stationed in 
developing worlds experience, alongside local communities. 
Medicines, vaccines and diagnostics for health threats that 
disproportionately affect the developing world are critical for 
their protection. Health is also an important factor in global 
stability and security. The heavy burden of disease in 
developing world hinders economic and social development, which 
in turn, perpetrates conditions that breed political 
instability.
    DOD health research therefore benefits not only the U.S. 
military but also has the potential to reduce this health 
burden, by doing so reduce the likelihood of physical conflict. 
PATH requests of fiscal year 2011 that the subcommittee provide 
robust support for DOD research and development programs aimed 
at addressing health challenges, particularly for military 
malaria vaccine development research, as well as for research 
at DARPA aimed at developing protective countermeasures and 
developing health care to military personnel and civilians in 
remote resource poor and unstable locations.
    More than one-third of the world's population is at risk 
for malaria, with approximately 250 million cases each year. 
The most of nearly 1 million annual deaths from malaria are 
among children in Africa under the age of 5. According to the 
2006 Institute of Medicine report, malaria has affected almost 
all military deployments since the American Civil War and 
remains a severe and ongoing threat.
    The same report noted that a vaccine would be the best 
method of averting the threat of malaria, given the likely 
increasing number of deployments to high-risk areas. Military 
researchers within the military infectious disease program are 
at the forefront of efforts to develop the malaria vaccine. One 
example of DOD's impact in malaria research is the most 
promising vaccine candidate in existence today. It is called 
RTSS. Research at Walter Reed contributed to the development of 
the vaccine candidate in early testing of RTSS created by 
GlaxoSmithKline was done in collaboration with the U.S. 
military.
    Today thanks to innovative partnership between GSK Bio and 
PATH, the malaria vaccine initiative works to accelerate 
development of malaria vaccines and assure their availability 
and accessibility in the developing world. RTSS is now in a 
large-scale phase 3 trial, typically the last stage of testing 
prior to licensure. The U.S. Army is assisting in this trial by 
supporting one of the field sites in Kenya. Although the 
efficacy of RTSS in its current formulation is unlikely to 
prove adequate for military purposes despite its potential 
benefit to young children in Africa, it has shown that 
developing a vaccine against malaria is possible and paved the 
way for other development efforts that could ultimately allow 
the military to vaccinate its men and women against malaria 
before deploying them to endemic regions.
    Unfortunately, DOD's spending on military infectious 
diseases research in general and specifically on malaria 
research has been declining for several years from levels that 
were already comparatively small given the historic impact of 
malaria on overseas deployments. Current funding levels are 
nowhere near what is needed to develop urgently needed 
countermeasures against malaria. PATH requests that the 
subcommittee reverse this trend and provide the resources 
needed to develop the necessary tools, including vaccines to 
protect soldiers, sailors, airmen and Marines from this deadly 
and debilitating disease.
    Another program making great contributions to research and 
development is DARPA. DARPA has identified as a priority the 
development of technologies that can both help the U.S. 
military and be of use to DOD sponsored humanitarian relief 
operations. One example is the technology pioneered by DARPA 
that has led to electrochemical generators of chlorine that may 
be able to fulfill a community's need for effective 
disinfectants for water or surfaces by using just salt water 
and a simple battery source. PATH has partnered with Cascade 
Designs on a new generation of smart electrochlorinators that 
has the potential to expand the project initiated by DARPA to 
broader community reach for both military and civilian 
benefits.
    The device effectively inactivates bacteria, viruses and 
some protozoa to create safe drinking water. Since the 
generators can be powered by solar-charged batteries, they are 
accessible to communities that do not have electricity 
infrastructure. The costs are significantly less than required 
for the current large scale community systems, putting this 
solution within reach of very poor and small communities. The 
defense threat reduction agency, DTRA, is also doing 
groundbreaking work as it investigates innovations in vaccine 
and chemical reagent thermostabilization and point of care 
diagnostic tests for infectious diseases.
    This has positive implications for global health and U.S. 
military support in low-resource settings. Such technologies 
will enable rapid pathogen identification in field and threat 
zones to more rapidly enlist target interventions.
    In conclusion, in light of the critical role that DOD plays 
in global health research and development and the fact that the 
investments in this area have been falling, we respectively 
request that the subcommittee provide the resources to maintain 
this important core capacity. We thank you very much for your 
consideration.
    Mr. Dicks. Let me ask you, the Gates Foundation is doing 
some significant work on malaria; isn't that correct.
    Dr. Boslego. Yes, sir.
    Mr. Dicks. Are you involved with that as well?
    Dr. Boslego. Yes, we are.
    Mr. Dicks. That is what I thought. And you think that 
DARPA's role in this is constructive?
    Dr. Boslego. Yes, sir, very much so. Although DARPA is not 
working on the malaria piece per se. They are working on some 
of these newer innovations that would help, in this case, the 
purification of water.
    Mr. Dicks. On Homeland Security, we had some problems 
initially with vaccines and various other treatments for 
various things that could happen in that relationship. Has that 
relationship between Homeland Security and HHS improved or is 
it still pretty shaky?
    Dr. Boslego. I cannot comment on that, sir. I am not 
familiar with those discussions.
    Mr. Dicks. There was a significant problem there. Thank 
you. Any other questions? Okay. Thank you very much.
    [The statement of Dr. Boslego follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.117
    
    [GRAPHIC] [TIFF OMITTED] T6611B.118
    
    [GRAPHIC] [TIFF OMITTED] T6611B.119
    
    [GRAPHIC] [TIFF OMITTED] T6611B.120
    
    [GRAPHIC] [TIFF OMITTED] T6611B.121
    
    [GRAPHIC] [TIFF OMITTED] T6611B.122
    
    [GRAPHIC] [TIFF OMITTED] T6611B.123
    
    [GRAPHIC] [TIFF OMITTED] T6611B.124
    
    [GRAPHIC] [TIFF OMITTED] T6611B.125
    
    [GRAPHIC] [TIFF OMITTED] T6611B.126
    
    [GRAPHIC] [TIFF OMITTED] T6611B.127
    
    [GRAPHIC] [TIFF OMITTED] T6611B.128
    
    [GRAPHIC] [TIFF OMITTED] T6611B.129
    
    [GRAPHIC] [TIFF OMITTED] T6611B.130
    
    [GRAPHIC] [TIFF OMITTED] T6611B.131
    
    [GRAPHIC] [TIFF OMITTED] T6611B.132
    
    [GRAPHIC] [TIFF OMITTED] T6611B.133
    
    [GRAPHIC] [TIFF OMITTED] T6611B.134
    
    [GRAPHIC] [TIFF OMITTED] T6611B.135
    
    [GRAPHIC] [TIFF OMITTED] T6611B.136
    
    [GRAPHIC] [TIFF OMITTED] T6611B.137
    
    [GRAPHIC] [TIFF OMITTED] T6611B.138
    
    Mr. Dicks. Sherry S. Galloway, registered nurse, board 
member of ZERO, the project to end prostate cancer.
                              ----------                              --
--------

                                            Thursday, May 20, 2010.

                                  ZERO


                                WITNESS

SHERRY GALLOWAY, R.N., BOARD MEMBER, ZERO, THE PROJECT TO END PROSTATE 
    CANCER
    Ms. Galloway. Mr. Chairman, members of the committee, thank 
you very much for the opportunity to speak to you today about 
the Prostate Cancer Research Program and the congressionally 
directed medical research programs at the Department of 
Defense. Many people can speak to you effectively about the 
research this program has done or is doing, about its history, 
funding levels and accomplishments. But I want to talk to you 
about how we can affect the future of prostate cancer research 
by looking at two men in my life who fought this deadly 
disease. My husband, Tom, and my son, Jeremy. When we leave 
here today, I hope you understand why I hold out hope for the 
future that research promises to give us and why I ask you to 
increase prostate cancer research funding so that the PCRP can 
lead us there.
    My name is Sherry Galloway. I am a nurse, a mother, a wife 
and a sister. I have a personal relationship with prostate 
cancer after watching its horrific impact on both my son and my 
husband. My husband's diagnosis was made when he was 54 and 
that made a little more sense at that age to me, although that 
is not old. And we do think of this disease often as an old 
man's disease. The treatment my husband received was not 
without side effects. His nerve-sparing prostatectomy left him 
impotent. While that persists today at 60, he is alive and 
cancer free. I would give anything to have my son alive and 
cancer free. Jeremy's prostate cancer was diagnosed 4 years 
after my husband's and he was 35 years old. 18 months later he 
was dead.
    When he was 34, Jeremy complained of back pain that would 
not subside. He was fit, he was healthy and strong. He turned 
35 in Burma where he was delivering medicine to villages there. 
When he returned home, he felt tired and he was still in 
unremitting pain. He was having night sweats. So he went to an 
infectious disease specialist thinking maybe he had caught 
something in the jungle or in the forest. They did blood tests 
and found that he was walking around with almost no platelets. 
They sent him to the ER. His own physician reviewed his MRI, 
saw that he had no platelets and they immediately thought of 
lymphoma, which is more typical in young men. They also thought 
about testicular cancer also in young men. And both are very 
treatable. His first bone biopsy revealed cells that were 
suspicious of prostate cancer, however the oncologist couldn't 
believe that. So they continued to test him, transfuse him and 
look for everything else. And finally they called in a 
urologist. At that time, my son's DRE was normal and ultrasound 
of his prostate was normal. His PSA was 441. When repeated, it 
was more like 460. At that time, he was diagnosed with advanced 
metastatic hormone refractory prostate cancer. Three months 
later--actually the hormones after 3 months. It was hormone 
refractory. The hormones did not work.
    When you looked at his CAT scan, his bone scan, all you saw 
was black throughout his axial skeleton and his clavicle with 
little spots on his brain. That was all tumor. So his back pain 
was due to his metastasis, not due to the prostate cancer which 
was asymptomatic, completely. Jeremy was married on a Saturday 
in September of 2006 and 2 days after his wedding he started 
chemotherapy. Things began to slip for him about a year after 
his diagnosis. There were nights when he would sit in a hot tub 
with Epsom salts and just sob because he was in pain and he was 
depressed and scared.
    And I would just sit by the tub. There was nothing I could 
do but listen. On good days, he dedicated time to research. He 
discovered numerous prostate cancer research projects, each one 
of which became a source of hope for us. He was started in the 
Provenge trials, clinical trials. Unfortunately he was in the 
control group. So he never received the Provenge which today is 
an accepted treatment for advanced metastatic prostate cancer. 
That was a huge disappointment.
    Later he was accepted into an experimental treatment at the 
University of Oregon in which he would have received a mini 
allogenic total bone marrow transplant. Fortunately, the 
approval of this came about 3 days before he died. So he was 
unable to get this. Jeremy accepted being experimented on with 
grace, even when elephant doses of pain medication did not 
work. He was in excruciating bone pain 24/7. He couldn't sit, 
he couldn't stand, he couldn't lay down anywhere without pain. 
He slept through most of his first wedding anniversary because 
he was so highly drugged and in so much pain. And his wife had 
to sit there alone and sometimes with me because Jeremy 
couldn't play, although he tried to remain positive about his 
life.
    For 33 years, Jeremy was healthy and he worked tirelessly 
for human rights and environmental sustainability. Among his 
many accomplishments was a special award given to him while he 
was sick by the Rain Forest Action Network. He also brokered an 
agreement between several guitar companies and Greenpeace 
whereby no old growth forest trees would be used in the 
manufacture of guitars. Six weeks before his death, I literally 
had to kidnap him from the hospital so he could go get his 
award. We had to cover up our dress clothes with hospital gowns 
and sneak out of the hospital and go in a rickety RV to get him 
to these awards. I wheeled him down the aisle to a standing 
ovation of over 300 people.
    Then he stood up on the stage and spoke with such power 
that during those moments, it was hard to imagine that he was 
so sick. After receiving his award and returning to the 
hospital, the staff came in and spoke with him and his wife and 
then his father and I were asked to join them while they gave 
the talk about preparing for the end of life. It was the speech 
where they kindly ask you whether you want to just continue 
with treatment that isn't going to work or you want to go home. 
Jeremy and Beth decided that Jeremy would die at home. During 
the final weeks of his life, Jeremy was in agony. There were no 
comfortable positions. He vomited and retched repeatedly and 
with extreme force because of all the radiation treatments he 
had had that went through his abdomen to affect his spine to 
keep from paralyzing him. He took medication for pain, nausea, 
constipation, appetite, anxiety and sleep. He began to wander 
at night, even on medication, and maybe because of it.
    His friends organized into teams so 2 or 3 of us would be 
with Jeremy around the clock. I slept so little that Jeremy's 
friends nicknamed me ``zombie mom.'' Jeremy's morphine pump 
wasn't working and he became incontinent of stool and urine. My 
proud, strong, beautiful son would stand docile at the toilet 
while his wife or I wiped a continuing stream of stool that was 
running down his legs until it stopped and we could put a 
diaper on him. We had diapers, we had clothing, we had water 
and medication with us at all times if we did go outside. 
Jeremy's ankles became so swollen and painful that he could 
barely walk.
    In Jeremy's final days, his diet consisted largely of 
mashed potatoes, which is all he wanted most of the time. He 
also ate his favorite cookies that I baked for him and special 
granola that his stepsister made for him. He slept on a 
hospital bed in his living room and at night he would pull 
himself up and with help shamble into the bedroom to kiss his 
wife goodnight. When he could, he would sit at his computer and 
try to do a little work. There are some pictures here of him 
healthy and also in these final stages that I will pass around 
for you to look at. He tried to do a little e-mail. And then 
finally he just opted to stop. He just stopped eating, stopped 
drinking and asked the hospice nurses to up his morphine so he 
could sleep his last days away. It was Thanksgiving week of 
2007 and he slept but was restless. He had fallen out of bed a 
week earlier when friends couldn't stay awake and he was in 
constant pain every time he even moved in bed. He began to have 
that nauseatingly sweet smell of ketosis that has when your 
body is wasting. The day before Thanksgiving, he woke up in the 
afternoon and told my husband and I very clearly I am dying, 
but it is all right.
    And he had a smile on his face. He said some very loving 
things to us and went back to sleep. That night he actually 
awoke and sang and chanted with his friends. That was the last 
time he woke up. On Thanksgiving day, he did not wake up again, 
although his eyes were slightly open at all times and his mouth 
was hanging open. But he was not conscious. On Friday, the day 
after Thanksgiving, my sister's 50th birthday, the autumn 
weather was gentle and the space was quiet, respectful. We sang 
and read to Jeremy. We wandered around. We were tired, we were 
exhausted and wandering and waiting. That night at about 7:00, 
I could tell that his breathing had changed and I knew the end 
was coming. He died peacefully, his wife holding his right hand 
and me holding his left as I had promised. His dad, step-dad, 
siblings and friends were all there as were my sister and best 
friend.
    A helium balloon that had been floating about the room for 
several days slipped out the window and floated skyward. Jeremy 
had a peaceful look on his face for the first time in months. 
We send our sons off to war and they may not come back or they 
come back less than whole when they left home. We send them off 
to college not knowing where they will go from there but still 
we have hope for their futures. We have hope for their lives. 
My son chose a dangerous path. He was an activist. He was shot 
at, he was threatened, he was in jungles. He was not safe. I 
knew this and I feared for him, but at the same time I was 
proud. I never expected that prostate cancer would kill him. 
Prostate cancer took away my hope. I learned that it is an old 
man's disease and I know that it is not. 300 men die each year 
in the United States under the age of 40. If that is not enough 
for you to fund research, then look at the almost 30,000 men 
that will die this year alone in the United States from 
prostate cancer. We need to increase funding. What I have 
described to you today is the life of someone dying of a highly 
aggressive form of prostate cancer. This is not rare. His own 
oncologist is the same age and has lost 4 young men to prostate 
cancer and many more older men. Perhaps if a more accurate test 
for prostate cancer existed, my child would have known about 
his cancer earlier and he could be here talking to you himself.
    I will never know because there just aren't enough funds to 
do all the research that needs to be done. Perhaps had the 
research been done on newer techniques, my husband would not be 
impotent. It is because of the research we know that it does 
not work. There is no question that the PSA is not a good 
enough diagnostic test but it is all we have. There is no 
question that there are aggressive cancers that we cannot watch 
and wait. Prostate cancer kills more men than any cancer except 
lung cancer and has a mortality rate comparable to breast 
cancer. Each month, I read another article about the inadequacy 
of the PSA test and each day I wait for a better test. And 
every day I question why more and more funding seems to go to a 
few types of cancer, none of which are the greatest killer of 
men in this country. It is one thing to criticize the test we 
currently have to screen men for this insidious killer and 
quite another to find a viable solution.
    Unless you increase funding for the Prostate Cancer 
Research Program, I fear good research will be left unfunded. 
No one is asking you to make the same sacrifice Jeremy made. No 
one is asking you to go through the pain that my son went 
through, the embarrassment, the deterioration and a very 
horrific and painful death. All I ask is that you consider 
increasing funding for prostate cancer research so that no more 
mothers, children, husbands, wives have to suffer the way my 
family has. Thank you for your time.
    [The statement of Ms. Galloway follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.139
    
    [GRAPHIC] [TIFF OMITTED] T6611B.140
    
    [GRAPHIC] [TIFF OMITTED] T6611B.141
    
    [GRAPHIC] [TIFF OMITTED] T6611B.142
    
    [GRAPHIC] [TIFF OMITTED] T6611B.143
    
    [GRAPHIC] [TIFF OMITTED] T6611B.144
    
    [GRAPHIC] [TIFF OMITTED] T6611B.145
    
    [GRAPHIC] [TIFF OMITTED] T6611B.146
    
    [GRAPHIC] [TIFF OMITTED] T6611B.147
    
    [GRAPHIC] [TIFF OMITTED] T6611B.148
    
    [GRAPHIC] [TIFF OMITTED] T6611B.149
    
    Mr. Dicks. Thank you for your very compassionate statement. 
We appreciate it very much. Any questions? Thank you. Jonathan 
W. Simons, Prostate Cancer Foundation. Welcome.
                              ----------                              

                                            Thursday, May 20, 2010.

                       PROSTATE CANCER FOUNDATION


                                WITNESS

JONATHAN SIMONS, M.D., PRESIDENT AND CHIEF EXECUTIVE OFFICER, PROSTATE 
    CANCER FOUNDATION
    Dr. Simons. Thank you very much. I am Dr. Jonathan Simons. 
I am the President and chief executive officer of the Prostate 
Cancer Foundation. Nothing I can say can be as profound or as 
important as what Ms. Galloway said about her son. I am just 
speaking on behalf of the other 27,000 families that aren't 
here right now from 2009 that could not articulate the pain and 
the courage of the experience of human prostate cancer.
    In the last 22 years, I have been involved myself as an 
oncologist and the scientist funded by the American taxpayer in 
the care of over 1,000 prostate cancer patients. Today I lead a 
foundation that in its 17-year history has raised over $400 
million through the Prostate Cancer Foundation and actually 
funded 1,200 laboratories around the United States and America 
and the world in order to see a cure for prostate cancer and 
eradicate death and suffering. Our single and total goal is to 
put ourselves out of business as a foundation and end suffering 
from prostate cancer. What the committee doesn't know is that 
probably in the entire history you have been briefed--certainly 
Chairman Murtha was briefed this quietly--last year we reduced 
deaths from prostate cancer since projected from 1993.
    In fact, a 30 percent reduction in deaths doesn't bring 
back Jeremy Galloway. But actually between 1993 and 2010, 
180,000 American men have not died from prostate cancer who 
were projected to through a concerted effort of earlier 
detection, advocacy, better care and biomedical research 
supported by the defense appropriations committee, the National 
Cancer Institute, the Prostate Cancer Foundation. If we did 
nothing more except for never except the unacceptable, by 2013, 
with that reduction in death rate, we would have saved more 
American men's lives than have died in the history of American 
warfare on the battlefield from Bunker Hill to the Persian 
Gulf, which is actually a pretty remarkable statement, which I 
expect the committee has not heard either. But if you save the 
half a million American lives by 2039 with the current effort, 
you would still be losing an American man, whether young or old 
by your definition, every 19 minutes around the clock, 365 days 
a year.
    Prostate cancer is a molecular form of terrorism and one of 
the greatest threats to the lives of the citizens of the 
American people. Now, it is true that prostate cancer is 
complicated. The committee will learn in July at a press 
conference we will hold that out of Ann Arbor there are 24 
kinds of prostate cancer. The American people's investment in 
the human genome research has actually brought us a very 
interesting and complicated story. Unlike breast cancer, unlike 
colon cancer, there are 24 kinds of prostate cancer. You can 
see it in the DNA and it is unique to prostate cancer. What 
would that mean? One, it would mean you have gotten a huge 
return on your investment out of this committee. Because after 
our foundation, which has put over $8 million into it, the 
second leading funder of this research has been the Department 
of Defense, a congressionally mandated research program. The 
understanding of these genes has come from the National Cancer 
Institute and the NIH. It is a concert, a symphony concert of 
public-private partnership and biomedical research but where 
American people are giving philanthropically, paying taxes and 
actually medical scientists and patients like the Galloways and 
their families have all come together.
    July of this year is one of the most important months in 
the history of over 50 years of concerted prostate cancer 
research. If there are 24 kinds of prostate cancer, what could 
that mean? Well, it could mean that there is a kind of prostate 
cancer that will never take your life and it will probably show 
up when you are 80. There is a kind of prostate cancer that can 
strike you down by 50. And actually there ought to be a test 
for everyone. When we indict the PSA test as being an 
insufficient test, which it is, we are actually only indicting 
our ignorance in our inability to sort of prosecute, so to 
speak, molecular diagnostics.
    But now we have this ability and actually the DOD has the 
program in place, which I will discuss in a second, to actually 
fast forward progress. The other thing is I have no personal 
relationship with Don Berwick and CMS. But if I were running 
CMS in August, one of the most important contributions in 
diagnostics for cancer would have actually come out of the DOD. 
This test of 24 clona types or what kind of clone it is should 
change forever the future of prostate cancer care.
    I cannot speak to the pain and suffering of Sherry 
Galloway, but I can actually make a specific set of 
recommendations for the committee to consider. In my testimony, 
I have asked the committee to consider $40 million over the 
additional 80 million to fast forward three things that would 
improve the lives of families like the Galloways in the future. 
One would be to simply put $10 million into fast forwarding 
this new kind of test. It is cancer specific. It is prostate 
cancer specific and the DOD already has that infrastructure. 
Secondly, the committee has probably not been briefed, but 
there are four drugs up for FDA approval this year, Provenge, 
the vaccine which did not work for Jeremy Galloway, which was 
just FDA approved; Abiraterone, which was just in license by 
Johnson & Johnson up for phase III review.
    There is also going to be Ipilimumab and there will be 
MDV3100. All four of these new medicines in phase III trials 
came through the Department of Defense prostate cancer clinical 
trials program in cities like Portland, Seattle, Baltimore, Ann 
Arbor. Actually through an early clinical trials network which 
is not supported by the National Cancer Institute but actually 
is funded by your appropriation, run by the doctors, the same 
doctors that are NCI cancer centers. This is widely 
unappreciated as well. But again, prostate cancer has been 
largely underappreciated in American life historically. All 
this being said, there is a lot more work to do in biomedical 
research. The public debate around PSA is really a debate about 
a better test and I submitted the data to your taxpayers money 
and mine.
    We actually have real hope for patients if we can fast 
forward that kind of research. What is interesting, though, is 
also that the DOD congressionally mandated research program 
asks scientists like myself and doctors like myself to do three 
things that are unusual in NCI funding or NIH funding which are 
largely underappreciated.
    When I had the occasion to talk with Chairman Murtha last 
year, he squinted and he said why don't we know more about 
this. What he is referring to is that when you get a grant 
which I have gotten several in my career at Emory University, 
and before that on the faculty of Johns Hopkins from the DOD 
from this program, you are expected to provide milestones and 
actually endpoints and contingencies just in the same kind of 
culture that logistics and procurement are a part of life in 
the military.
    And since I am the son of the greatest generation GI Bill 
father, I kind of got it although at first when I was asked to 
provide timelines for my research I said this is not your NIH 
as I knew it. If you want to put patients on clinical trials, 
if you want to study how vaccines work, if you wanted to define 
genes and you are held somewhat accountable to simply report 
your progress, it has turned out that most cancer scientists 
and physicians like myself enjoy it, welcome it because the 
program also incentivizes higher performance.
    It is the first Federal program for biomedical research 
where actually some of the culture of excellent tactics in the 
field are rewarded in cancer research. Completely unexpected as 
a consequence of giving Captain Kami or others actually in the 
Pentagon control the program. It is not a workaround.
    It is a new invention in cancer research. And I would 
recommend to the committee that it ought to be reviewed as it 
actually may be better practice for certain aspects of our NIH 
right now. Lastly, with the 24 kinds of prostate cancer, there 
are a significant number of new medicines that might be 
developed for a Jeremy Galloway. In fact, if you have a disease 
that is now 24 diseases but it looks like one under the 
microscope, it is no different than saying if you have 24 
diseases you have 24 treatments. For our biotech and 
pharmaceutical industry there is a huge opportunity and most 
practically in terms of asking for 20 million to fast forward 
new medicines, 10 million for a new better test than the PSA, 
10 million for additional clinical trials--yeah, go ahead.
    Mr. Dicks. You have 1 minute.
    Dr. Simons. I have got it. In addition to doing all these 
things, I cannot emphasize enough the courage of the patients 
and families that participate in these clinical trials, Mr. 
Chairman. Without DOD funding, the progress I reviewed for you 
today would not have happened. Thank you.
    Mr. Dicks. Thank you. Another very compelling case.
    Ms. Kilpatrick. Mr. Chairman.
    Mr. Dicks. Yes, Ms. Kilpatrick.
    Ms. Kilpatrick. Thank you, Mr. Chairman. Why would the 
National Cancer Institute not approve a DOD project for their 
doctors and researchers to participate in as well? Is it 
competition or is it who is the best or----
    Dr. Simons. It is just that NCI doesn't fund it. In 
prostate cancer, early clinical trials, there is not a program 
at NCI for early----
    Ms. Kilpatrick. So they don't----
    Dr. Simons. The DOD funds it.
    Ms. Kilpatrick. Right. So they fund it, but you ought to be 
partners in the illness because it is catastrophic.
    Dr. Simons. I agree, Ms. Kilpatrick. But the last time that 
prostate cancer research was reviewed, I was on the panel, was 
in the Clinton administration for coordination between the DOD. 
After 9/11, a lot of things happened in this country. But a 
research strategy for American medical research did not take 
place in the last--we haven't--our government hasn't actually 
looked at our strategy in prostate cancer for 10 years.
    Ms. Kilpatrick. Thank you.
    [The statement of Dr. Simons follows:]

    [GRAPHIC] [TIFF OMITTED] T6611B.150
    
    [GRAPHIC] [TIFF OMITTED] T6611B.151
    
    [GRAPHIC] [TIFF OMITTED] T6611B.152
    
    [GRAPHIC] [TIFF OMITTED] T6611B.153
    
    [GRAPHIC] [TIFF OMITTED] T6611B.154
    
    [GRAPHIC] [TIFF OMITTED] T6611B.155
    
    [GRAPHIC] [TIFF OMITTED] T6611B.156
    
    [GRAPHIC] [TIFF OMITTED] T6611B.157
    
    [GRAPHIC] [TIFF OMITTED] T6611B.158
    
    [GRAPHIC] [TIFF OMITTED] T6611B.159
    
    [GRAPHIC] [TIFF OMITTED] T6611B.160
    
    [GRAPHIC] [TIFF OMITTED] T6611B.161
    
    [GRAPHIC] [TIFF OMITTED] T6611B.162
    
    [GRAPHIC] [TIFF OMITTED] T6611B.163
    
    [GRAPHIC] [TIFF OMITTED] T6611B.164
    
    [GRAPHIC] [TIFF OMITTED] T6611B.165
    
    [GRAPHIC] [TIFF OMITTED] T6611B.166
    
    [GRAPHIC] [TIFF OMITTED] T6611B.167
    
    [GRAPHIC] [TIFF OMITTED] T6611B.168
    
    [GRAPHIC] [TIFF OMITTED] T6611B.169
    
    [GRAPHIC] [TIFF OMITTED] T6611B.170
    
    [GRAPHIC] [TIFF OMITTED] T6611B.171
    
    Mr. Dicks. The committee is adjourned until early June when 
testimony will be provided by the head of the U.S. Special 
Operations Command. Thank you.
    [The following organization, Aplastic Anemia & MDS 
International Foundation did not appear before the committee 
but submitted testimony for the record:]

[GRAPHIC] [TIFF OMITTED] T6611B.172

[GRAPHIC] [TIFF OMITTED] T6611B.173

[GRAPHIC] [TIFF OMITTED] T6611P3.001


</pre></body></html>
